<html>
<title> - HEARING ON VA'S PLAN FOR ENDING HOMELESSNESS AMONG VETERANS</title>
<body><pre>[Senate Hearing 111-748]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 111-748

      HEARING ON VA'S PLAN FOR ENDING HOMELESSNESS AMONG VETERANS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2010

                               __________

       Printed for the use of the Committee on Veterans' Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate






                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  62-601 PDF               WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6106110e210214121509040d114f020e0c4f">[email&#160;protected]</a>  








                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Lindsey O. Graham, South Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Roger F. Wicker, Mississippi
Jim Webb, Virginia                   Mike Johanns, Nebraska
Jon Tester, Montana                  Scott P. Brown, Massachusetts
Mark Begich, Alaska
Roland W. Burris, Illinois
Arlen Specter, Pennsylvania
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director









                            C O N T E N T S

                              ----------                              

                             March 24, 2010
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     2
Tester, Hon. Jon, U.S. Senator from Montana......................     4
Murray, Hon. Patty, U.S. Senator from Washington.................    37

                               WITNESSES

Dougherty, Pete, Director, Homeless Programs, U.S. Department of 
  Veterans Affairs; accompanied by Lisa Pape, Acting Director, 
  Mental Health Homeless and Residential Rehabilitation Treatment 
  Programs.......................................................     5
    Prepared statement...........................................     7
    Response to written questions submitted by:
      Hon. Daniel K. Akaka.......................................    12
      Hon. Jim Webb..............................................    18
      Hon. Roland W. Burris......................................    20
      Hon. Mike Johanns..........................................    22
    Response to request for data on Suicide in Women Veterans by 
      Hon. Patty Murray..........................................    39
Jefferson, Hon. Raymond M., Assistant Secretary for Veterans' 
  Employment and Training, U.S. Department of Labor..............    22
    Prepared statement...........................................    23
Johnston, Mark, Deputy Assistant Secretary for Special Needs, 
  U.S. Department of Housing and Urban Development...............    26
    Prepared statement...........................................    28
    Response to written questions submitted by:
      Hon. Daniel K. Akaka.......................................    31
      Hon. Jim Webb..............................................    32
Shipman, Arnold, U.S. Air Force Veteran..........................    59
    Prepared statement...........................................    61
    Response to post-hearing questions submitted by Hon. Daniel 
      K. Akaka...................................................    62
Miller, Sandra A., Program Director, Homeless Veteran Residential 
  Services, Philadelphia Veterans Multi-Service & Education 
  Center.........................................................    62
    Prepared statement...........................................    64
    Response to post-hearing questions submitted by Hon. Daniel 
      K. Akaka...................................................    69
Tsemberis, Sam, Ph.D., Founder and CEO, Pathways to Housing, Inc.    70
    Prepared statement...........................................    72
    Post-hearing questions submitted by Hon. Daniel K. Akaka.....    77

                                APPENDIX

Parnell, Dennis, President and Chief Executive Officer, The 
  Healing Place of Wake County; prepared statement...............    79
    Post-hearing questions submitted by Hon. Daniel K. Akaka.....    81
Ryan, Patrick, Vice Chair, Board of Directors, National Coalition 
  for Homeless Veterans; prepared statement......................    82
    Response to post-hearing questions submitted by Hon. Daniel 
      K. Akaka...................................................    85

 
      HEARING ON VA'S PLAN FOR ENDING HOMELESSNESS AMONG VETERANS

                              ----------                              


                       WEDNESDAY, MARCH 24, 2010

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Murray, Tester, and Burr.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. Aloha and good morning, everyone. The 
Senate Committee on Veterans' Affairs will come to order.
    Today the Committee will hear testimony about the VA's 5-
year plan and the collective efforts of the Federal Government 
to end homelessness among veterans. We will also hear from 
individuals who have worked to end homelessness among veterans 
for many years.
    Earlier this month the VA announced approximately 107,000 
veterans were homeless on any given night in 2009. In 2008 that 
number was 131,000. While the reduction is good news, there are 
still too many veterans without a place to call home. 
Homelessness for any American is a very difficult thing, but 
for an individual who has answered the call to duty, it is not 
unacceptable.
    There are many challenges that veterans face which can lead 
to homelessness such as health concerns including mental health 
problems, economic issues, and a lack of access to safe 
housing. But these challenges are not new.
    The central question is, what do we need to do now to try 
to address and resolve these issues so that we can keep from 
having to face this problem a decade from now.
    Congress has been actively working on this issue for over 
20 years. As Chairman of the Committee, I stand ready to do my 
part in supporting efforts to bring it to an end.
    I am pleased that the Committee, with Senator Murray 
playing a leadership role, recently approved legislation to 
enhance the programs and services for homeless veterans and to 
expand services for homeless women veterans and veterans who 
have care for minor dependent children.
    This legislation, which presents another important step in 
our collective efforts, will be brought before the Senate in 
future. In order to be successful in any plan to end 
homelessness among veterans, we must recognize that a 
significant number of homeless veterans suffer from mental 
health issues.
    VA estimates that more than half of all homeless veterans 
have a serious psychiatric diagnosis. Many others are addicted 
to drugs and alcohol. Providing these veterans with an 
alternative to living on the street is a challenge.
    We must fully understand the needs of these veterans, the 
resources needed to assist them and be committed to meeting 
their needs.
    I applaud Secretary Shinseki for the dedication to the task 
of ending homelessness among veterans. But as we will hear 
today, VA cannot do it alone. If we, as a Nation, are to 
achieve this goal, we must leave no stone unturned when trying 
to help veterans in need.
    Today's hearing gives us a chance to better understand the 
current situation with an eye toward fixing what is not working 
and expanding what is working. I thank all of our witnesses for 
being here today to help us in this effort.
    And now I would like to call on our Ranking Member, Senator 
Burr, for his opening statement.
    Senator Burr.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Thank you, Mr. Chairman, and aloha.
    Chairman Akaka. Aloha.
    Senator Burr. More importantly thank you for calling this 
hearing and I welcome our witnesses from the VA and from around 
the country.
    There are few issues that we care more deeply about than 
making sure that we end homelessness among those who wore our 
Nation's uniform.
    The present Secretary has set an ambitious goal to end 
homelessness in 5 years. It is going to be tough, but I am 
committed to work toward that goal.
    According to the VA, 107,000 veterans were homeless on any 
given night last year including an estimated 15,089 in my State 
of North Carolina. Although those numbers represent an 
improvement over prior years, we still have much work to do.
    Let there be no mistake, however. The goal is not just to 
end homelessness in 5 years. It is also to make sure that the 
solutions are sustainable beyond the 5-year period. I have said 
it many times before; the only way to end homelessness is to 
ensure that it never begins in the first place.
    Prevention is the key. We must develop successful programs 
to target the estimated 27,000 veterans who are at risk of 
falling into that cycle every single year. We must also think 
smarter about where and how we invest in homelessness programs.
    Too often in the past we have been happy to point at the 
dollars we have thrown at the problem, without any real 
accountability for results, or an understanding of how public 
and private resources could better coordinate services with 
each other.
    I believe we have some models of success out there that 
provide us with a promising path forward. I am pleased that Mr. 
Dennis Parnell, President of the Healing Place of Wake County, 
NC, accepted the invitation to testify today. I think you will 
find their data riveting.
    Through its public/private partnerships, the Healing Place 
is able to boast of a sobriety recovery rate of over 68 percent 
1 year after. That success rate is three times the national 
average. And this success leads directly to the Healing Place's 
stellar record in reducing homelessness in the county. Not too 
many counties can claim that statistic.
    Today, I am anxious to hear about the Secretary's plan to 
move forward. No doubt his plan will require Congress' 
involvement.
    Unfortunately, I have been disappointed about the 
Administration's collaboration with us thus far. Last October, 
the Committee held a hearing on Comprehensive Homeless 
Legislation, S. 1547, but received no official views from VA on 
the bill.
    In the absence of any views, the Committee marked up the 
legislation in January with the expectation that VA would be 
providing us with a greater understanding of how it fits in 
with the Secretary's plan. Five months and multiple inquiries 
later, we received the views last night, giving my staff no 
opportunity to do a thorough analysis of the information. Of 
course, this is not the first time VA waits until the 11th hour 
to provide responses to inquiries they have had for months. 
This is also not the first time I have mentioned this problem, 
and I will continue to do so. I do not understand the delay. 
Why does it take VA 5 months to provide Congress with the 
crucial information we need to do the best job we can for our 
veterans?
    If in fact I go through the Secretary's blueprint and I 
find that this is another round of us throwing more money to 
programs that we cannot justify the outcome of, then we will 
need to figure out what the appropriate legislative action is 
after that. But I had committed to the Secretary to work with 
him because he assured me that we have a fresh, new pathway to 
get there.
    The bottom line is we need to get this right. There is too 
much at stake. We need to make sure all the information we need 
to allocate resources in the most effective way possible is in 
fact delivered.
    Mr. Chairman, I will work aggressively with you and through 
the witnesses that we have today to try to find out the answers 
to these questions.
    I once again welcome our witnesses and I thank the Chairman 
for his indulgence.
    Chairman Akaka. Thank you so much, Senator Burr. We will 
look forward to working together on this problem.
    I want to welcome the witnesses on our first panel. Each 
has had an important role in ending homelessness among 
veterans.
    Many agencies are required to work in partnerships if there 
is ever going to be homelessness among veterans. Too often in 
the past the collaboration between agencies who should have 
been working together just did not exist but I am hopeful this 
is no longer the case. It certainly does not appear to be today 
especially with the make up of our first panel.
    First, we have Pete Dougherty, Director of the Office of 
Homeless Veterans Programs at the Department of Veterans 
Affairs. I would like to note that Mr. Dougherty was a staff 
member of this Committee during the early 1990s.
    Welcome back, Mr. Dougherty.
    Mr. Dougherty is accompanied by Lisa Pape, Acting Director 
for Mental Health Homeless and Residential Rehabilitation 
Treatment Programs.
    Second, we have Hon. Raymond Jefferson, Assistant Secretary 
of Veterans' Employment and Training Service at the Department 
of Labor.
    Then we have Mark Johnston, Deputy Assistant Secretary for 
Special Needs at the Department of Housing and Urban 
Development.
    I thank you all for being here this morning. Your full 
testimony will appear in the record.
    Before I call on Mr. Dougherty to begin and proceed with 
his testimony, I am going to call on Senator Tester for any 
opening remarks he may have.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman and Ranking Member 
Burr. I appreciate your having this hearing. I think this is a 
very, very critically important issue.
    I want to welcome Assistant Secretary Jefferson. Ray, we 
still need to get you out to Montana to show you the sights and 
the veterans that are out there and the challenges that they 
face; and the same goes for everybody else on the panel too. 
Come and we will put you to work and show you the challenges we 
face in rural America from a Montana perspective.
    As you know, statistically in rural America veterans 
represent about 11 percent of the population. Montana is the 
fourth largest State. We have 104,000 veterans; 147,000 square 
miles. Senator Begich beats me on that, but we are not far 
behind.
    I do applaud Secretary Shinseki's call to end homelessness 
among veteran populations. This is the right goal. It 
absolutely is the right time to do that. We have to get the 
economy moving again and we have to make sure these folks are 
getting the health services and job training skills they need.
    If we focus just on the shelter portion or just on the 
mental health or substance abuse portion or just on the job 
training portion, we are going to come up short, and you guys 
know that.
    It takes all of these services delivered together in an 
integrated way to get the veteran off the street and make sure 
he does not end up back on the street.
    So I am pleased to see that HUD, VA, and the Labor 
Department are all here on the same panel. As we move along 
this morning, I want to remind folks that by some estimates 7 
percent of homeless veterans on any given night are in rural or 
frontier areas of our country. Some studies have it at 5 
percent. In either case, I do not think any of us want these 
folks to be forgotten about.
    The reality is that folks in rural areas are going to be 
harder to reach and it's harder to get key services and 
resources to them. That is why homelessness in rural parts of 
this country--the homeless--are referred to as the hidden 
homeless.
    With that, Mr. Chairman, I want to thank you very, very 
much for having this hearing. I look forward to each witness's 
presentation and we will have a good hearing.
    Chairman Akaka. Thank you very much, Senator Tester.
    I will now call on Mr. Pete Dougherty for your statement. 
Please proceed.

   STATEMENT OF PETE DOUGHERTY, DIRECTOR, HOMELESS PROGRAMS, 
 OFFICE OF PUBLIC & INTERGOVERNMENTAL AFFAIRS, U.S. DEPARTMENT 
OF VETERANS AFFAIRS; ACCOMPANIED BY LISA PAPE, ACTING DIRECTOR, 
MENTAL HEALTH HOMELESS AND RESIDENTIAL REHABILITATION TREATMENT 
                            PROGRAMS

    Mr. Dougherty. Thank you, Mr. Chairman.
    On behalf of the Secretary Shinseki, let me thank you and 
the Committee for the opportunity to review our plans to end 
homelessness among our Nation's veterans. As you have 
indicated, I am here and pleased to be with Lisa Pape.
    Now is the time to end homelessness among veterans. We owe 
every man and women who has worn our Nation's military uniform 
no less.
    As has been stated, the number of homeless veterans have 
gone down, but as you also indicated, and we agree, that any 
homeless veteran who is seeking services needs to have us and 
this government help them.
    This is an ambitious project. It requires a significant 
amount of resources. Our health care budget for next year is 
proposed to have $3.4 billion for core medical care and 
assistance and nearly $800 million in targeted programs that 
assist homeless veterans.
    We are taking a no-wrong-door approach as we do this. We 
are trying to make sure that every veteran seeking services has 
access regardless of the hour or their condition. We anticipate 
that we will provide direct care and prevention assistance to 
more than 500,000 veterans over the next 5 years.
    We are very concerned and we are constantly monitoring what 
we are doing. Our approach has been to be much more 
collaborative, much more diverse in the way we approach this 
problem.
    But we have looked at what we have done in the past and we 
have completed a study that said that when you look at contract 
residential care, when you look at our in-patient care programs 
for homeless veterans and you look at our transitional housing 
programs, that veterans who complete those programs that about 
80 percent are appropriately housed a year after they complete 
programs. That is good success.
    We have opened a national call and referral center for 
homeless veterans. We are working in partnership with the 
National Suicide Prevention Hot Line. That call center is 
really addressing the needs of that veteran whether they are in 
urban America or rural America, whether they are a service 
provider or a veteran themselves seeking services.
    The idea is to have an immediate ability to contact us and 
to get us to respond to that veteran's need. We will continue 
to actively engage with communities in outreach events. Many of 
them called stand downs.
    Last year over 48,000 homeless veterans and their family 
members came and sought services not just from VA and not just 
for my colleagues at this table but from community groups and 
organizations who could help across the country.
    We have a number of staff, about 350 staff who work in our 
health care for homeless veterans' program. That staff is going 
out and reaching about 40,000 homeless veterans. They go into 
soup kitchens and places like that.
    As we approach this, as Senator Burr reminded us, we have 
to be more collaborative in the way we do this. Part of what we 
are going to do is we are going to outstation 20 substance 
abuse treatment specialists in community programs to get the 
programs to the veteran as opposed to the veteran having to 
come to us.
    We are expanding contract residential care and expect to 
have about 5000 veterans who will get contract residential care 
so that when you contact us we have an immediate place for you 
to go to.
    Homelessness also has been a problem for veterans who have 
dental care problems. Under our plan we are doing things to 
address and expect about 20,000 veterans who will get dental 
care treatment. This is very important both for their physical 
health but it is also very important to get back into gainful 
employment which is what the hope of many of them are.
    We are expanding our opportunities to work with prosecutors 
and judges to expand efforts to work with veterans who are 
engaged in the criminal justice system and those who are 
exiting prisons. We are adding 46 full-time veterans' justice 
outreach specialists to assist veterans in treatment courts and 
veterans who are in drug courts.
    We are adding to the 39 health care for re-entry 
specialists who are working on prerelease outreach and post-
release case management. We expect about 12,500 will be aided 
by this effort.
    We are taking what are called our compensated work therapy 
program which is really a hospital-based program. And we are 
going to transfer it and put those staff into the community to 
help veterans get gainful employment in the community again. We 
expect about 2500 veterans will get assisted by that next year.
    We are making significant efforts to go out and offer 
funding to community groups and organizations on prevention 
services. As you and others have noted, prevention is where we 
have to be as well. We have to get to a prevention effort that 
will stop homelessness from ever beginning and we are looking 
forward to doing that.
    I will defer to Mark Johnston to talk a little bit more 
about HUD-VASH. We know that is very important and in the 
remaining time let me also just say that we understand that 
getting benefits and assistance is important.
    It is not just about getting a check; for many it is about 
getting back into gainful employment. So it is using my 
vocation rehabilitation benefits. It is about getting education 
services, going back to school, for many of these veterans. 
There are opportunities. We look forward to the opportunity to 
continue with our partners at this table, plus the U.S. 
Interagency Council, but more importantly, at the local level 
with thousands of groups who have come and helped us.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Dougherty follows:]
Prepared Statement of Pete Dougherty, Director, Homeless Programs, U.S. 
                     Department of Veterans Affairs
    Chairman Akaka, Ranking Member Burr, Distinguished Members of the 
Senate Committee on Veterans' Affairs. Thank you for this opportunity 
to discuss the most ambitious plan ever undertaken to effectively end 
homelessness among our Nation's Veterans. Today I am accompanied by 
Lisa Pape, Acting Director Mental Health Homeless and Residential 
Rehabilitation Treatment Programs.
    Homelessness among Veterans is a tragedy. While much has happened 
over the last several decades to address this problem, some Veterans 
still have no place to lay their head at night. Over the past 23 years 
the number and percentage of Veterans in the homeless population has 
gone down dramatically but our job is far from finished. We are making 
progress; data demonstrate that the number of homeless Veterans 
continues to decline because of the aggressive efforts by the 
Department of Veterans Affairs (VA) and its partners, including local 
and community organizations as well as state and Federal programs. Six 
years ago, 195,000 homeless Veterans lived on the streets of America; 
today, 107,000 do. VA has a strong track record in helping homeless 
Veterans. A study completed several years ago found approximately 80 
percent of Veterans who complete a VA program are successfully housed 
in permanent housing 1 year after treatment. We have invested $500 
million on specific homeless housing programs this year. We are moving 
in the right direction to remove this blot on our consciences, but we 
have more work to do.
    VA's major homeless-specific programs constitute the largest 
integrated network of homeless treatment and assistance services for 
Veterans in the country. These programs provide a continuum of care for 
homeless Veterans, providing treatment, rehabilitation, and supportive 
services that assist homeless Veterans in addressing health, mental 
health and psychosocial issues. VA also offers a full range of support 
necessary to end the cycle of homelessness by providing education, 
claims assistance, jobs, and health care, in addition to safe housing. 
Effectively addressing homelessness requires breaking the downward 
spiral that leads Veterans into homelessness.
    Veteran homelessness, at its root, is primarily a health care 
issue, as many homeless Veterans are heavily burdened with depression 
and substance abuse. VA's budget includes $4.2 billion in 2011 to 
prevent and reduce homelessness among Veterans--over $3.4 billion for 
core medical services and $799 million for specific homeless programs 
and expanded medical programs. This same budget includes an additional 
investment of $294 million in programs and new initiatives to reduce 
the cycle of homelessness, which represents a 55 percent increase over 
program funding for 2010. .
    Our strategy for ending homelessness is to create a collaborative 
approach focusing on prevention and ensuring there is ``no wrong door'' 
for a Veteran seeking service. VA's philosophy of ``no wrong door'' 
means that all Veterans seeking to avoid or escape from homelessness 
must have easy access to programs and services regardless of the hour. 
Any door a Veteran visits--a medical center, a regional office, or a 
community organization--must offer them assistance.
    VA is expanding its existing programs and developing new 
initiatives to prevent Veterans from becoming homeless and to 
aggressively help those who already are. We will do this by providing 
housing, offering health care and benefits, enhancing employment 
opportunities, and creating residential stability for more than 500,000 
Veterans. This further expansion will begin in fiscal year (FY) 2011 
and continue through FY 2014, subject to the availability of 
appropriations. Specifically, we will:

    <bullet> Increase the number and variety of housing options 
including permanent, transitional, contracted, community-operated, and 
VA-operated;
    <bullet> Provide more supportive services through partnerships to 
prevent homelessness, improve employability, and increase independent 
living for Veterans; and
    <bullet> Improve access to VA and community based mental health, 
substance abuse, and support services.

    Over the next 5 years, our focus on ending Veteran homelessness is 
built upon six strategic pillars. First, we must aggressively reach out 
to and educate Veterans--both those who are homeless and those who are 
at risk of becoming homeless--and others about our programs, finding 
those who are already homeless and those who are at risk for 
homelessness. Second, we must ensure treatment options are available, 
whether for primary, specialty or mental health care, including care 
for substance use disorders. Third, we will bolster our efforts to 
prevent homelessness. Without a prevention strategy, effectively 
closing the front door into homelessness, we will only continue 
responding after Veterans become homeless and therefore continue to 
manage the problem. Fourth, we will increase housing opportunities and 
provide appropriate supportive services tailored to the needs of each 
Veteran. Fifth, we will provide greater financial and employment 
support to Veterans, and work to improve benefits delivery for this 
vulnerable population. And finally, we will continue expanding our 
community partnerships, because our success in this venture is 
impossible without them. My testimony will describe our efforts in each 
of these areas.
                         outreach and education
    Our outreach and education initiatives must be led by a national 
effort to offer Veterans and others a way to contact us at any time. 
Veterans, particularly those in crisis, will benefit from our new 
National Call Center for Homeless Veterans. The Center will work in 
partnership with the highly successful National Suicide Prevention 
Hotline (operated in cooperation with the Substance Abuse and Mental 
Health Services Administration, SAMHSA, available at 1-800-273-TALK). 
The Call Center is operational, and Veterans and others who call (1-
877-4AID VET, or 1-877-424-3838) can receive specific referrals to VA 
and other community services to meet their immediate needs. We expect 
to nationally announce this program within the next couple of months, 
and we anticipate tens of thousands of Veterans, community 
organizations, family members and community providers will contact us 
for prompt and appropriate information. In cases where a Veteran is in 
crisis, this Call Center will ensure Veterans are placed in direct 
contact with a person who can speak to and provide them immediate 
assistance.
    We will continue expanding our outreach by engaging our community 
partners and supporting their efforts, as well as our own. An excellent 
example of our collaboration with community organizations are the Stand 
Down events VA has held for years. In 2009, VA participated in almost 
200 events in 46 states, including the District of Columbia and Puerto 
Rico, reaching more than 42,000 Veterans, more than 4,600 spouses, and 
almost 1,200 children of Veterans; the highest totals we have ever 
recorded. This performance represented a 40 percent increase in 
outreach to Veterans from the previous year.
    These efforts will also complement one of the most tried and true 
methods for helping homeless Veterans: sending staff to the streets and 
shelters to find them. There may be no more effective approach than 
meeting face-to-face, looking someone in the eye, and telling them you 
are there to help. Many Veterans, particularly those who have battled 
chronic homelessness, need skillful and repeated attempts to bring them 
the care they need. Along with our community partners, VA has 348 staff 
members engaged in this outreach every day, looking under bridges and 
in bread lines and visiting parks and parishes to find Veterans in 
need. The commitment and compassion these people display to those who 
have served America should stand as a model for us all, and VA will 
continue to support their vital work.
                               treatment
    VA recognizes that a plan to end Veteran homelessness will not be 
effective without a comprehensive suite of services for those with 
chronic and persistent health and mental health problems. This includes 
primary, specialty, and mental health care programs responsive to the 
needs of homeless Veterans. In 2009, VA had approximately 2,000 
residential rehabilitation treatment beds specifically identified for 
homeless Veterans. We will expand our residential treatment capacity 
for homeless Veterans by establishing five new domiciliary care 
programs for homeless Veterans in areas where there are large numbers 
of Veterans without proximate access to our current infrastructure. VA 
expects to establish approximately 200 new residential treatment beds 
next year alone.
    Veterans who are homeless often struggle with substance abuse. More 
than 60 percent of homeless Veterans have a substance use disorder 
which, if untreated, can keep them from returning to or sustaining 
independent living and gainful employment. As part of our 2011 budget, 
VA will enhance opportunities for Veterans to access these needed 
services in the community and help those who have achieved sobriety to 
maintain it by deploying an additional 20 community-based dual 
diagnosis clinicians. We expect this will help thousands more Veterans 
receive needed treatment in their communities. We will also integrate 
substance use and dual diagnosis expertise into 75 of our homeless 
Veteran case management teams to provide substance use services to 
Veterans and prevent relapse. We know that too many Veterans, even 
after they have completed employment or educational assistance 
programs, struggle to maintain stable lives because of continuing 
problems with sobriety. We would like to work with the Committee to try 
to develop a proposal that will help these Veterans finally overcome 
these challenges.
    Homeless Veterans, particularly the chronically homeless, often 
face health problems associated with inadequate dental care. These 
Veterans are at significantly greater risk for tooth and gum diseases 
that can impact their physical health, in some cases with serious 
health consequences. Moreover, the ability to return to gainful 
employment can be severely impacted when Veterans are afraid to smile 
or open their mouths to speak. VA often provides dental care for 
homeless Veterans through contracted care with private dentists. VA 
expects that as many as 20,000 homeless Veterans will receive dental 
care services this year. VA is currently authorized to provide a one-
time dental visit to homeless Veterans who have remained in a VA 
domiciliary care program or a community program under the grant and per 
diem program for at least 60 days. At this time, this benefit does not 
apply to Veterans benefiting from the Housing and Urban Development 
(HUD)-VA Supportive Housing (HUD-VASH) program. This is increasingly a 
point of concern for Veterans and VA community partners, and we look 
forward to working with you to determine an appropriate remedy.
    We are rapidly increasing resources at each VA medical center to 
enhance our community partnerships and expand opportunities for 
comprehensive residential care for Veterans by offering an immediate 
admission when a homeless Veteran with health care needs seeks our 
assistance. Approximately $23 million has been allocated in FY 2010 to 
expand our community-based contract housing program, and we expect that 
as many as 4,800 Veterans will be placed into contract residential care 
this fiscal year. Though beginning there, we know that many will 
transition into one of our other programs for homeless Veterans. No 
matter the setting, our first priority is to assist those Veterans 
seeking help to escape from the street and improve their lives.
    VA's continuum of care for homeless Veterans includes services for 
special populations, such as women and families, who may be at greater 
risk for homelessness. Programs targeted for women Veterans range from 
temporary and transitional housing to permanent housing with supportive 
services. VA has made women Veterans a funding priority in our Homeless 
Providers Grant & Per Diem program since 2007, and we have funded more 
than 220 programs with specific capacity to serve women. Since 2004, VA 
has provided seven special needs grants focused on additional services 
for women Veterans. Six of these programs are capable of supporting 
women with dependent children. The HUD-VASH Program provides permanent 
housing for homeless Veterans and their families with VA supportive 
services. Currently, 11 percent of Veterans who have received HUD-VASH 
vouchers are women. VA estimates that approximately 1,530 children live 
with their Veteran parent in HUD-VASH housing.
                               prevention
    Preventing homelessness under our 5-year plan will require a wide 
variety of efforts. One of our best efforts is our work with 
prosecutors and judges, as well as Veterans exiting prisons. VA now has 
at least a part-time Veterans Justice Outreach Specialist identified at 
each VA medical center. Forty-six of these outreach specialists are in 
full-time positions. These Specialists provide direct linkage to 
Veterans in treatment courts, including Veterans Courts. The 46 Veteran 
Justice Outreach Specialists being hired this year will work directly 
with Veterans in the criminal justice system to provide them 
appropriate care and services. We expect to help more than 7,500 
Veterans through this program in 2010. Additionally, the Health Care 
for Re-entry Veterans (HCRV) program was developed to provide pre-
release outreach, assessment, and brief term post-release case 
management services for incarcerated Veterans released from state and 
Federal prisons. The goal of the program is to promote successful 
community integration of Veterans by engaging them upon release in 
appropriate treatment and rehabilitation programs that will help them 
prevent homelessness, readjust to community life, and desist from 
commission of new crimes or parole or probation violations. The 39 HCRV 
Specialists have met with nearly 5,000 Veterans to aid their transition 
from prisons.
    VA's 2011 budget will support clinical environments through the 
Compensated Work Therapy Program, and VA will offer community-based 
staff that will target supportive therapeutic opportunities for 
Veterans with significant health problems. Providing these services in 
community settings will make these services available for Veterans in 
locations that will encourage participation and enhance community 
opportunities. While hospital-based support services will continue 
serving Veterans, VA estimates that as many as 48,000 additional 
Veterans will benefit from this new approach.
    We also are creating comprehensive efforts involving grants to 
community partners to provide supportive services to low-income 
Veterans and their families, including those making 50 percent or less 
of the area's median income. VA aims to improve very low-income Veteran 
families' housing stability through grantees (private non-profit 
organizations and consumer cooperatives) providing eligible Veteran 
families with outreach, case management, and assistance in obtaining VA 
and other benefits, which may include: health care services, financial 
planning services, transportation services, housing counseling 
services, legal services, child care services, and others. In addition, 
grantees may also provide time-limited payments to third parties (such 
as landlords, utility companies, moving companies, and licensed child 
care providers) if these payments help Veterans' families stay in or 
acquire permanent housing on a sustainable basis. This is critical to 
our efforts to end homelessness among Veterans. VA has draft 
regulations under review and we hope to publish them for public comment 
in time to allow us to issue a notice of funding availability early 
next calendar year.
    Operation Enduring Freedom and Operation Iraqi Freedom (OEF/OIF) 
Veterans currently represent almost five percent of the population 
receiving VA benefits in its specialized homeless programs. This group 
tends to be younger, and women represent a greater proportion as well. 
It is imperative we act now to prevent this group from becoming 
chronically homeless and to ensure others of this generation do not 
become homeless either. Congress has asked VA, HUD and the Department 
of Labor to collaborate on a multi-site demonstration project to 
explore ways the Federal Government can do more to offer early 
intervention and to prevent homelessness among those returning from 
OEF/OIF. This collaborative effort will provide comprehensive community 
services for Veterans and families and intensive case management so 
that Veterans receive needed health care and benefits. VA continues to 
work with HUD to help determine sites that will receive funds for 
community-based intervention services for Veterans and their families. 
We are hopeful that HUD will be ready to announce the locations that 
will be funded within 60 days.
    We know from past experience that homelessness among Veterans peaks 
7-10 years after military service, and we are conducting aggressive 
early intervention now to ensure OEF/OIF Veterans do not have that same 
experience. Our current efforts have reached nearly 3,800 OEF/OIF 
Veterans, more than 1,100 of whom have sought homeless specific housing 
or treatment services. Since 2003, VA has expedited 28,000 claims for 
compensation and pension for Veterans who are homeless or at-risk of 
homelessness.
    Another prevention strategy VA is pursuing is a national homeless 
registry. This database will help us better track and monitor 
prevention, homeless response and treatment outcomes. It will provide a 
real-time data system that will identify all Veterans who have 
requested assistance and the programs and services in which they are 
engaged. This will in turn help us determine the effectiveness of our 
efforts. Our plan is to build on existing database systems, like the 
Homeless Management Information System (HMIS) currently operated by 
HUD, and to extend the database for use with our Federal partners.
                         housing opportunities
    While VA has many options for providing Veterans with housing 
assistance, the sentinel piece of these efforts is the HUD-VASH 
program. I cannot say enough about the positive aspects of HUD-VASH; it 
is literally ending homelessness for Veterans. This program is the 
Nation's largest permanent housing initiative for Veterans. Under this 
initiative, HUD provides permanent housing through housing choice 
vouchers to hundreds of local public housing authorities. VA provides 
dedicated case management services to Veterans living in those units to 
promote and maintain recovery, housing stability and independent 
living. We began this effort about 20 months ago, and as of February 
2010, more than 19,000 Veterans have been accepted into the HUD-VASH 
program; more than 16,000 have received a housing voucher, and 10,600 
formerly homeless Veterans are now housed through these efforts. Our 
case managers are working with the other 5,000 to locate and secure 
housing. VA is working closely with HUD to see that the funding 
Congress provided for an additional 10,000 vouchers is available as 
soon as possible.
    Seventeen years ago, VA first offered funding to community and 
faith-based service organizations, as well as state and local 
governments, to provide transitional housing for homeless Veterans. 
Since then, VA has continued expanding transitional housing 
opportunities, and it now operates one or more programs in all 50 
states, the District of Columbia, Puerto Rico, and Guam. Since 2007, 
approximately 15.6 percent of the projects receiving VA funds and 14.5 
percent of the total funding were designed to help rural Veterans. 
These initiatives have provided 397 beds for rural homeless Veterans. 
All together, there are more than 600 transitional housing programs, 
and there are two pending ``notices of funding availability'' that we 
expect will add more than 2,200 new units. These notices include 
targets to increase opportunities to service women Veterans and 
Veterans residing on tribal lands. The application deadline is March 
31, 2010. This program has served almost 100,000 Veterans since it 
began, and we expect as many as 20,000 Veterans will benefit from 
transitional housing in FY 2010. This program helps Veterans find 
temporary housing (i.e., less than 2 years) and assists many Veterans 
in returning to independent living and gainful employment.
                    financial and employment support
    Veterans who are homeless and those at-risk of homelessness often 
need economic help. Many have service-connected disabilities, and many 
combat Veterans are eligible for pension, vocational rehabilitation, or 
foreclosure assistance, among other benefits. Veterans struggling with 
homelessness often face challenges with maintaining gainful employment. 
Many Veterans who have been homeless have gone years without a steady 
job, and many have physical and mental health issues that require 
participation in a therapeutic rehabilitative environment before 
seeking employment.
    Homeless Veterans and those at risk of being homeless need economic 
assistance. Many have service-connected disabilities and many are war-
era Veterans eligible for pension. In addition to compensation and 
pension benefits and services, many Veterans need education, vocational 
rehabilitation and employment and foreclosure assistance.
    Getting earned benefits to all Veterans is important. For homeless 
Veterans and those at risk, these benefits can make the difference in 
avoiding homelessness or exiting from it.
    The Veterans Benefits Administration (VBA) is actively pursuing the 
engagement of individuals upon entrance into military service and 
throughout their military career so that they are fully aware of their 
entitlement upon discharge. Additionally, VBA is coordinating with the 
Veterans Health Administration's health efforts and collaborating with 
our community partnerships to timely identify and process homeless 
Veterans' benefits claims. Each VA regional office has a homeless 
Veteran coordinator designated to control and expedite the processing 
of homeless Veteran claims. In FY 2009, VBA received 6,285 claims from 
homeless Veterans and completed 5,888 homeless Veteran claims.
                              partnerships
    VA has long maintained close working relationships with Federal 
partners, such as HUD, the Department of Labor (DOL), the Department of 
Defense, the Department of Health and Human Services, the Small 
Business Administration, the U.S. Interagency Council on Homelessness, 
and others, as well as state, local and tribal governments in its 
efforts to combat Veteran homelessness. Veterans Service Organizations 
also fill a critical role, as do community- and faith-based 
organizations and the business community. One example of these efforts 
is our work to develop better connections with prosecutors and judges 
in the criminal justice system. Another is the Homeless Veterans 
Reintegration Program (HVRP), which involves collaboration with DOL. 
Through this initiative, DOL's Veterans Employment and Training Service 
(VETS) offers funding to community groups to help Veterans return to 
gainful employment. VA contributes and works closely with DOL to 
provide needed health care and benefits. Veterans benefit because their 
health and benefits needs are addressed in complement with their 
employment opportunities. We are happy to continue partnering with DOL, 
and we look forward to working with them as they develop new proposals 
to fund programs benefiting women Veterans, Veterans with families, and 
formerly incarcerated Veterans.
    VA is also partnering with several Federal agencies in an effort to 
improve the utilization of HUD-VASH vouchers and to reach Veterans who 
are chronically homeless. Under the leadership of the U.S. Interagency 
Council on Homelessness and the White House Office of Urban Affairs, VA 
along with HUD, HHS, the Department of Justice and the Department of 
Labor will develop an interagency initiative that will bring the full 
arsenal of their resources to bear on the problem of homelessness. This 
initiative will not only target and house the most vulnerable Veterans 
that are chronically homeless, but it will also link them to 
employment, benefits and services to address other needs, including 
child support payments.
                               conclusion
    The President's FY 2011 budget and FY 2012 advanced appropriation 
request for the VA will provide us with the resources necessary to 
transform VA into a 21st Century organization and to ensure we provide 
timely access to benefits and high quality care to our Veterans over 
their lifetimes. Our Nation's Veterans experience higher than average 
rates of homelessness, depression, substance abuse, and suicides; many 
also suffer from joblessness.
    The time to end homelessness among Veterans is now. With your help, 
we will effectively end homelessness for all Veterans who will seek or 
accept services from us. We owe every man and woman who wore our 
Nation's military uniforms no less.

    Mr. Chairman this concludes my testimony. I am happy to respond to 
any questions your or the Committee may wish to ask.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
 Pete Dougherty, Director, Office of Homeless Veterans Programs, U.S. 
                     Department of Veterans Affairs
    Question 1. There are some critics out there that do not believe VA 
is equipped to end homelessness for the seriously mentally ill 
Veterans. How would you respond to this claim and how does the 5 year 
plan specifically address this population?
    Response. The Department of Veterans Affairs (VA) is committed to 
ending homelessness among all Veterans. The Five Year Plan to End 
Homelessness includes significant enhancements focused on improving the 
treatment services VA provides to homeless Veterans and specifically 
homeless Veterans with serious mental illness (SMI). In this fiscal 
year, the Department of Housing and Urban Development-VA Supported 
Housing (HUD-VASH) has enhanced funding for case management services. 
This enhancement has enabled VA to decrease VA caseloads from 35:1 to 
25:1 which allows case managers to provide more frequent and more 
intense services to homeless Veterans with SMI and Veterans with 
families. VA has also enhanced services to ensure that the Veterans who 
have been chronically homeless, continuously homeless for one year or 
who have had four or more episodes of homeless in the prior three 
years, receive timely access to the program. Additionally, VA has added 
over 80 addiction specialists to the HUD-VASH case management teams to 
better meet the needs of Veterans with co-occurring mental health and 
substance use treatment needs. In fiscal year (FY) 2011, vocational 
specialists will be added to the homeless outreach and case management 
teams to provide supported employment services, an evidence-based 
vocational service for individuals suffering from SMI. The current plan 
is to enhance every HUD-VASH team with vocational specialist.
    To further address the needs of homeless Veterans with SMI, VA has 
enhanced Healthcare for Homeless Veterans (HCHV) contract residential 
treatment beds with supportive services designed to help engage the 
hard-to-reach, hard-to-engage homeless, and at-risk Veterans by 
providing temporary housing as an alternative to shelter care. VA has 
also increased funding for transitional housing through the Grant and 
Per Diem (GPD) program, which provides transitional housing to meet the 
needs of homeless Veterans with SMI. Moreover, VA's FY 2011 budget 
funds five new Residential Rehabilitation and Treatment Programs (MH 
RRTP) in large metropolitan communities, so that Veterans with more 
intensive treatment needs can receive services in their local 
communities.
    The VA National Center on Homelessness Among Veterans is supporting 
a demonstration project in 16 Veterans Integrated Service Networks 
(VISNs) that combines homeless services with rural health intensive 
case management teams to better address the needs of homeless Veterans 
in rural communities who also suffer from a SMI. If proven effective, 
VA plans to expand this demonstration project to additional sites in 
future years.
    VA has significantly expanded mental health services in recent 
years to promote greater access to services and to ensure that Veterans 
receive evidence-based treatments that promote recovery. These efforts 
have enhanced VA's ability to meet the needs of Veterans with SMI, many 
of whom are homeless and/or at risk for becoming homeless. VA has 
funded Rural Mental Health Intensive Case Management (MHICM RURAL) 
teams and expanded existing Mental Health Intensive Case Management 
(MHICM) teams. VA has also implemented Psychosocial Rehabilitation and 
Recovery Centers (PRRC) to provide a therapeutic and supportive 
learning environment for Veterans with SMI. In its residential and 
mainstream mental health services, VA has sought to codify and 
implement best practices at mental health programs throughout the 
country, thereby strengthening efforts to successfully treat the 
chronically homeless who are more likely to struggle with SMI. National 
policies on suicide prevention and medication management have improved 
safety, while the new Uniform Mental Health Services Handbook has 
expanded access by mandating that all Veterans, wherever they obtain 
care in the Veterans Health Administration (VHA), have access to needed 
mental health services.

    Question 2. HUD and VA should be commended for the level of 
coordination and cooperation they've had in getting HUD-VASH vouchers 
distributed to housing authorities with quick guidance on program rules 
and regulations. Unfortunately that same level of cooperation isn't 
playing out in many communities where housing authorities (PHAs) and 
VAMCs are simply not leasing up vouchers as quickly as they should. 
What can we do to improve lease-up rates for these vouchers? Should 
PHAs and VAMCs be required to have a memorandum of understanding in 
order to be awarded vouchers? For communities that are using HUD-VASH 
very successfully, how can we better get their story shared with other 
communities?
    Response. Both HUD and VA are committed to promoting timely access 
to permanent supportive housing through HUD-VASH. Both agencies are 
working closely together and enacting several key initiatives to 
improve access to HUD-VASH. VA has established performance monitors 
that promote timely hiring of case managers and timely lease-up rates 
of awarded vouchers by medical centers. Medical Centers that are 
deficient have been asked to provide performance improvement plans. 
Both HUD and VA have conducted consultative site visits with 
communities experiencing implementation delays. These visits have 
assisted in reducing barriers and promoting greater coordination 
between VA, Public Housing Authorities (PHA) and community partners. VA 
plans to continue this process through FY 2010. VA is also looking for 
ways to streamline the referral process as part of this improved 
coordination for all sites. VA and HUD have added a performance 
component to the voucher award allocation process for 2010 that 
incentivizes high performers and challenges low performers to increase 
their productivity as a pre-condition to receiving additional vouchers. 
VA and HUD are also encouraging targeted project-based developments in 
communities where there are difficulties securing safe, affordable 
housing and where there is capacity to rapidly establish a project-
based program for Veterans. VA and HUD will continue to conduct 
training for both VA case managers and for PHA staff. Four Regional 
trainings are planned for this year, and VA and HUD will continue to 
conduct satellite broadcasts for staff. In response to extreme 
situations, VA and HUD have also reassigned PHAs and contracted out 
case management services in an effort to improve lease-up rates.
    In FY 2010, VA is promoting the utilization of a Housing First 
Model in several large cities. Housing First promotes rapid and direct 
placement of homeless individuals and their families into housing 
emphasis, and offers treatment and supportive services with variable 
intensity and frequency as an integrated component of the service. The 
Housing First approach represents a change from linear models that seek 
to prepare individuals for permanent housing by requiring completion of 
treatment in residential rehabilitation or transitional housing, and 
often require demonstrated sobriety before moving into permanent 
independent housing.
    The question of whether there should be a required memorandum of 
understanding between the VA medical center and PHA has been raised. 
Both agencies believe that this is not necessary, and may, in some 
cases, even impede timely access. What is most critical is an ongoing 
dialog between the VA case management team and the PHA to mutually 
define targets, identify areas for improvement and monitor progress.
    In an effort to share successful programs and best practices with 
other PHAs, VA and HUD sponsored a workshop on this topic at the 
national HUD-VASH training held in June 2009. Similar workshops will be 
held at the upcoming regional training sessions. In addition, VA and 
HUD plan to conduct site visits at four of the top-performing HUD-VASH 
sites, for the specific purpose of identifying the policies and 
practices that have created the positive results we are hoping to 
achieve at all sites. The information learned from these sessions will 
be distributed to all HUD-VASH sites in the form of a ``best 
practices'' document.

    Question 3. Please elaborate on the residential rehabilitation 
treatment and domiciliary care programs for homeless Veterans?
    Response. Mental Health Residential Rehabilitative Treatment 
Services Programs (MH RRTP) provide residential rehabilitative and 
clinical care to eligible Veterans who have a wide range of medical, 
psychiatric, and substance use illnesses. MH RRTPs are designed to 
provide comprehensive treatment and rehabilitative services meant to 
decrease reliance upon more resource-intensive forms of treatment and 
improve the quality of the Veteran's functioning. The residential 
component promotes personal responsibility and self-care lifestyle 
changes in a milieu that provides opportunities to practice and master 
new skills. Many Veterans require treatment for illnesses that are 
severe enough to warrant residential rehabilitative care. These 
illnesses adversely impact the Veteran's vocational, educational, 
social functioning and housing conditions. VA operates a wide range of 
mental health and substance use disorder residential programs under the 
Mental Health Residential Rehabilitation Treatment Program (MH RRTP) 
continuum. Currently there are 236 MH RRTP programs with over 8400 
beds. FY 2009, the MH RRTPs served approximately 34,000 Veterans of 
which approximately 60 percent were homeless Veterans. FY 2009 outcome 
data on Veterans discharged from the DCHV and Compensated Work Therapy 
(CWT/TR) programs indicate that 55.6 percent and 73 percent, 
respectively, are housed, either in an apartment, a room or a house.
    Domiciliary Care for Homeless Veterans (DCHVs) Programs are MH 
RRTPs that provide a residential level of care specifically for 
homeless Veterans in a structured and supportive rehabilitative 
treatment environment.
    The Domiciliary Care for Homeless Veterans (DCHV) program provides 
homeless Veterans with 24 hour-per-day, 7 day-per-week (24/7), time-
limited residential rehabilitation and treatment services to include 
care for medical health, psychiatric health, substance use disorders 
and sobriety maintenance support. These programs also provide 
medication management; social and vocational rehabilitation; and 
include work-for-pay programs.
    The mission and goals of the DCHV Program are to: 1) address the 
co-occurring disorders and complex psychosocial barriers that 
contribute to homelessness among Veterans; 2) improve Veterans' health 
status, employment performance and access to basic social and material 
resources; 3) reduce overall reliance on costly VA inpatient services, 
and, most importantly; 4) reduce homelessness by preparing Veterans 
for, and facilitating their transition to, appropriate community 
housing. From the program's inception in 1987 to the end of FY 2009, 
more than 98,000 episodes of treatment have been provided. A three-
month post-discharge outcome study of the DCHV program showed that 
program participation was found to be associated with improvement in 
all areas of mental health and community adjustment in particular; 
increases in social contact with friends and family and increases in 
income primarily from earnings from employment. Among Veterans 
discharged from DCHV treatment in FY 2009, 71 percent were noted to 
have improvements in financial status. In FY 2008, the average monthly 
earnings, among Veterans participating in CWT/TR working either part 
time or full-time, were approximately $800/month.
    Over six thousand episodes of DCHV care (n=6,311) were completed 
during FY 2009, nearly 400 more episodes than in FY 2008. The mean age 
of Veterans receiving treatment is 49.6 years and 4.9 percent were 
women (n=309 females). Half of Veterans in DCHV programs served during 
the Post-Vietnam Era, nearly one-third served during the Vietnam Era 
and 17.1 percent served during the Persian Gulf Era. Of particular 
note, 69 Veterans reported service in Afghanistan and 278 Veterans 
reported serving in Iraq, or 5.5 percent of the total Veterans admitted 
to DCHV. The proportion of White Veterans was 48.5 percent, with 43.6 
percent African American Veterans and 5.0 percent Hispanic Veterans. 
Fourteen percent of Veterans entering the program were homeless for 
less than one month, 47.4 percent were homeless between one to eleven 
months; 27.3 percent were homeless for a year or more and 11.8 percent 
of Veterans were considered to be at risk of homelessness.
    Monitoring data indicate that ninety percent of Veterans discharged 
from the DCHV Program in FY 2009 had a substance use disorder and over 
half had both alcohol and drug problems. In addition, over two-thirds 
(68 percent) of participant Veterans had a diagnosis of a serious 
mental illness, and 61 percent had both a serious mental illness and a 
substance use disorder. As the mean age of Veterans in the program has 
increased over the years, so has the proportion of Veterans with 
serious medical conditions. In FY 2009, Veterans were diagnosed with 
the following medical conditions: orthopedic problems (42 percent), 
hypertension (37.7 percent), liver disease (22.3 percent), 
gastrointestinal problems (17.9 percent) and diabetes (11.8 percent).
    The average length of stay in FY 2009 was approximately three and a 
half months and nearly three-quarters of Veterans successfully 
completed the program. Over 80 percent of Veterans were discharged to 
an appropriate community environment after completing their DCHV 
treatment. Nearly one-third (30.5 percent) went to live in their own 
apartment, room or house and an additional 25.1 percent were discharged 
to a stable arrangement in an apartment, room or house of a family 
member or friend. While the majority of Veterans were housed at 
discharge, 26.7 percent continued to receive additional treatment 
either in a halfway house or transitional housing program, a hospital 
or nursing home, or another domiciliary program. Twenty-two percent of 
veterans were able to secure part-time or full-time employment at the 
time of their discharge. One quarter of Veterans were unemployed and 
23.6 percent were retired or disabled. An additional 18.1 percent had 
arrangements to participate in a VA work therapy program such as 
Compensated Work Therapy (CWT) or Incentive Therapy (IT). Data is not 
currently available on the number of Veterans that return to DCHV 
treatment; however, data are available on Veterans discharged from DCHV 
treatment who are re-admitted to an acute VA inpatient psychiatric bed 
section. During FY 2009 5.2 percent of Veterans were re-admitted to an 
acute VA inpatient psychiatric bed section 30 days following their DCHV 
discharge. Data from VA's administrative file, the Monthly Program Cost 
Report indicates that the average cost per episode of treatment in the 
DCHV program during FY 2009 was $20,653. Approximately 6 percent of 
Veterans participating in VA's HUD--VASH program were referred by a MH 
RRTP including a DCHV program. Housing affordability will vary 
depending on the local housing market and availability of housing. 
Other factors to consider include the local economy and the 
availability of good paying full-time jobs. There are creative ways 
that VA assists Veterans in obtaining affordable housing including 
sharing apartments with other Veterans, placements in the Oxford House 
model, and referrals to VA's HUD-VASH program. VA continues to forge 
relationships with community non-profit organizations to build 
affordable and permanent housing specifically for Veterans.
    Currently there are 42 DCHV sites with a total of 2,152 operational 
beds located in all 21 VISNs. VA is planning to develop five additional 
new 40-bed DCHV programs in large metropolitan locations.

    Question 4. How does VA measure the success of its many homeless 
Veteran programs?
    Response. VA will measure the success of its homeless Veteran 
programs by the consistent reduction of the number of homeless 
Veterans. The ultimate success for the VA homeless programs is when a 
formerly homeless Veteran is able to live as independently and self-
sufficiently as possible in a community of his or her choosing. 
Veterans living in shelters or sleeping on a couch in others' housing 
are still homeless, and ending that homelessness requires placing those 
Veterans in permanent housing, with access to any treatment or other 
supportive services they require. There are other, more program-
specific goals related to outreach, residential treatment, access and 
sustaining mental health and primary care, employment and accessing 
benefits both inside and outside of the VA. The ultimate goal is to 
eliminate Veteran homeless by assisting homeless and at-risk Veterans 
in obtaining stable, safe, and affordable housing. Through stable, 
safe, and affordable housing, Veterans will reach their highest level 
of recovery, enjoying an improved quality of life and functioning at 
the Veteran's highest possible level.
    The VA Homeless Program Office has a robust and comprehensive data 
collection system overseen by the Northeast Program Evaluation Center 
(NEPEC) located at New Haven VA Medical Center. This office has been 
providing homeless program evaluation for the past 20 years. A broad 
array of information about homeless Veterans and the care they receive 
from VHA homeless programs is collected, analyzed, and published in 
quarterly and annual reports. The categories of data collected include 
the following: Program Structure and Resources (e.g., number and type 
of treatment beds, occupancy rate, staffing information), Veteran 
Characteristics (e.g., demographics, psychosocial, psychiatric, 
vocational, legal history), Process Data (e.g., number of Veterans 
treated, type, frequency, and intensity of services provided), and 
Discharge and Post-Discharge Outcomes (e.g., length of stay, discharge 
to independent housing, sobriety at discharge and follow-up, 
readmission rates to inpatient psychiatry).
    Information about homeless Veterans and the services they receive 
is collected at numerous time points, including at first contact 
through outreach, at admission to a homeless program, at variable 
intervals while receiving care within certain programs (e.g., Housing 
and Urban Development-VA Supported Housing (HUD-VASH)), at discharge 
from a homeless program, and at follow-up intervals for Veterans 
discharged from certain homeless programs (e.g., Grant & Per Diem (GPD) 
Program). This information is collected via multiple methods, including 
online data collection managed by NEPEC, manual completion of surveys 
and forms that are submitted to NEPEC, and information sharing between 
NEPEC and the VISN Support Services Center (VSSC).
    In most cases, a VA employee completes a survey or online form 
related to the homeless Veteran and services he/she received. This 
information is Veteran-specific and is submitted to NEPEC where it is 
compiled into quarterly and annual reports at the national, VISN, and 
medical center levels. In cases where the Veteran is providing direct 
feedback about services received, the Veteran completes the form and 
submits it to a VA employee in a sealed envelope who submits it to 
NEPEC. This information is utilized at all levels to review, analyze 
and make adjustments in programming and services as needed.
    Consistent with VA's goal of establishing a homeless registry and a 
data management system capable of generating real time reports, the 
office has been developing a web based data entry system that will be 
designed to be Veteran-centric. The new data system will generate 
reports that describe both Veteran-specific episodes of care data and 
program-specific information. The data management system will also be 
used to help populate a more comprehensive Homeless Registry so VA will 
have the capacity to monitor on an ongoing basis treatment outcomes of 
Veterans who have fallen into homelessness or who were identified as at 
risk for homelessness and received supportive services from VA or other 
community partners. The first phase of the data management system will 
be available in May 2010.
    One of the most exciting aspects of this new data management system 
is the real-time nature of the data. In the past, national program 
reports lagged after the end of the fiscal year. With this first phase 
of the registry and data management system, the Homeless Program Office 
can answer questions related to its programs with data up to the 
previous completed month. For example, in the first half of FY 2010, 53 
percent of Veterans who discharged from GPD obtained stable, 
independent housing. VA has not historically collected actual income 
levels at admission and discharge, but future phases of the registry 
will include this data and enable specific evaluation of improvement in 
income over the course of treatment in a VA homeless program.
    The first phase of the homeless registry and data management system 
focused on internal VA data. Future phases will include data sharing 
agreements with other national agencies in order to incorporate 
critical data on homeless services and resources that the Veteran 
receives outside of VA. Extended discussion has occurred with HUD 
regarding the compatibility between the Homeless Registry and HUD's 
Homeless Management Information System (HMIS), with plans to connect 
these two systems so that the HMIS data can be reflected in the VA 
Homeless Registry and vice versa. There are challenges still to 
overcome in this endeavor, primarily related to the fact that the HMIS 
does not include individual-specific data, whereas the ability to 
reflect Veteran-specific data is crucial to the functioning of the 
Homeless Registry.

    Question 5. Unfortunately, not all stories about the HUD-VASH 
program are positive. Occasionally there are reports about an area 
being awarded an increase in vouchers, but within a year, less than 
half of them were used. With the significant increases recently in the 
number of vouchers awarded across the country, what obstacles do VA's 
case managers face when trying to locate and secure housing for 
Veterans?
    Response. The most significant challenges to VA case managers 
include assisting Veterans with security deposits, utility deposits, 
down payments for first and last month rents, and obtaining the 
essentials to move into housing (bedding, tableware, furniture, etc.). 
Related concerns include assisting Veterans with credit restoration so 
they can be more attractive candidates for landlords. In addition, many 
veterans have accrued large amounts of child support arrearage incurred 
while the veteran was homeless, in a phase of active addiction, or 
otherwise untreated for a serious mental illness. For incarcerated 
veterans, growing arrears from unpaid child support can be particularly 
challenging to their ability to reintegrate in the community. In some 
large metropolitan communities, limited availability of safe, 
accessible housing stock has contributed to delays in lease up rates; 
however, this is not a large scale concern and HUD and VA are working 
with those communities to explore options to maximize HUD-VASH 
implementation.
    Recently HUD has awarded funding for Homelessness Prevention and 
Rapid Re-Housing (HPRP) which does encourage the use of these funds to 
assist Veterans in HUD-VASH. Access to these funds has not been 
uniform, however, and the two agencies are developing strategies to 
maximize access to these resources. Enhancing access to these funds or 
similar funding will improve lease-up rates in the HUD-VASH program.

    Question 6. A few of the witnesses on the second panel believe that 
VA has good programs, yet, they are not as successful as they could be 
due to poor implementation at the local level. What kind of oversight 
do you and your staff conduct regularly to ensure proper implementation 
of the programs
    Response. VA agrees that its homeless programs are effective and 
that the level of cooperation and coordination between Federal and 
community partners is high, but notes there are outliers who are under 
performing. To address these issues, VA and HUD have been conducting 
joint satellite broadcast training and providing information to the 
field to promote more timely implementation and compliance with 
programmatic goals. The VA Homeless program office has established 
metrics to monitor medical center performance related to the Five Year 
Plan. Currently, the HUD-VASH monitor is reviewed with the VISN 
Directors in their quarterly meetings with the Deputy Under Secretary 
for Health for Operations and Management. VA and HUD have conducted 
site visits with underperforming communities, and both agencies have 
monthly calls to assist with questions and concerns related to 
implementation. As HUD-VASH continues to grow, VA and HUD are planning 
to provide more focused technical assistance to the field to improve 
timely access and compliance with program goals, and both agencies plan 
to continue joint site visits to promote more timely and coordinated 
access to services. VA, HUD and US ICH are also working closely 
together to develop strategies for enhancing coordination of programs 
serving homeless Veterans.
    For the past 20 years, VA has been conducting program evaluations 
for its homeless services. Within this reporting structure VA has been 
able to identify service utilization for homeless Veterans who have 
accessed VA funded programs such as Outreach, Residential 
Rehabilitation and Treatment, Grant and Per Diem, HUD-VASH and VA 
Contract housing. In addition, VA is developing a registry that will be 
designed to identify service utilization of Veterans both inside and 
outside of the VA.. Once complete, the registry will promote VA's 
capacity to track service utilization and outcomes for our Veterans who 
have fallen into homelessness.

    Question 7. What challenges do you face when trying to execute your 
department's homeless Veteran programs in conjunction with another 
agency's programs?
    Response. The level of cooperation between the VA's homeless 
Veterans programs and other agencies programs has been remarkable. Our 
most significant partners are the United States Departments of Housing 
and Urban Development (HUD) and the Department of Labor (DOL). Some 
challenges are the result of the different cycles of times for notices 
of funding availability (NOFA), but these are modest in comparison to 
the added strength in collaboration between agencies that provides to 
all programs serving homeless Veterans. One specific challenge relates 
to the At-Risk Pilot for recently discharged Veterans, a significant 
percentage of whom are Operation Iraqi Freedom (OIF)/Operation Enduring 
Freedom (OEF) Veterans, and their families. While VA and HUD have 
worked closely for months to determine the locations which should 
receive HUD funding for the pilot, the VA cannot recruit staff until 
HUD makes their announcement.
    We are also developing a working relationship with the Department 
of Health and Human Services (HHS) to address findings from the most 
recent CHALENG survey (Please see response to question 3, Senator 
Burris), completed by service providers, advocates and Veterans 
themselves, who identified assistance with family related issues 
including assistance with child support, child care and family 
reunification as unmet needs. Currently HHS's Office of Child Support 
Enforcement, the American Bar Association, and the VA have formed a 
collaborative effort in nine major cities to address unresolved child 
support issues that may impact the Veteran's ability to obtain and 
retain employment.

    Question 8. HUD's homeless programs have embraced the Housing First 
model, in which homeless individuals have access to housing first and 
then providing services as needed. A growing body of research has 
validated this model and the media is reporting on it more frequently. 
This model differs from a more linear approach Veterans housing 
programs take, in which individuals are expected to first demonstrate 
their ``ready'' for housing. Can you describe the differences and 
similarities in the two Department's approaches? Does the VA intend to 
encourage the homeless providers it supports to utilize a housing first 
approach?
    Response. Until the enhancement of HUD-VASH in 2008 with 10,000 
vouchers, VA was not fully engaged with permanent supportive housing 
models, but focused on residential treatment and transitional housing 
models. With the growth of HUD-VASH, VA has been meeting with HUD and 
the community to explore enhancing its current practices to be more 
supportive of permanent supportive housing models, including ``Housing 
First''. Housing First is a widely applied service approach 
encompassing a broad range of treatment and supportive services offered 
to individuals who are homeless. Housing First promotes rapid and 
direct placement of homeless individuals (in some cases with 
accompanying family members) into housing, and offers treatment and 
supportive services with variable intensity and frequency as an 
integrated component of the service. In some programs, for example, 24 
hour Assertive Community Treatment coverage is offered, but only 
minimal (twice monthly) participation is required. The Housing First 
approach represents a change from linear models that seek to prepare 
individuals for permanent housing by requiring completion of treatment 
in residential rehabilitation or transitional housing, (e.g., VA's 
Homeless Providers Grant and Per Diem program), and often require, as 
well, achievement of sobriety, before moving into permanent independent 
housing. VA is aware that Housing First is a proven best practice for 
the chronic homeless population who present with serious mental illness 
and VA is working with HUD and select communities to evaluate how it 
can adapt this approach for Veterans seen in HUD-VASH.

    Question 9. The Committee is concerned about outreach and 
identification of homeless Veterans who are eligible for HUD-VASH 
vouchers. We understand that many VAMCs are identifying potential VASH 
recipients from Grant and Per Diem programs, and that by doing so they 
are failing to serve the chronically homeless Veteran who is still out 
on the street and has been for a very long time. Is data available for 
how many VASH voucher holders came directly from a Grant and Per Diem 
program? How can the Department encourage VAMCs to better identify 
chronically homeless Veterans who may not be currently accessing VA 
services?
    Response. VA understands the importance of targeting homeless 
Veterans who are currently on the streets and in shelters. In a 
memorandum to the field regarding HUD-VASH funding for FY 2010, VA has 
made it very clear that targeting chronically street homeless and 
Veterans who are in emergency shelters is critically important, and 
that each medical center must target our most vulnerable, chronically 
homeless Veterans who also have the most acute needs. Additionally, 
each VA medical center must make every effort to coordinate with our 
community partners, especially the local Continuum of Care, to identify 
this most vulnerable population with referrals to HUD-VASH. Referrals 
from the community into HUD-VASH are vital to meeting our goals, so 
every effort must be made to enhance these partnerships. VA is 
currently in the process of revising its HUD-VASH evaluation tool so 
that data regarding the sources of the referral will be gathered and 
monitored.
    VA has a full continuum of treatment and supportive services where 
homeless Veterans with SMI can receive services including specialized 
Residential Rehabilitation and Treatment Programs and Grant and Per 
Diem (GPD) Programs. Many of the Veterans served in these programs were 
referred from the streets and shelters. Based on preliminary program 
evaluation data for HUD-VASH, approximately 30 percent were referred to 
HUD-VASH from VA transitional housing and treatment programs 
(Residential Rehabilitation and Grant and Per Diem).
    Many specialized GPD programs focus on homeless Veterans with 
substance use issues, mental health disorders, chronically homeless 
Veterans, and chronically mentally ill Veterans. Services provided to 
these clients include substance use disorder education and treatment, 
relapse prevention, cognitive-behavioral therapy, other individual 
psychotherapy, Veteran-to-Veteran peer support groups, recreational 
activities, case management, vocational assessment and computer 
training. GPD providers who have successfully housed chronically 
homeless Veterans for many years understand the special needs of this 
population including a preference for living in Veteran-specific 
housing, among their peers. Providers work closely with VA medical 
centers to share their experiences in working with this population.

    Question 10. In the 110th Congress this Committee passed 
legislation (S. 2162, The Veterans' Mental Health and Other Care 
Improvements Act), which became law in September 2008. Among other 
provisions, the bill authorizes the VA Secretary to provide grants to 
community organizations to provide supportive services to homeless 
Veterans. Can you please update us on the distribution of those 
funds?''
    Response. The Supportive Services for Veteran Families (SSVF) 
program currently has published proposed rules in the Federal Register. 
The public comment period for these proposed rules closed on June 4, 
2010. The VA is currently evaluating these comments. In order to 
disseminate information about this new program, VA has awarded a 
technical assistance contract to the Corporation for Supported Housing 
(CSH). CSH is currently working with the VA on a plan that will educate 
and assist potential grant applicants who may want to apply for the 
SSVF program funding. Before the end of the calendar year, VA expects 
to have final regulations approved and issue a notice of funding 
availability (NOFA).
    Through the Supportive Services Grants VA will offer funding to 
non-profit organizations to work with Veterans and their families in 
order to maintain them in their current housing and to help them gain 
permanent housing. These community-based programs will offer eligible 
Veterans and their families' limited rental assistance, child care 
services, employment training, emergency supplies, case management and 
referral services, such as linkages to primary and specialty care 
services, as well as other community entitlement and supportive 
services.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Jim Webb to Pete 
    Dougherty, Director, Office of Homeless Veterans Programs, U.S. 
                     Department of Veterans Affairs
    Secretary Shinseki, according to VA's Director of Homelessness, as 
of February 10, 2010, more than 19,000 Veterans have been accepted into 
the HUD-VA Supported Housing (HUD-VASH) program; more than 16,000 have 
received a housing voucher, and 10,600 formerly homeless Veterans are 
now housed through these efforts.

    Question 1. How many of those 19,000 Veterans subsequently no 
longer need vouchers because they were able to raise their income to a 
level sufficient to lead an independent life?
    Response. It is important to note that all of the 19,000 homeless 
Veterans accepted into HUD-VASH case management services were recently 
identified as homeless and have been admitted into the program within 
the past 24 months. As part of the admission process, VA assures that 
the Veteran meet eligibility requirements for homelessness while the 
Public Housing Authority (PHA) determines if they meet income 
eligibility requirements. Once it is determined that the Veterans meet 
income eligibility requirements, they are issued a housing voucher and 
the VA case manager works with them to place them into housing. Of the 
19,000 Veterans admitted into HUD-VASH, only 10,600 were placed in 
housing as of the end of February. It is important to note that some 
Veterans admitted and housed through HUD-VASH no longer need the 
support of HUD-VASH and are able to move into more independent housing 
allowing the voucher to be re-issued to another Veteran.
    HUD-VASH is in the early stages of implementation and there is 
insufficient data for a meaningful response on the average length of 
support through the voucher program or to identify how many vouchers 
have been returned. The evaluation plan is designed to answer this type 
of questions at a later date. In addition, as the following discussion 
covers, Veterans using the voucher program have serious challenges, and 
rapid progress toward no longer needing the voucher should not be a 
program goal. In general, sustained housing through HUD-VASH or other 
permanent housing is a primary goal.
    HUD-VASH is a joint program between the Department of Veteran 
Affairs (VA) and the Department of Housing and Urban Development; its 
goal is to move Veterans and their families out of homelessness and 
into permanent housing with case management services as needed. VA 
provides case management services, and HUD provides permanent housing 
subsidies to homeless Veterans and their families, as defined by the 
McKinney Act, Title 42, United States Code, Section 11302. VA screens 
homeless Veterans for program eligibility. HUD allocates rental 
subsidies from its ``Housing Choice'' program, which is administered by 
the Office of Public and Indian Housing. VA case management services 
are a core component of the program, designed to improve the Veteran's 
physical and mental health, and to enhance the Veteran's ability to 
live in safe, affordable permanent housing in a community chosen by the 
Veteran.
    The target population for HUD-VASH includes homeless Veterans with 
disabilities that require ongoing case management services to help them 
obtain and remain in permanent housing. The 19,000 Veterans accepted 
for case management services have been deemed clinically eligible for 
the program and work with VA to submit a formal application to the 
local Public Housing Authority, which determines financial eligibility 
for the program. All 19,000 accepted for case management are thought to 
need the voucher to achieve housing, and case management services to 
ensure ongoing connection to treatment and other supports. Veterans 
entering into HUD-VASH do have significant disabilities and are 
anticipated to require ongoing supports to live in the community. As a 
result, Veteran participants in HUD-VASH are not expected to begin 
functioning completely independently within a short time; Veterans with 
time-limited or less serious needs are referred for services in other 
VA programs without the long-term orientation of HUD-VASH.

    Question 2. What is the average length of time a voucher is needed 
by a HUD-VASH recipient?
    Response. HUD-VASH is in the early stages of implementation and 
there is insufficient data for a meaningful response on the average 
length of utilization of vouchers. The evaluation plan is designed to 
answer this question at a later date. Veterans entering into HUD-VASH 
do have significant disabilities and are anticipated to require ongoing 
supports to live in the community.

    Question 3. What is the average per capita cost of a homeless 
Veteran in the HUD-VASH program?
    Response. The average per capita cost of VA case management 
services is approximately $4,500. The cost of VA health care services 
for Veterans in HUD-VASH is likely to vary significantly and is not 
tracked by the HUD-VASH program, as Veteran participants are eligible 
for this care regardless of their participation in HUD-VASH. Annual 
costs associated with the vouchers themselves are borne by HUD.

    Question 4. Please describe the additional supportive services the 
VA intends to use to transition Veterans off HUD-VASH.
    Response. VA will provide additional supportive services to assist 
Veterans moving from HUD-VASH to independent living in the community, 
including vocational rehabilitation services with case management, 
traditional mental health and primary care services, and the 
facilitation of access to VA benefits. Some Veterans may also qualify 
for VA and/or community based prevention services designed to assist 
individuals rapidly return to independent housing in the community. 
These time-limited supportive services can include case management, 
financial assistance, child care, vocational training and 
transportation.

    Question 5. What are the average costs, by state, of providing 
support to homeless Veterans through established group housing shelter 
programs as, for instance, the New England Center for the Homeless?''
    Response. We cannot answer this question as phrased, since VA does 
not have direct access to cost data from non-VA programs. We can 
provide costs for VA programs that provide housing as well as a broad 
array of other VA services to help the Veteran end homelessness.
    VA funds community-based transitional housing programs through its 
Grant and Per Diem program. Grant and Per Diem support can help defray 
operational costs for community-based programs that have been awarded 
grants. Capital grants can help enable providers to acquire or renovate 
physical facilities for use as transitional housing. The per diem 
component pays for operational costs (services, utilities, etc) based 
on the provider's cost per Veteran per day. In accordance with current 
regulations, VA can pay up to $34.40 per day in per diem funds. Costs 
are calculated based on budgets submitted by the grantee. Currently, 
the average rate paid nationally is approximately $31.00. This equates 
to an estimated $1,000 per month, per Veteran. Data for average costs 
by state for VA's Grant and Per Diem Programs could be obtained by June 
1, 2010.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Roland W. Burris 
to Pete Dougherty, Director, Office of Homeless Veterans Programs, U.S. 
                     Department of Veterans Affairs
    Question 1. Mr. Dougherty I am following Senator Tester's 
questions. I would also be very interested in seeing your plan to 
address Veteran homelessness in rural areas, as it is developed.
    Response. VA remains concerned about the needs of all homeless 
Veterans in both urban and rural settings. The Grant and Per Diem 
Program has funded more than 600 projects across the country of which 
approximately 16 percent of the projects funded and 15 percent of the 
funds awarded have gone to programs that serve Veterans in rural areas. 
Additionally, VA targeted funding to states that did not have an 
operational Grant and Per Diem Program, of which the majority were 
rural states. VA awarded funds to create one or more operational 
programs in each state.
    VA's most recent Grant and Per Diem funding round is targeted to 
programs that would operate on tribal lands. HUD-VASH is another 
program that addresses Veteran homelessness. Both HUD and VA have 
increased resources for permanent housing with case management into our 
rural communities. Additionally, VA's homeless programs work 
collaboratively with VA's Office of Rural Health by conducting 
demonstration projects to enhance homeless and mental health services. 
Readjustment Counseling Services are also being expanded in rural 
sites. New centers are being established and mobile teams are being 
deployed to assist with outreach and engagement of our homeless and at-
risk for homelessness population.

    Question 2. Mr. Dougherty, I am sure many of the homeless Veterans 
that you are working to identify do not even have basic identifying 
documentation. Could you elaborate on how you verify Veteran status? 
Does this process impede speedy access to services?
    Response. While documentation of Veteran status is an issue for 
benefits and services, VA's approach has been to engage all persons who 
identify themselves as Veterans and seek documentation as soon as 
possible. The vast majority of Veterans who seek our services have 
utilized VA services in the past. VA does all it can to expedite 
verification for those who have not been seen previously. If a Veteran 
has not been seen within the Veterans Health Administration within the 
past three years, a request is made to the Veterans Benefits 
Administration to determine Veteran eligibility.

    Question 3. Mr. Dougherty, I understand that some significant steps 
have been taken federally in terms of interagency communication, but I 
was hoping you could elaborate on how this cooperation filters down to 
the local VISNs? What type of coordination of services is occurring on 
the local level? Is there any way that you track the services that 
homeless Veterans are receiving from multiple providers?
    Response. VA at the highest levels has been an active part of that 
national effort. VA collaborates at all levels; Federal, regional and 
local. VA is an active participant of the US Interagency Council on 
Homelessness (USICH). USICH is the Federal coordinating body that works 
tirelessly to coordinate efforts across departmental lines to improve 
the delivery of meaningful services to all homeless people.
    All of VA's 21 Veterans Integrated Service Networks (VISNs) has a 
Network Homeless Coordinator who is responsible for coordinating 
homeless services at the regional levels. Part of their 
responsibilities include building partnerships with community 
organizations, coordination of services within the VISNs and ensuring 
continuity of information regarding homeless Veterans both within the 
VA and with community partners. Additionally, each medical center has a 
Health Care for Homeless Veteran coordinator who is responsible for 
coordination of care for homeless Veterans which includes connections 
to community agencies. At the local level VA works closely with local 
government, community agencies, philanthropic organizations and Vet 
Centers and regional offices that assist Veterans.
    In 1993, VA launched Project Community Homeless Assessment Local 
Education Networking Groups (CHALENG) for Veterans. CHALENG is a 
program designed to enhance the continuum of services for homeless 
Veterans provided by local VA healthcare facilities and their 
surrounding community service agencies. The guiding principle behind 
Project CHALENG is that the VA must work closely with the local 
community to identify needed services and then deliver the full 
spectrum of services required to help homeless Veterans reach their 
potential. Project CHALENG fosters collaborative planning by bringing 
VA together with community agencies and other Federal, state, and local 
government programs. This cooperation raises awareness of homeless 
Veterans' needs, and spurs planning to meet those needs. Meeting the 
goals of Project CHALENG requires each VA medical center to:

    <bullet> Assess the needs of homeless Veterans living in the area;
    <bullet> Assess community needs in coordination with 
representatives from state and local governments, appropriate Federal 
departments and agencies and non-governmental community organizations 
that serve the homeless population;
    <bullet> Identify the needs of homeless Veterans with a focus on 
healthcare, education, training, employment, shelter, counseling, and 
outreach;
    <bullet> Assess the extent to which homeless Veterans' needs are 
being met;
    <bullet> Develop a list of all homeless services in the local area;
    <bullet> Encourage the development of coordinated services;
    <bullet> Take action to meet the needs of homeless Veterans;
    <bullet> Educate homeless Veterans about non-VA resources that are 
available in the community to meet their needs.

    For the past 20 years, VA has been conducting program evaluations 
for its homeless services. Within this reporting structure VA has been 
able to identify service utilization for homeless Veterans who have 
accessed VA funded programs such as Outreach, Residential 
Rehabilitation and Treatment, Grant and Per Diem, HUD-VASH, and VA 
Contract housing. In addition, VA is developing a registry that will be 
designed to identify service utilization of Veterans both inside and 
outside of the VA. Once complete, the registry will promote VA's 
capacity to track service utilization and outcomes for our Veterans who 
have fallen into homelessness.

    Question 4. Mr. Dougherty, I understand that the St. Leo's 
Residence, run by Catholic Charities, is the only operational project 
under the Loan Guarantee for Multifamily Transitional Housing Program. 
They are providing outstanding service to Homeless Veterans in Chicago. 
However, as you may be aware, the design of this particular pilot 
program presents challenges in securing operational funding. I 
understand that you have been in talks with the facility about options 
going forward; could you give me an update on the full range of options 
being considered?
    Response. VA worked to create transitional housing opportunities 
for homeless Veterans under the Multi-family Housing Loan Guarantee 
Program for a decade. VA tested the pilot as Congress directed and 
found it to be an ineffective method to create housing options for 
Veterans. VA wrote the Senate Veteran Affairs Committee in January 2009 
stating that the effort was ineffective and VA would no longer pursue 
this project. As you noted, the only loan guarantee made was to 
Catholic Charities in Chicago. That program has worked hard to meet its 
obligations under the terms of the agreement, and there have been a 
number of discussions to see if their existing agreement can be 
modified to allow changes that will positively affect Veterans in that 
housing program.
    VA would be happy to meet with you to review the possible options 
and will keep you apprised of any change that may need to be made to 
the existing agreement.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Mike Johanns to 
 Pete Dougherty, Director, Office of Homeless Veterans Programs, U.S. 
                     Department of Veterans Affairs
    Question 1. Let me say that I appreciate the aggressive approach 
both agencies are cooperatively taking to tackle the national problem 
of Veteran homelessness. In particular, the HUD-Veterans Affairs 
supportive Housing (HUD-VASH) program [manages housing vouchers for 
Veterans] will play an important role in ending homelessness among 
Veterans that Secretary Shinseki is striving for. But ending 
homelessness among Veterans will require that the programs described in 
your testimonies reach all sectors of our societies.
    Response. VA fully concurs that if we are to end Veteran 
homelessness, VA must have services that reach all sectors of our 
society to promote access to VA services in both rural and urban 
settings. As the plan continues to be implemented, VA will be 
monitoring its impact and making adjustments to ensure that all 
Veterans who are homeless or at-risk for homelessness have access to VA 
services.

    Chairman Akaka. Thank you very much.
    Mr. Jefferson, please proceed with your testimony.

  STATEMENT OF RAYMOND M. JEFFERSON, ASSISTANT SECRETARY FOR 
  VETERANS' EMPLOYMENT AND TRAINING, U.S. DEPARTMENT OF LABOR

    Mr. Jefferson. Yes. Chairman Akaka, Ranking Member Burr, 
Senator Murray, Senator Tester. Aloha.
    Chairman Akaka. Aloha.
    Mr. Jefferson. Two weeks ago I had the privilege of 
welcoming the Honor Flight at National Airport, welcoming 
several of our World War II veterans to the Nation's Capital, 
and to shake the hand of a Pearl Harbor survivor. It was an 
inspiring reminder of the honor and privilege we have as vets 
to serve this community and the importance of providing them 
with the very best programs and services.
    I am grateful today to show what we are doing at the 
Department of Labor's VETS and in collaboration with our 
partners to help end veterans' homelessness.
    Veterans are a priority of Secretary Solis and a priority 
of the Department of Labor. We are fully integrated into the 
Secretary's goal of good jobs for everyone and keeping veterans 
and their families in the middle class.
    VETS. We provide expertise and assistance to assist and 
prepare veterans to obtain meaningful careers, to maximize 
their employment opportunities, and to protect their employment 
rights. We do that in close partnership with stakeholders and 
other government agencies like those represented here at the 
table, HUD, VA, HHS, and DOD.
    Three words symbolize the approach we are taking at VETS to 
help end veterans' homelessness: excellence, innovation, and 
transformation. I would like to share four examples of those.
    The first example is prevention. Our transition assistance 
program (TAP) currently has a module on preventing homelessness 
where for those 142,000 members who go through it, we do a 
diagnostic to help assess their risk factor for being homeless 
and then connecting them with resources if they are at risk to 
prevent them from becoming homeless.
    I am currently doing a review of that module to see how it 
can be strengthened and improved as part of our TAP 
modernization process.
    Number 2, let us talk about action. We have our Homeless 
Veterans' Reintegration Program. The only Federal nationwide 
program that focuses on the employment of homeless veterans.
    Right now, with our budget for fiscal year 2010 of $36 
million, we are serving around 21,000 homeless veterans through 
that program. What we do is we provide them with the training 
and services to prepare them to obtain meaningful careers.
    A significant new undertaking is identifying the best 
practices to serve homeless women veterans and homeless 
veterans with families. The old models and ways of doing that 
are not effective. We have learned that from the 60 listening 
sessions that the Women's Bureau has held with homeless women 
veterans.
    So, we are taking $5 million to fund about 25 grantees this 
year to determine which best practices serve homeless women 
veterans and to get those women into meaningful careers. Next 
year, we will continue funding those same 25 grantees.
    Additionally we have a program for incarcerated veterans. 
This is a population that is at tremendous risk of becoming 
homeless when they transition from incarceration back into the 
workforce.
    We are taking $4 million to serve 1500 incarcerated 
veterans through 12 sites this year to prepare them to make a 
successful transition back into the labor force and we will 
continue funding those grantees next year as well.
    The final thing which I would like to talk about is the 
importance of connecting the supply with the demand; connecting 
our formerly homeless veterans, veterans who are transitioning 
through these programs with employers.
    We are developing relationships with the largest private 
sector organizations in the country to have access to those 
CEOs and senior executives who make the hiring decisions so 
that they are aware of the reasons to hire a veteran and how to 
hire a veteran so that our VETS team members, the local 
veterans' employment representative in the field, have access 
to more opportunities for homeless veterans and can help 
expedite and accelerate their return to meaningful employment.
    We feel that this recent cover on Fortune magazine, the 
``New Face of Business Leadership in America''--a veteran--is 
indicative of where we are going and how we are going to get 
there. It is effectively communicating the message of what 
veterans offer to companies and employers in America.
    We are grateful to be here as a part of this hearing and 
look forward to your questions.
    [The prepared statement of Mr. Jefferson follows:]
 Prepared Statement of Hon. Raymond M. Jefferson, Assistant Secretary 
    for Veterans' Employment and Training, U.S. Department of Labor
    Chairman Akaka, Ranking Member Burr, and Members of the Committee: 
I am pleased to appear before you today to discuss how the Department 
of Labor's Veterans' Employment and Training Service (VETS) fulfills 
its mission of supporting the Department of Veterans' Affairs (VA) goal 
of ending Veteran homelessness in five years.
    Every day, we are reminded of the tremendous sacrifices made by our 
Servicemembers and their families. As this latest generation of 
Veterans returns home, we want to make sure that they can have a home . 
. . when they come home. One way that we can honor their sacrifices is 
by providing them with the best services and programs our Nation has to 
offer and making sure they have a home. Ending homelessness means both 
obtaining a home and obtaining a job--which is why we are committed to 
providing a path to employment with family-sustaining wages.
    The Department of Labor has made helping Veterans a priority. VETS' 
programs support Secretary Solis's vision of ``Good Jobs for Everyone'' 
by helping homeless Veterans get into middle class and maintain 
stability. VETS works closely with the Department of Defense (DOD), the 
VA, and the Department of Housing and Urban Development (HUD) to help 
Veterans reach this goal through seamless employment assistance. 
Seamless employment assistance will, in turn, require close 
collaboration, enhanced communication, and sustained, purposeful 
action. It's going to take all of us working together, sharing best 
practices, and developing innovative solutions to challenging problems.
                             vets missions
    We accomplish our mission through three distinct functions: 
employment and training programs; transition assistance services; and 
enforcement of relevant Federal laws. I have testified before this 
Committee on my five aspirations. One of those is helping 
Servicemembers transition seamlessly into meaningful employment and 
careers while emphasizing success in high-growth and emerging 
industries such as clean energy and health care. While we normally 
think of assistance for Servicemembers as they leave the military and 
transition to civilian employment, we must also look at homeless 
Veterans as they transition back into employment.
                        homeless veterans vision
    Secretary Solis shares Secretary Shinseki's vision of ultimately 
eliminating homelessness among our Nation's Veterans. We have 
strengthened our interagency collaboration at all levels to mobilize 
for this important and necessary goal.
    We are drawing upon the expertise and resources of the highest 
levels of the executive branch. For example, the deputy secretaries of 
DOL, VA, Health and Human Services (HHS), and HUD are pulling together 
and meeting regularly to increase the collaborative efforts of their 
departments toward the goal of ending Veteran homelessness. Among other 
initiatives, the departments have agreed to:

    <bullet> Share data on how their programs serve the Veteran 
homeless population.
    <bullet> Consider how best to provide outreach to Tribal 
communities, through ideas generated by a DOL-led working group.
    <bullet> Provide information to each department's grantees 
regarding how Veterans served by those grants can determine if they are 
eligible for VA services and how they can access those services.
    <bullet> Share draft Solicitations for Grant Applications (SGA) and 
Notices of Funding Availability between the departments to ensure 
alignment of efforts.
          - For example, DOL has shared its draft SGA with VA for the 
        Incarcerated Veterans Transition Program (IVTP), which provides 
        employment services to veterans who have recently been 
        incarcerated, including those who are at risk of becoming 
        homeless. DOL will also provide VA with an early view of its 
        initial IVTP applicant rankings in order to incorporate VA 
        input.
    <bullet> Identify ways to link VA Supportive Services grants to the 
VA/HUD homeless prevention pilot program and ways to involve HHS in 
that effort.
             homeless veteran reintegration program (hvrp)
    VETS' major program to tackle the problem of Veteran homelessness 
is the Homeless Veterans Reintegration Program (HVRP). This is the only 
Federal nationwide program focusing exclusively on employment of 
Veterans who are homeless. HVRP provides employment and training 
services to help homeless Veterans with the skills and opportunities 
they need to gain meaningful employment and turn around their lives.
    HVRP grants are awarded competitively to state and local workforce 
investment boards, state agencies, local public agencies, and private 
non-profit organizations, including faith-based organizations and 
neighborhood partnerships. HVRP grantees provide an array of services 
utilizing a holistic case management approach that directly assists 
homeless Veterans and provides training services to help them to 
successfully transition into the labor force. Homeless Veterans receive 
occupational, classroom, and on-the-job training as well as job search 
and placement assistance, including follow-up services.
    Grantees provide additional services by networking with Federal, 
State, and local resources for Veteran support programs. This includes 
working with Federal, State, and local agencies such as the VA, HUD, 
the Social Security Administration, the local Continuum of Care 
agencies and organizations, State Workforce Agencies, and local One-
Stop Career Centers.
    VETS requested a total of $41,330,000 in Fiscal Year (FY) 2011 for 
HVRP, an increase of $5 million (14 percent) over the FY 2010 funding 
level. In Program Year (PY) 2010, which will begin in July 2010, HVRP 
expects to serve 21,000 homeless Veterans. VETS plans to serve 25,000 
homeless Veterans in PY 2011.
    For PY 2009, $26,330,000 was appropriated for HVRP, a 13 percent 
increase over PY 2008. HVRP grantees will serve 15,500 homeless 
Veterans in PY 2009. During PY 2008, HVRP grantees served 13,700 
homeless Veterans. The employment placement rate was 67.4 percent. The 
cost for serving this hard-to-serve population was $1,500 per 
participant and $2,600 per placement. In PY 2009, VETS awarded a total 
of 98 HVRP grants, including third-year funding for two cooperative 
agreements to assist in developing the HVRP National Technical 
Assistance Center. The Center provides technical assistance to current 
grantees, potential grant applicants, and the public; gathers grantee 
best practices; conducts employment-related research on homeless 
Veterans; carries out regional grantee training sessions and self-
employment boot camps; and performs outreach to the employer community 
in order to increase job opportunities for Veterans.
                        homeless women veterans
    A major new undertaking in HVRP is a separate grant initiative to 
serve the needs of homeless women Veterans and homeless Veterans with 
families, a population that is on the rise and in need of specialized 
services. In PY 2010, we will use up to $5 million of the $10 million 
increase appropriated to HVRP in FY 2010 for this program to provide 
customized employment services. We expect to fund about 25 grantees in 
PY 2010. We requested an additional $5 million in the FY 2011 budget to 
provide continued funding for the homeless women Veterans initiative.
    VETS is collaborating with DOL's Women's Bureau, which has already 
conducted 28 moderated listening sessions nationwide with formerly and 
currently homeless women Veterans to identify the causes and the 
solutions for homelessness among women Veterans. The findings from 
these sessions are available on the Women's Bureau Web site at: http://
www.dol.gov/wb/programs/listeningsessions.htm.
    We also conducted a national listening session with service 
providers, VA, HUD, and other government agencies to begin identifying 
the best practices for serving homeless women Veterans and homeless 
Veterans with families. We will continue to identify such practices and 
disseminate them to service providers throughout the Nation.
                         incarcerated veterans
    The Incarcerated Veterans Transition Program (IVTP) provides 
employment services to assist in reintegrating incarcerated and/or 
transitioning incarcerated veterans, who are at risk of becoming 
homeless, into meaningful employment within the labor force.
    Through the program, VETS will continue its efforts to help 
incarcerated Veterans and will coordinate these efforts with the VA. Of 
the $36 million for HVRP in FY 2010, VETS plans to use $4 million for 
IVTP, which will serve approximately 1,500 Veterans through 12 grants. 
We plan to continue this program at that level in FY 2011.
                         additional activities
    Of note to this hearing, the DOL Transition Assistance Program 
Employment Workshop addresses homelessness prevention. This module 
includes a presentation on general risk factors for homelessness, a 
self-assessment to help determine individual risk, and contact 
information for preventative assistance associated with homelessness.
    VETS also utilizes a portion of HVRP funds to support stand down 
activities. A stand down is an event held in a local community where a 
variety of social services are provided to homeless Veterans. Stand 
down organizers partner with local business and social service 
providers to provide critical services such as: showers and haircuts; 
meals; legal advice; medical and dental examinations and treatment; and 
information on Veterans' benefits and opportunities for employment and 
training.
    Stand down events are a gateway for many homeless Veterans into a 
structured housing and reintegration program. VETS funds HVRP eligible 
entities (that do not have a competitive HVRP grant) to support a stand 
down event. During FY 2009, VETS awarded over $540,000 in non-
competitive grants for 66 stand down events that provided direct 
assistance to 9,600 homeless Veterans.
    Finally, there is also tremendous potential and opportunity for 
increasing engagement with employers to increase the hiring of 
Veterans. This involves communicating the value proposition for hiring 
Veterans more effectively, making the hiring process more convenient 
and efficient, and developing hiring partnerships. VETS is also 
developing new relationships with major private sector organizations to 
enlist their advice and support to increase Veterans' hiring.
                                closing
    In closing, I'd like to recount my experience from earlier this 
month, when I had the privilege of meeting the Honor Flight at Reagan 
National Airport and welcoming many of our country's WWII Veterans to 
our Nation's Capitol. When I shook the hand of a Pearl Harbor survivor, 
I was reminded of the honor and privilege we have at VETS to serve 
America's Veterans.
    Thank you again for your unwavering commitment to Veterans and for 
the support that you've been providing to us.

    I appreciate the opportunity to testify before you today and look 
forward to answering your questions.

    Chairman Akaka. Thank you very much, Mr. Jefferson.
    Now we will hear from Mr. Johnston.

  STATEMENT OF MARK JOHNSTON, DEPUTY ASSISTANT SECRETARY FOR 
SPECIAL NEEDS, U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Johnston. Chairman Akaka, Ranking Member Burr, Senator 
Murray, I am pleased to be here on behalf of Secretary Donovan 
and the U.S. Department of Housing and Urban Development. I 
oversee the Department's efforts to confront the housing and 
service needs of homeless persons and of veterans.
    As President Obama has said, ``Too many who once wore our 
Nation's uniform now sleep in our Nation's streets.''
    As we know, Secretary Shinseki has announced the Department 
of Veterans Affairs' plans for ending homelessness among 
veterans. HUD fully supports these efforts. In fact, in HUD's 
2011 budget HUD has just four priority performance goals. One 
is veterans' homelessness. This performance goal is shared with 
the Department of Veterans Affairs--to end homelessness among 
veterans.
    To help achieve this goal, HUD will provide housing and 
needed supports to homeless veterans through the following 
initiatives which I will briefly summarize.
    First, targeted homeless grants. In December 2009, we 
awarded nearly $1.4 billion to well over 6400 projects locally 
to serve homeless persons including veterans.
    It is important to note that veterans are eligible for all 
of HUD's homeless assistance programs, and HUD emphasizes the 
importance of serving veterans in our grant application. As a 
result, one in ten persons served by HUD targeted homeless 
programs is a veteran.
    HUD-VASH. The Congress has provided $75 million in 2008, in 
2009, and in 2010 for this program: the HUD-Veterans Affairs 
Supported Housing Program.
    Through this partnership, HUD and VA will be providing 
permanent housing and services for approximately 30,000 
homeless veterans and their families, including veterans who 
have been returning from Iraq and Afghanistan.
    HUD and VA want to focus this year on making the 30,000 
vouchers already appropriated to be used very effectively and 
very efficiently. The stimulus's Homelessness Prevention and 
Rapid Re-housing program which we refer to as HPRP is a great 
resource that can be used to prevent homelessness including 
veterans.
    It is a $1.5 billion program that can do two things. It can 
prevent homelessness for persons, including veterans, by 
providing resources such as rental assistance, security 
deposits, and case management and can also assist people who 
have fallen into homelessness to rapidly re-house them into 
conventional housing.
    The HPRP program can and does serve homeless veterans. 
Funds can be used for these various resources, and one thing 
that we have been touting is to connect this with HUD-VASH so 
that when a veteran is having a tough time saving the funds for 
a security deposit, for instance, or utility assistance, they 
can use the HPRP program and we have been actively touting that 
with our various grantees around the country.
    The recently enacted Homeless Emergency Assistance and 
Rapid Transition to Housing Act, or HEARTH Act, provides 
unprecedented flexibility to confronting homelessness.
    This Act consolidates HUD's various competitive programs 
into a single, streamlined, flexible program which we will be 
implementing in 2011. The program requires that all 
stakeholders, including veterans' organizations, determine how 
the funds should be used.
    HUD's 2009 Appropriations Act provides the department with 
$10 million for a demonstration program to prevent homelessness 
among veterans. HUD is working with the VA and the Department 
of Labor on this initiative. We will be conducting evaluation 
on this demonstration, and the three agencies will be sharing 
the results widely with organizations that serve veterans.
    HUD's Secretary Donovan, in addition to being the Secretary 
of our department, is also currently the Chairman of the U.S. 
Interagency Council on Homelessness. He has met with Secretary 
Shinseki, the former Chair of the Council, to discuss the needs 
of homeless veterans and how our agencies can work 
collaboratively to solve this problem.
    The Council is developing the Federal plan to end 
homelessness which is due to Congress on May 20. The Council 
has been reaching out to a variety of stakeholders of which 
there have been many participants, including those who are 
homeless veterans. This effort will further ensure a Federal-
wide focus on ending homelessness among veterans.
    Finally, each year HUD collects information from 
communities nationwide on homelessness, develops a detailed 
report and submits this to Congress as the Annual Homeless 
Assessment Report.
    Similarly, HUD is working closely with the VA this year on 
collecting data and developing a special report on veteran 
homelessness which will be issued later this year.
    In closing, I want to reiterate my and the Department's 
desire to truly end homelessness among veterans.
    Thank you very much.
    [The prepared statement of Mr. Johnston follows:]
Prepared Statement of Mark Johnston, Assistant Secretary for Community 
    Planning and Development, U.S. Department of Housing and Urban 
                              Development
                              introduction
    Chairman Akaka, Ranking member Burr, Members of the Committee, I am 
pleased to be here today to represent the Department of Housing and 
Urban Development. My name is Mark Johnston, the Deputy Assistant 
Secretary for Special Needs. I oversee the Department's efforts to 
confront the housing and service needs of homeless persons and of 
veterans.
    This responsibility includes confronting the specific needs of our 
country's homeless veterans and their families. As President Obama has 
said, ``Too many who once wore our Nation's uniform now sleep in our 
Nation's streets.'' Secretary Shinseki has announced the Department of 
Veterans Affairs' plans for ending homelessness among veterans. HUD 
fully supports these efforts. In fact, in HUD's 2011 Budget, HUD has 
four priority performance goals. One is Veterans Homelessness. This 
performance goal is shared with the Department of Veterans Affairs (VA) 
to end homelessness among veterans. The joint efforts will reduce the 
number of homeless veterans from the estimated 131,000 in fiscal year 
2009 to 59,000 in fiscal year 2012. To help achieve this goal, HUD will 
provide housing and needed supports to homeless veterans through the 
Department's targeted homeless assistance programs, as well as through 
mainstream HUD resources.
    The Department administers a variety of programs that can house 
veterans. These include the Housing Choice Voucher Program, Public 
Housing, HOME Investment Partnerships, and the Community Development 
Block Grant (CDBG) program. These programs, by statute, provide great 
flexibility so that communities can use these Federal resources to meet 
their local needs, including the needs of their veterans. In addition 
to these programs, Congress has authorized a variety of targeted 
programs for special needs populations, including for persons who are 
homeless.
    Unfortunately, veterans are well represented in the homeless 
population. HUD is committed to serving homeless veterans and 
recognizes that Congress charges HUD to serve all homeless groups. 
HUD's homeless assistance programs serve single individuals as well as 
families with children. Our programs serve persons who are disabled, 
including those who are impaired by substance abuse, severe mental 
illness and physical disabilities as well as persons who are not 
disabled. HUD provides an array of housing and supportive services to 
all homeless groups, including homeless veterans.
                targeted hud homeless assistance grants
    In December 2009, HUD competitively awarded approximately $1.4 
billion in targeted homeless assistance renewal grants. A record 6,445 
renewal projects received awards. It is important to note that veterans 
are eligible for all of our homeless assistance programs and HUD 
emphasizes the importance of serving veterans in its grant application. 
Communities may submit veteran-specific projects or projects that 
support a general homeless population that includes veterans. In this 
competition, HUD awarded 1,372 projects that serve veterans, either as 
a veteran-specific project or more typically as a project that serves 
veterans among other persons. Overall, 1 in 10 persons served by HUD's 
targeted homeless programs is a veteran.
    To underscore our continued commitment to serve homeless veterans, 
we have highlighted veterans in our annual planning and application 
process. In the annual grant application we encourage organizations 
that represent homeless veterans to be at the planning table. Because 
of HUD's emphasis, communities have active homeless veteran 
representation. We also require that communities identify the number of 
homeless persons who are veterans so that each community can more 
effectively address their needs.
                                hud-vash
    The Congress provided $75 million in 2008, 2009 and 2010 for the 
HUD-Veterans Affairs Supportive Housing Program, called HUD-VASH. The 
program combines HUD Housing Choice Voucher rental assistance 
(administered through HUD's Office of Public and Indian Housing) for 
homeless veterans with case management and clinical services provided 
by the Department of Veterans Affairs (VA) at its medical centers in 
the community. Through this partnership, HUD and VA will provide 
permanent housing and services for approximately 30,000 homeless 
veterans and their family members, including veterans who have become 
homeless after serving in Iraq and Afghanistan. HUD and VA are working 
to get the vouchers out on the street and leased up. We're making good 
progress on this between our agencies and with housing authorities and 
VA medical centers, and want to focus this next year on making sure 
that the 30,000 HUD-VASH vouchers already appropriated are being 
efficiently and effectively used.
                recovery reinvestment act (arra) funding
    ARRA provides unprecedented funding to HUD and other Federal 
agencies to directly confront the very difficult economic times in 
which we live. Overall HUD is responsible for $13.6 billion in ARRA 
funds for housing and community development. The ARRA Homelessness 
Prevention and Rapid Re-Housing Program (HPRP) is specifically targeted 
to confront homelessness. HPRP provides $1.5 billion to communities 
nationwide. These funds were awarded to States, metropolitan cities, 
urban counties and territories.
    The funds are now being used by grantees and sub-grantees, 
including non-profit organizations, to provide an array of prevention 
assistance to persons, including veterans, who but for this assistance 
would need to go to a homeless shelter. The program is also being used 
to rapidly re-house persons who have become homeless. Program funds can 
be used to provide financial assistance (e.g., rental assistance and 
security deposits) and housing stabilization services (e.g., case 
management, legal services, and housing search). The HPRP funding 
notice expressly references that the program can serve homeless 
veterans and that program funds can be used to provide to homeless 
veterans with security deposits and HUD-VASH can be used for long-term 
rental assistance. To date, well over 150,000 persons have been 
assisted through HPRP.
    HPRP represents a unique opportunity for communities. This 
significant level of funding--which equals the approximate level of 
funding historically appropriated by Congress for all of HUD's other 
homeless programs combined--will enable communities to re-shape their 
local homeless systems. For the first time, communities now have 
targeted funding to prevent homelessness. In the past, virtually all of 
HUD's homeless-related programs could only assist persons after they 
became homeless. These funds have the potential to assist persons at 
risk, including veterans, stay in their homes rather than be relegated 
to moving themselves and their families to emergency shelters, or 
worse, the streets. HPRP also will allow communities to significantly 
reduce the time that veterans and others must stay in emergency 
shelters, as HPRP can be used to immediately re-house persons in 
conventional housing and also provide temporary supports such as case 
management to help ensure housing stability. These two components--
homelessness prevention and rapid re-housing--have been the missing 
links in each communities' Continuum of Care system. Communities now 
have the tools they need to effectively confront homelessness. 
Importantly, the new approaches that communities implement with HPRP 
will have the potential to be carried on, thanks to legislation passed 
by the Congress and enacted by the President on May 20, 2009.
                       new hud homeless programs
    The recently enacted Homeless Emergency Assistance and Rapid 
Transition to Housing Act (HEARTH) provides unprecedented flexibility 
to confronting homelessness. The Act consolidates HUD's existing 
competitive homeless programs into a single, streamlined program, the 
Continuum of Care Program. The program requires that all stakeholders--
including veterans organizations--determine how the funds should be 
used. The law also reforms the Emergency Shelter Grants program into 
the Emergency Solutions Grant (ESG) program. The new ESG will provide 
for flexible prevention and rapid re-housing responses to 
homelessness--similar to the Stimulus HPRP program--so that veterans 
and others who are either at risk or who literally become homeless may 
receive assistance. Finally, the legislation provides for the Rural 
Housing Stability Assistance Program to provide targeted assistance to 
rural areas. HEARTH includes as a selection criterion for grant award, 
which is the extent to which the applicant addresses the needs of all 
subpopulations, which includes veterans.
               veteran homeless prevention demonstration
    The 2009 Appropriations Act provides HUD with $10 million for a 
demonstration program to prevent homelessness among veterans as part of 
the appropriation for HUD's homelessness programs. HUD is working with 
the VA and the Department of Labor to design and implement this 
initiative. Urban and rural sites will be selected. The demonstration 
funds may be used to provide both housing and services to prevent 
veterans and their families from becoming homeless or to reduce the 
length of time veterans and their families are homeless. HUD intends to 
conduct an evaluation of this demonstration, with funds provided for by 
the Congress, and then share the results widely through HUD's technical 
assistance resources to organizations serving veterans. The findings 
from this effort will help inform future initiatives to prevent 
homelessness among veterans, as we agree with the Congress that 
homeless prevention needs to be a key element to solve this problem.
         interagency collaboration on homeless veterans issues
    Secretary Shaun Donovan is the current Chair of the U.S. 
Interagency Council on Homelessness (USICH). He has met with VA 
Secretary Shinseki to discuss the needs of homeless veterans and how 
our agencies can work collaboratively to solve this problem.
    The Interagency Council on Homelessness is developing the Federal 
Plan to End Homelessness, which is due to Congress on May 20, 2010. The 
Council has been reaching out to a variety of stakeholders, including 
those who serve homeless veterans. This effort will further ensure a 
Federal-wide focus on ending homelessness among veterans.
    Historically HUD and VA have been involved in several 
collaborations related to homelessness among veterans. The agencies are 
currently working together in implementing and operating HUD-VASH. 
Another joint initiative involved reducing chronic homelessness, in 
which HUD provided the housing assistance and the VA and the Department 
of Health and Human Services provided support services to chronically 
homeless persons. Finally, I serve as an ex-officio member of the 
Secretary of VA's Advisory Committee on Homeless Veterans, which is 
focused on ending homelessness among veterans.
                          technical assistance
    To coordinate veterans' efforts within HUD, to reach out to 
veterans organizations, and to help individual veterans, HUD 
established the HUD Veterans Resource Center. The Center, headed by a 
veteran, has a 1-800 number to take calls from veterans and to help 
address their individual needs. The Resource Center works with each 
veteran to connect them to resources in their own community.
    HUD's Homelessness Resource Exchange (located at www.HUDHRE.info) 
is HUD's one-stop shop for information and resources for people and 
organizations who want to help persons who are homeless or at risk of 
becoming homeless. It provides an overview of HUD homeless and housing 
programs, our national homeless assistance competition, technical 
assistance information, and more.
    The HUDHRE has a number of materials that address homeless veterans 
issues. For example, HUD dedicated approximately $350,000 to enhance 
the capacity of organizations that do or want to specifically focus on 
serving homeless veterans, update existing technical assistance 
materials, and coordinate with VA's homeless planning networks. As a 
result, we developed two technical assistance guidebooks, available on 
the Web site. The first guidebook, Coordinating Resources and 
Developing Strategies to Address the Needs of Homeless Veterans, 
describes programs serving veterans that are effectively coordinating 
HUD homeless funding with other resources. The second guidebook, A 
Place at the Table: Homeless Veterans and Local Homeless Assistance 
Planning Networks, describes the successful participation of ten 
veterans' organizations in their local Continuums of Care. 
Additionally, we have held national conference calls and workshops to 
provide training and assistance to organizations that are serving, or 
planning to serve, homeless veterans.
    Finally, each year HUD collects information from communities 
nationwide on homelessness and develops a detailed report on of 
homelessness and submits that to the Congress. This report helps inform 
the Congress, the Administration, and communities nationwide on the 
nature and extent of homelessness in America so that we collectively 
can more effectively confront the problem. Similarly, HUD is working 
closely with the VA on collecting data and developing a special report 
on veteran homelessness, which will be issued later this year.
                               conclusion
    In closing, I want to reiterate my and HUD's desire and commitment 
to help end homelessness among our veterans by working effectively with 
our Federal, state, tribal and local partners.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
   Mark Johnston, Deputy Assistant Secretary for Special Needs, U.S. 
              Department of Housing and Urban Development
    Question 1. Once a veteran is successfully placed in permanent 
housing using a HUD-VASH voucher, what assistance is available so he or 
she can become independent of the voucher?
    Response. Assistance is provided through the VA's case management 
services, which involve regular meetings with mental health and primary 
care providers that assist Veterans in improving their well-being, as 
well as accessing needed treatment services. VA case managers work with 
Veterans on adjustment to community living addressing issues and 
provide supports for money management, time management and maximizing 
quality of life issues. The VA case managers also work with Veterans 
Benefits Office, Department of Labor and other Federal partners to 
address access to benefits and employment opportunities for veterans in 
HUD-VASH. VA case managers also help the Veteran address family 
reunification so they can fully reintegrate back into the community.

    Question 2. On average, how long does it take to place a veteran in 
permanent housing once the veteran is determined to be eligible for a 
HUD-VASH voucher?
    Response. It takes an average of three months to place an eligible 
veteran in permanent housing. Placing a veteran in housing continues to 
be challenging for several reasons. Poor credit histories, lack of 
funding for security and utility deposits, delayed or multiple 
inspections, and in some areas, the availability of suitable affordable 
housing can cause the leasing process to be lengthy. HUD and the VA 
continue to work with case managers and Public Housing Authority (PHA) 
staff to identify solutions for speeding up the leasing process.

    Question 3. What challenges do you each face when trying to execute 
your department's homeless veteran programs in conjunction with another 
agency's programs?
    Response. To date, the VA and HUD have prevented potential 
challenges arising through regular planning and administrative 
meetings, ongoing email and phone conversations, as well as joint 
efforts to coordinate activities in the field. Within HUD, staff from 
the Housing Choice Voucher Programs (HCVP) and Special Needs Assistance 
Programs (SNAPs) have contributed their expertise to the development 
and implementation of the program. Both HCVP and SNAPs staff have 
worked with VA staff to establish shared goals, as well as common 
metrics and milestones to ensure our goals are achieved.
    A few sites have struggled with the coordination of program 
activities at a local level. Communication between the local VA case 
managers and the PHA staff is crucial to successful administration of 
this program. To ensure that strong partnerships exist among PHAs and 
VA medical centers (VAMCs) at all sites, VA and HUD will continue 
conducting site visits, satellite broadcasts and joint training 
sessions for both PHAs and VA case managers. Meetings to address 
problems at low-performing sites will be held with staff attending from 
HUD and VA headquarters, agency field offices, PHAs, VAMCs, and 
Continuums of Care.
    The VA and HUD are also working toward establishing a data sharing 
agreement to allow the agencies to share data on homeless veterans and 
the veterans served. Improved data-sharing mechanisms will enable 
agencies to more effectively monitor the program's implementation.

    Question 4. HUD and VA should be commended for the level of 
coordination and cooperation they've had in getting HUD-VASH vouchers 
distributed to housing authorities with quick guidance on program rules 
and regulations. Unfortunately that same level of cooperation isn't 
playing out in many communities where housing authorities (PHAs) and 
VAMCs are simply not leasing up vouchers as quickly as they should. 
What can we do to improve lease-up rates for these vouchers? Should 
PHAs and VAMCs be required to have a memorandum of understanding in 
order to be awarded vouchers? For communities that are using HUD-VASH 
very successfully, how can we better get their story shared with other 
communities?
    Response. Due to the ongoing monitoring of site performance, HUD 
and VA are acutely aware of low-performing sites and the communities in 
which improved coordination is needed among PHAs and VAMCs. The 
agencies have developed joint and agency-specific strategies to improve 
lease-up rates and strengthen cooperation among community partners.
    From the outset of HUD-VASH implementation, HUD and VA have shared 
information on a monthly basis in order to monitor outcomes and 
identify areas for improvement. The agencies together have recognized 
sites in which problems exist with coordination and lease-up rates. 
Field visits to low-performing sites will help identify and resolve 
implementation issues, and the agencies will facilitate meetings among 
community partners to address issues and establish corrective action 
plans or performance improvement plans.
    Other measures to improve lease-up rates include taking into 
consideration the past performance of VAMCs and PHAs when allocating 
2010 awards. Capacity-building efforts will continue for new and 
existing sites through satellite broadcasts and regional trainings for 
PHAs and VA case managers. In addition, approximately 300 vouchers will 
be set aside as project-based vouchers (PBV) for communities in which 
safe, affordable housing for veterans is more difficult to secure. The 
criteria for determining the distribution of the PBV set-aside vouchers 
will include sites' ability to make units available for occupancy in 
the least amount of time. HUD and VA also will continue to consider 
transferring vouchers from low-performing PHAs to other PHAs nearby, as 
well as the contracting out of case management services.
    For HUD, field offices will continue to play a critical role in 
monitoring the program's implementation at a local level by issuing 
monthly status reports, reviewing with headquarters the information 
received from HUD-VASH reports, and contacting low-performing PHAs on a 
monthly basis. In addition, HUD will enable HUD-VASH participants to 
have access to financial assistance for security deposits available 
through the Homelessness Prevention and Rapid Re-Housing Program 
(HPRP). HUD will also aim to increase the number of referrals from 
Continuum of Care service providers, which receive funds through HUD's 
homeless assistance programs.
    A requirement for PHAs and VAMCs to sign memorandums of 
understanding has been considered; however, both agencies believe that 
this is not necessary and in some cases may impede the program's timely 
implementation. It is critical, however, that the VAMCs and PHAs of 
low-performing sites work together to strengthen collaboration, define 
shared targets, monitor progress, and identify areas for improvement.
    In recognition of the well-performing sites, HUD and VA sponsored a 
workshop on successes and best practices at the national HUD-VASH 
training in June 2009. Similar workshops will be held at the regional 
training sessions, and site visits will be conducted at four of the 
top-performing sites to gather more information on best practices. A 
best-practices document subsequently will be developed and distributed 
that highlights recommended procedures and the positive outcomes that 
all sites should aim to achieve. Success stories will also be published 
on the HUD and VA Web sites.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Jim Webb to Mark 
Johnston, Deputy Assistant Secretary for Special Needs, U.S. Department 
                    of Housing and Urban Development
    Secretary Donovan, according to the VA's Director of Homelessness, 
as of February 10, 2010, more than 19,000 veterans have been accepted 
into the HUD-VA Supported Housing (HUD-VASH) program; more than 16,000 
have received a housing voucher, and 10,600 formerly homeless veterans 
are now housed through these efforts.

    Question 1. How many of those 19,000 veterans subsequently no 
longer need vouchers because they were able to raise their income to a 
level sufficient to lead an independent life?
    Response. HUD ran a point-in-time query on all HUD-VASH veterans 
housed in February 2010 and found that approximately 0.8 percent were 
able to pay the full amount of rent at that time. The query did not 
take into consideration how long veterans had been enrolled in HUD-
VASH. The primary sources of income for the majority of veterans are 
pensions and social security, and approximately 60 percent of those we 
have served to date are elderly or disabled. Therefore we expect that a 
significant number of veterans will need housing assistance for many 
years.
    The HUD-VASH program has been designed for those veterans and their 
families that are homeless due to mental and physical disabilities. 
Participating veterans receive ongoing case management through the VA 
in order to secure access to mental and physical health services, as 
well as safe, affordable housing. VA case managers have determined that 
the 19,000 veterans accepted for the HUD-VASH program are clinically 
eligible for the program and that vouchers are needed by the veterans 
in order to secure permanent housing. Therefore, it is a hope, but not 
an expectation, for such veterans to achieve self-sufficiency and be 
able to live independently without housing assistance in the short 
term.
    Particularly with the funding allocated in FY 2010, the veterans 
that participate are likely to be those that HUD considers to be 
chronically homeless. As defined in the 2009 Continuum of Care NOFA, a 
chronically homeless person is an unaccompanied homeless individual 
with a disabling condition who has either been continuously homeless 
for a year or more OR has had at least four episodes of homelessness in 
the past three years. The term ``homeless'' refers to a person sleeping 
in a place not meant for human habitation (e.g., living on the 
streets), in an emergency homeless shelter, or in a Safe Haven as 
defined by HUD. A disabling condition is defined as: (1) a disability 
as defined in Section 223 of the Social Security Act; (2) a physical, 
mental, or emotional impairment which is expected to be of long-
continued and indefinite duration, substantially impedes an 
individual's ability to live independently, and of such a nature that 
the disability could be improved by more suitable conditions; (3) a 
developmental disability as defined in Section 102 of the Developmental 
Disabilities Assistance and Bill of Rights Act; (4) the disease of 
acquired immunodeficiency syndrome or any conditions arising from the 
etiological agency for acquired immunodeficiency syndrome; or (5) a 
diagnosable substance abuse disorder.

    Question 2. What is the average length of time a voucher is needed 
by a HUD-VASH recipient?
    Response. HUD-VASH is in the beginning stages of implementation, 
and only preliminary data exists on the average length of stay of 
participating veterans. However, HUD ran a query on homeless families 
that have participated in the broader Section 8 Housing Choice Voucher 
program, which targets all low-income families and not just veterans. 
HUD found that the average length of assistance for a family that was 
homeless at the time of admission is 861 days. However, we do not have 
data that identifies the reason families leave the program. Potential 
reasons could include the family achieving self-sufficiency, as well as 
termination of assistance due to the violation of lease requirements or 
other family obligations, which could result in the family returning to 
homelessness.

    Question 3. What is the average per capita cost of a homeless 
veteran in the HUD-VASH program?
    Response. The average cost of a VASH voucher on a yearly basis is 
$6,444, and the average cost of case management services per veteran is 
approximately $4,500. The total direct cost per year is approximately 
$11,000 per veteran.

    Question 4. Please describe the additional supportive services the 
VA intends to use to transition veterans off HUD-VASH.
    Response. The VA intends to provide vocational rehabilitation 
services with case management, as well as traditional mental health and 
primary care services and access to VA benefits. Some veterans may also 
qualify for VA and/or community-based prevention services designed to 
assist individuals to rapidly return to independent living. These time-
limited services include case management, financial assistance, child 
care, vocational training, and transportation assistance.

    Question 5. What are the average costs, by state, of providing 
support to homeless veterans through established group housing shelter 
programs as, for instance, the New England Center for the Homeless?''
    Response. There is no readily available cost information on group 
housing shelter costs for veterans. However, the VA funds transitional 
housing programs through its Grant and Per Diem program for community 
agencies providing services to homeless Veterans. The Per Diem portion 
pays for operational costs, such as services and utilities, based on 
cost per veteran per day. VA pays up to $34.40 per day per veteran 
housed, in accordance with current regulations. Costs are calculated 
based on budgets submitted by the grantee. Currently, the average rate 
paid nationally is approximately $31, which equates to an estimated 
$1,000 per month per veteran.

    Chairman Akaka. Thank you very much, Mr. Johnston.
    When we started talking ending homelessness among veterans, 
it is important to know the size of the problem. However, VA 
and HUD have two very different figures for how many of our 
Nation's veterans are homeless at any given night in a year.
    Would you, Mr. Dougherty and Mr. Johnston, please explain 
your departments' numbers and why there is such a large 
difference?
    Mr. Dougherty, we will start with you.
    Mr. Dougherty. Mr. Chairman, I do not think the numbers are 
really as far apart as they may appear. Sometimes it is the 
reporting cycle that we are reporting in.
    One of the things--I think Mark will back me up--as we are 
moving forward, our Secretaries have talked about having one 
single reporting system.
    The Department of Housing and Urban Development has a 
requirement to go out and identify homelessness in America and 
to identify veterans among that population. So we have been 
working collaboratively with HUD so that as we do this in the 
future we are going to use simply one number.
    The number that we use is really largely based upon what 
HUD reports through its continuance of care along with some 
additional information that we have. What we want to do, as 
Mark mentioned a moment ago, is we want to make sure that we 
have all the ``Ts'' crossed and all the ``Is'' dotted in the 
right places to make sure we have a good count.
    But I think our numbers are within a very small percentage 
as we report year to year in the last few years.
    Chairman Akaka. Mr. Johnston.
    Mr. Johnston. Just to briefly elaborate on that, the figure 
that HUD has for homeless veterans is 135,000. That is based on 
January 2008 data. The data that is provided by Pete Dougherty 
and the VA is a little bit more recent.
    Our numbers for 2009 will be submitted in the annual report 
to Congress in June. So that will be an update. Then later in 
the year, in other words, later this summer, we will have the 
2010 figures. I certainly agree with Pete that the difference 
is relatively minor and it really is a reporting period 
difference I think.
    Chairman Akaka. Thank you.
    This question is for all of the panelists. What is your 
department's perception of the Housing First approach to 
assisting the chronically mentally ill, homeless veteran 
population?
    Mr. Johnston. I will begin.
    Chairman Akaka. Mr. Johnston.
    Mr. Johnston. HUD absolutely supports the concept. We have 
been using it across the country for a number of years. In 
fact, one of our first permanent housing programs, Shelter Plus 
Care, which was created in 1992, was based on housing first.
    That is the model that we see being implemented across the 
country for most of our projects. The notion, of course, being 
you take a homeless client where they are, wherever that is, 
and help move them into housing and address the various issues 
that they have got.
    We did a study about 2 years ago on this and found about 84 
percent of persons who were chronically homeless, who moved 
into permanent housing were there a year later.
    It is not to say there is not an effort to make sure that 
happens by having good, strong supportive services in place but 
it certainly can and should happen.
    Mr. Dougherty. Mr. Chairman, both our secretaries, the 
Secretary of HUD and the Secretary of Veterans' Affairs, have 
met. We have talked about this.
    It is certainly a significant change for our department 
from where we were years ago. When we first had some vouchers 
with HUD, it was really predicated on a veteran who had already 
been in a long course of treatment and probably would be what 
we might refer to as patient compliant before they would be 
able to get in.
    We do not have that kind of restriction today. We are 
looking more and more on how we can get that placement faster 
because we do agree there is an effective way to provide this 
service to veterans but it is a corporate shift change for us 
to get to that point.
    Mr. Jefferson. Chairman Akaka, I would just say one of the 
Labor Department's commitments, sir, is just to make sure that 
these service providers have easy access and frequent access to 
our employment representatives and our disabled veteran 
outreach program specialists.
    So whether these homeless veterans in Housing First need 
case management or access to the employment opportunities in 
their area our DVOPs, LVERs, and employment representatives are 
there to provide the employment piece of that transformation.
    Chairman Akaka. Thank you very much, Mr. Jefferson.
    Let me call on our Ranking Member, Senator Burr, for his 
questions.
    Senator Burr. Thank you, Mr. Chairman.
    Mr. Dougherty, will we be here 5 years from today only 
talking about prevention programs?
    Mr. Dougherty. Mr. Burr, I do not think we will be only 
talking about prevention programs because just as we would face 
in any other health problem, there will be veterans who, 
because of mental illness, substance abuse problems, and other 
things including not having enough support, will show up and 
become homeless.
    Senator Burr. Do you believe that the Secretary's blueprint 
provides the flexibility as time goes on for us to change the 
programs to reflect any changes in population?
    Mr. Dougherty. Mr. Burr, you are asking an excellent 
question. Lisa Pape and I talk regularly and one of the things 
we talk about is that there is not a 5-year plan at this point. 
There is a fourth-year and 6-month plan that requires that 
every month we look at what we are doing, how effective we are 
at getting the services out there and what we can do to make 
shifts if we are not meeting that.
    Senator Burr. Let me encourage both of you. Where you can 
share that thought process, that matrix with Congress, it would 
be extremely helpful because, as I said in my opening 
statement, we have been starved for information on this plan.
    We would like to be a full-fledged partner. I know Senator 
Murray invested a tremendous amount of time and passion into 
the issue. I think you leave us out and then suggest, well, 
just trust us.
    Mark, you made a statement that one of the programs was to 
take the money, consolidate it, and let everybody decide how to 
use it, meaning the stakeholders. Well, I am not sure that is 
necessarily the right way; and I take for granted that I only 
heard you at face value for what you said. But I think 
everything we say, we have got to understand it here in a 
different fashion. And the goal here is not about process, it 
is about outcome. It is about reaching the goal which, as I 
said, is going to be very difficult for us to do.
    Let me ask you, Mr. Dougherty. From a standpoint of your 
numbers or HUD numbers, is there any outside validation of 
those numbers?
    Mr. Johnston. I will start. These numbers are not from HUD. 
These numbers are from the communities. So we aggregate them 
from every city and county in America.
    Senator Burr. OK.
    Mr. Dougherty. We rely a lot on that. Also as we report 
through each of our sites, we also look at if there are good 
local studies. Sometimes universities and others do some 
studies like that.
    The other is that the process that we use is called the 
CHALENG meeting process. This past year we had about 15,000 
people who came, including more than 10,000 currently and 
formerly homeless veterans. So we think we are getting good 
information as to what is needed and what kinds of services. 
That really is helping to drive us as to where we need to go. 
We are listening to the consumer who needs our help.
    Senator Burr. Let me ask about the plan in a slightly 
different say. How many programs, if any, are not going to be 
funded that have been funded in the past?
    Mr. Dougherty. The only program that we had before that we 
are no longer actively pursuing is the Multi-Family Housing 
Loan Guarantee Program. We simply tried it. It was passed by 
Congress. We tried that for a number of years. We found that it 
just did not meet the need. It did not serve the veterans that 
needed to be served. We wrote Congress last year saying we were 
no longer going to pursue that program.
    Senator Burr. So incorporated in the blueprint are how many 
new programs that did not exist last year?
    Mr. Dougherty. There are several new programs. I do not 
know if I can tell you off the top of my head all of them. But 
obviously we have a call and referral center we think is very 
important.
    Obviously our continued efforts with HUD are a very 
important way to address this issue because we have to address 
that veteran, as I said in the opening statement, where they 
are. Some of them need an emergency sort of assistance.
    We are increasing contract care. We are increasing contract 
care in places that we did not have it before because, as 
Senator Tester pointed out as well, if you are in rural 
America, you may not have a big homeless program somewhere. But 
that does not mean that a veteran who needs to get off the 
street; VA should be able to provide some service to get that 
veteran off the street.
    Senator Burr. That is extremely helpful. The question is 
what then supports that effort to make sure that this becomes a 
permanent experience versus only a temporary triumph.
    I guess I am looking for specific measures that you have 
identified that are incorporated in these programs that would 
lead me to believe we are going to have a different outcome 
versus just a deep commitment which is typically a financial 
commitment to the problem.
    Mr. Dougherty. Right. I think the answer to that in large 
part is that you have to be responsive to the veteran when they 
first need our care services. Otherwise, they are never going 
to come to us until they are so sick and so disabled that the 
cost to treat them is much more significant, much more intense.
    That is why the effort at prevention and going for 
supportive services before that veteran ever becomes homeless 
is where we really need to be more focused on.
    We are going to do the things we have done in the past and 
do them effectively but we are also going to do a better job of 
trying to stop that from ever happening in partnership with the 
folks at this table.
    Senator Burr. I appreciate that answer and my time has 
expired. But let me say this that I think it even starts 
earlier than when you get it and it is a debate that we have in 
this Committee with VA overall, and that is when you look at 
our veterans that have medical needs, not all of them physical, 
their willingness to participate at the earliest possible point 
is not always there, and we accept the fact that we offer it; 
and if they do not utilize it, then that is their 
responsibility, until they end up as a focus of you.
    I think that we collectively have to begin to look at how 
we provide those early programs on the health care side in a 
different way that attracts participation, does not allow us to 
have individuals that a year later, 2 years later end up with 
you trying to deal with all the manifestations that they are 
dealing with; and the lack of a roof over their head is one of 
the major contributors then.
    I thank the chair.
    Chairman Akaka. Thank you very much, Senator Burr.
    Senator Murray.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman. I 
appreciate your having this hearing today.
    Mr. Dougherty, in your testimony, you noted that 
homelessness is primarily a health care issue. Given that the 
VA is planning to expand access to more non-service-connected 
disabled veterans with moderate incomes and to actually 
increase the number of presumptive diseases like Agent Orange, 
can you tell us whether or not the VA actually has the capacity 
now to address the needs of all those veterans or do we need to 
be looking at additional resources?
    Mr. Dougherty. I am not sure I know the total answer to 
your question. I do believe that when it comes to veterans who 
are homeless that we think we are well positioned to take care 
of those veterans as they come to us.
    One of the things, as we look toward going to prevention, 
we are looking more and more to align the Benefits 
Administration with this because I think, as Senator Burr just 
noted a moment ago, one of the things that we think is very 
important is we need to be more in the wellness business and 
less in the serious health care problem business.
    The wellness issue is going to be addressed by catching it 
at the earliest stage.
    Senator Murray. Right. I know that we are going to be 
increasing the number of veterans, which I applaud you in 
doing. I just want to make sure you are staying in touch with 
us to make sure that we have got the resources to be able to 
deal with that issue and see that happen.
    Mr. Dougherty. The 2011 budget I think addresses that 
adequately; yes, ma'am.
    Senator Murray. Does the VA have an estimate of how many of 
their veterans tried to or accessed the VA for care before they 
return to homelessness?
    Mr. Dougherty. No, we do not have a very good estimate of 
how many of them tried and did not. That is one of the things 
that the Call Center and this registry we are working on is 
going to be able to do for us. It is going to tell us when 
veterans are doing that, and one of the things that we are 
doing with HUD in trying to align more of the information that 
they have is trying to get a better handle on who is out there 
and who has not been served.
    Senator Murray. When will we be able to see information 
back on that?
    Mr. Dougherty. I think this summer we are going to work on 
this report.
    Ms. Pape. We hope the registry starts phasing in during the 
summer, and hopefully will be fully operational sometime before 
the beginning of the fiscal year 2011.
    Senator Murray. OK. I also wanted to ask you, Mr. 
Dougherty, how the VA validates a program out in the community 
before allowing them to provide service to veterans?
    Mr. Dougherty. In our traditional housing program, what we 
do is we not only run you through a grant application process 
but then before you actually provide services to veterans we 
come on-site. We meet with you. We look at your financial 
ability to provide services. We look at the physical facilities 
that you have. We look at the service plan that you have for 
veterans.
    Then and only then do we approve you for payment. Then we 
come back on an annual basis in a formal way, yet we are 
informally in those programs year around.
    Senator Murray. OK. Secretary Jefferson, in the next panel 
a veteran is going to testify about how he fell into a life of 
drug dealing and later using while he was trying to get a job 
as a mechanic. We have a lot of veterans transitioning home to 
a tough economy and falling into the same kind of traps.
    How are we going to work better with our communities to 
help create partnerships or apprenticeships or other ways for 
our veterans to get back into the workforce?
    Mr. Jefferson. One of the things that we are doing is 
engaging with our DVOPs and LVERs. So, making sure our 
employment representatives around America, as they are working 
with veterans, when they identify that there is a need for 
mental health support and services, that they can effectively 
refer them to the VA or to other health providers. That is one.
    Number 2, we think, is just making sure that we increase 
the opportunities that this community has available to it.
    So we are developing some employer engagement and outreach 
partnerships now that will increase substantially the 
opportunities that we can provide for veterans and that is an 
area which I am placing a very high priority on during my 
tenure.
    By increasing the demand for veterans, we can accelerate 
them finding meaningful careers, not just jobs.
    Senator Murray. Because that is a really important part of 
this.
    Mr. Jefferson. Absolutely, Senator Murray.
    We can have all of the best HVRP grantees, the best 
preparatory programs, but if when these veterans step out to 
find meaningful employment, there are no jobs for them, then 
they are going to become demoralized, and they will move into 
that downward spiral.
    Senator Murray. Mr. Johnston, I am almost out of time. But 
I do want to submit some questions to you about the HUD-VASH 
program. As we put that out there, communities are using it 
really well, others are not, and as a result, veterans are not 
getting access to it.
    I want to ask you about that and especially how it is being 
implemented here in DC with some of the private contractors, 
making sure that HUD stays in touch with them and confirming 
that veterans are continuing to get that despite it being 
contracted out.
    So I will submit those questions to you because I have run 
out of time.
    Mr. Chairman, before I yield I did just want to say to the 
world in general that I am a little frustrated with the 
bureaucracy and the delay surrounding the release of the 
suicide rates for female veterans by the VA.
    My office has been in touch with the VA. We are trying to 
get a better understanding of the depth of this really serious 
issue facing female veterans today and the lack of transparency 
that we are experiencing is really frustrating me.
    We have the suicide rate for male veterans and are getting 
hopefully accurate information on that. But we also need to 
know what is happening to women and how they are being 
affected. I have asked for this information and I have not been 
able to get it, so I am going to be pursuing that.

    [The information requested during the hearing follows:]
           Response to Senator Murray's Request for Data on 
                       Suicide in Women Veterans
                               highlights
    <bullet> The Department of Veterans Affairs (VA) is fully committed 
to preventing suicide among all Veterans. The Secretary and the Under 
Secretary for Health have ensured that this is a top priority for the 
Veterans Health Administration (VHA).
    <bullet> Accordingly, VHA has established an extensive national 
program, including collection and analysis of one of the richest 
collections of data available on suicide rates among Veterans in the 
context of the best available national and state data.
    <bullet> Specifically, VA utilizes three data sources: 1) Data from 
all states collected by the Centers for Disease Control and Prevention 
National Death Index; data are available currently through FY 2007; 2) 
Data from 16 states with more detail on Veteran status--the Centers for 
Disease Control and Prevention National Death Index, National Violent 
Death Reporting System, VetPop; 3) Data collected by VA's network of 
Suicide Prevention Coordinators on known suicide attempts and deaths 
among those using VHA health care services.
    <bullet> Using these data, VA calculates indices of suicide risk 
that are also used by all suicide researchers nationally and 
internationally--Suicide Rates and Standardized Mortality Ratios. These 
are explained in more detail in the following discussion.
    <bullet> VA's health system uses this data not just for research 
but focuses keenly on using the data to create and continuously improve 
suicide prevention programs that are spelled out in the ``VHA Strategic 
Plan for Suicide Prevention FY 2009--2010,'' which was developed in 
response to the recommendations of the Secretary's Blue Ribbon Panel on 
Suicide Prevention to ``prepare a single document that details the 
comprehensive suicide prevention strategic plan . . . in order to 
facilitate more efficient review of suicide prevention progress.'' Data 
demonstrate initial success in VA's efforts to prevent suicide, 
although more work needs to be done.
    <bullet> Suicide rates among women are far lower than among men. 
Although data show no evidence of a rise in suicide rates women 
Veterans who use VHA services, VA is exerting every effort to intervene 
before problems worsen. Since suicide among women (including Veterans) 
is a rare event, shifts in annual suicide rates (Rate/100,000/Year) 
reflect only small numbers of incidents.
                               discussion
    We received two requests with regard to data on suicide in women 
Veterans. The first two responses address each of these requests. In 
addition, we want to place these data in context: VA is totally 
committed to preventing suicide among all Veterans. The VHA Strategic 
Plan for Suicide Prevention is a living document of initiatives to be 
implemented by October 1, 2010 based on the US National Strategy for 
Suicide Prevention and recommendations or requirements from the 
National Strategy, the Institute of Medicine (IOM) Report, ``Reducing 
Suicide: A National Imperative'', the VHA Comprehensive Mental Health 
Strategy Strategic Plan, the Joshua Omvig Veterans Suicide Prevention 
Act, and the report of the Secretary's Blue Ribbon Work Group on 
Suicide Prevention.
    Although the data presented show no evidence of a rise in suicide 
rates for women Veterans who use Veterans Health Administration 
services, the time to begin prevention efforts is now, not after 
waiting until rates could rise at some future time. VA has an extensive 
program of suicide prevention efforts, guided by a VA Strategic Plan 
for Suicide Prevention. Those efforts will be discussed further after 
providing the information that directly addresses Senator Murray's 
requests:

    Request 1. The first request was for overall data on suicide rates 
among women Veterans. The following table shows information through FY 
2007, which is the most recent year for which data have been released 
by the Centers for Disease Control (CDC).
    Response. To track suicide mortality over time, we use suicide 
rates--rather than the absolute number of suicide deaths per year--
because they account for differences in the size of the at-risk 
population; for example, 10 deaths in a group of 100 would have much 
different meaning than 10 deaths in a group of 100,000. This approach 
is the standard for work nationally and internationally that explores 
suicidality; VA uses this approach because it is the standard and 
because it does provide a clearer picture of how much risk there is of 
suicide in a designated population. The suicide rate is the number of 
suicide deaths per 100,000. It is calculated as (# of suicide deaths/
total time at risk of having an observed suicide)*100,000. Total risk 
time is not necessarily the number of individuals who received VHA 
services, as some patients may have died from other causes in the year 
or may not have had their first VHA use until halfway through the year.
    Table 1 below presents suicide rates for women Veterans who have 
used VHA health care, and breaks down the data by age group, after 
showing the overall rate for each year from FY 2001 to FY 2007, the 
most recent year for which data are available from the Centers for 
Disease Control, the national governmental site that collects 
information on deaths and causes of death. Overall suicide rates among 
women receiving VHA health services ranged from 9.8/100,000 in FY 2003 
to 13.7/100,000 in FY 2005. The rate observed in the most recent year 
for which data are available (FY 2007) was that same as in the initial 
year (FY 2001), being 10.6/100,000. It is also important to note that 
these rates of suicide are dramatically lower than rates for male 
Veterans, as is true for the US population as a whole.
      Table 1._Suicide Rates Among VHA Health Care Utilizers: FY 
                               2001-2007
                           Rate/100,000/Year



    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The Standardized Mortality Ratio (SMR), also shown in Table 1, is 
another standard tool used in epidemiologic analyses for comparing 
mortality rates among populations, in terms of their relationship to a 
standard population. VA also uses this index because it is commonly 
accepted as the best analysis to consider differential risk of death by 
suicide across different populations. The SMR is related to two rates: 
that of the population of interest and that of individuals with similar 
characteristics (here, sex and age) in the standard population (here, 
the general US population). SMRs are calculated as follows. We assess 
the number of suicide deaths observed among women Veterans (overall and 
by age group) relative to the number of suicide deaths that would be 
expected in this group if their rates of suicide mortality were 
identical to those among women in the general US population. The ratio 
of the number of observed to the number of expected suicide deaths is 
the SMR.
    In these analyses, we present SMRs among women receiving VHA health 
services, from fiscal years 2001-2006, both overall and for specific 
age categories. CDC does not yet have FY 2007 data available for the US 
population, and so Standardized Mortality Ratios are not calculated for 
FY 2007. The SMRs can be interpreted as follows: for FY 2001, among 
women Veterans receiving care in the VHA, suicide risks were 90% 
greater than for women in the general population. For FY 2006, among 
women Veterans receiving care in the VHA, suicide risks were 73% 
greater than for women in the general population.
    We note that suicide is a rare event compared to other causes of 
mortality and that there may be substantial instability in calculated 
rates over time without extremely large denominators. Small differences 
in the number of suicides may result in large differences in the 
calculated rate per 100,000 person years of risk time. We note that, as 
compared to analyses specific to men receiving VHA services, rates 
among women patients have greater variability across years, although 
they are always markedly lower than male rates. For this reason, 
calculated SMRs may vary substantially over time, particularly where 
the population for that age group is smaller in size.

    Request 2. The second request asked that data from the National 
Violent Death Reporting System (NVDRS) be broken out for women Veterans 
alone, such that suicide rates for women Veterans who are users vs. 
non-users of Veterans Health Administration health care can be 
compared.
    Response. Comparable data for all Veterans, without gender broken 
out, have recently been reported by VA. The following information 
addresses this second request.
     Table 2._Estimated Suicide Rates per 100,000 among Female VHA 
    Users and VHA Non-Users in the National Violent Death Reporting 
                   System (NVDRS) States,* 2004-2007

----------------------------------------------------------------------------------------------------------------
                                                                                           Suicide Rates
                                                                                 -------------------------------
                                                                                   2004    2005    2006    2007
----------------------------------------------------------------------------------------------------------------
VHA Users.......................................................................   11.30   11.57    8.12   13.96
VHA Non-Users...................................................................   10.63   10.90    9.85   11.61
----------------------------------------------------------------------------------------------------------------
Data sources: VHA National Patient Care Data base, Centers for Disease Control and Prevention National Death
  Index, National Violent Death Reporting System, VetPop 2008
* For 2005-2007, data were available for 16 NVDRS states. These included Alaska, Colorado, Georgia, Kentucky,
  Maryland, Massachusetts, New Jersey, New Mexico, North Carolina, Oklahoma, Oregon, Rhode Island, South
  Carolina, Utah, Virginia, and Wisconsin. However, for 2004, data were available for only 13 states (the above
  states, excluding Kentucky, New Mexico, and Utah.)


    Table 2 presents suicide rates. In 2004 through 2007, in data 
reported by the 16 NVDRS states, suicide rates among female VHA 
patients ranged from 8.12 (in 2006) to 13.96 per 100,000 (in 2007). 
Among women Veterans who did not receive VHA services, estimated rates 
ranged from 9.85 (in 2006) to 11.61 per 100,000 (in 2007). In three of 
the four years, suicide rates among female VA patients were somewhat 
higher than among women Veterans who did not receive VHA services, 
though in all years, rates were fairly close. It should be noted that 
female Veterans who use VHA care have higher rates of mental and 
physical illness, which can be risk factors for suicide, than women 
Veterans who do not use VHA care.
    The reader is again cautioned that these rates are based on small 
numbers of rare events. Although there is a fair degree of variability 
in the reported rates from one year to the next, this is based on a 
small sample with a very low number of suicides (e.g., 9 deaths by 
suicide of women Veterans who used VHA services in 2006). Second the 
rates reported in this second table reflect only those states included 
in the NVDRS reporting database, so the rates for the VHA Users are 
slightly different from those reports in Table 1A, which includes data 
from all 50 states.

    Request 3. VHA Suicide Prevention Program and Strategic Plan 
Highlights
    Response. Every Veteran suicide is a tragic outcome and, regardless 
of the numbers or rates, one Veteran suicide is too many. We feel the 
responsibility to continue to spread the word throughout VA that 
``Suicide Prevention is Everyone's Business''. Even though we 
understand why some may be at increased risk, we are continuing to 
investigate and are proactively taking action based on what we already 
know, with the goal of eliminating suicides among Veterans. VA has a 
national Strategic Plan for Suicide Prevention. This lays out the 
philosophical framework for our prevention efforts and also defines 
specific programs and actions that have potential to reduce the risk of 
death suicide among Veterans.
    The VHA Strategic Plan for Suicide Prevention FY 2009--2010 was 
developed in response to the recommendations of the Secretary's Blue 
Ribbon Panel on Suicide Prevention to ``prepare a single document that 
details the comprehensive suicide prevention strategic plan . . . in 
order to facilitate more efficient review of suicide prevention 
progress.'' The VHA Strategic Plan for Suicide Prevention is a living 
document of initiatives to be implemented by October 1, 2010 based on 
the US National Strategy for Suicide Prevention and recommendations or 
requirements from the National Strategy, the Institute of Medicine 
(IOM) Report, ``Reducing Suicide: A National Imperative'', the VHA 
Comprehensive Mental Health Strategy Strategic Plan, the Joshua Omvig 
Veterans Suicide Prevention Act, and the report of the Secretary's Blue 
Ribbon Work Group on Suicide Prevention. The Strategic Plan includes 67 
elements. Of these, 33 have been implemented, 27 are in the process of 
being implemented, and 7 are new elements being developed.
Current Initiatives
    The VA's basic strategy for suicide prevention can be 
conceptualized as a pyramid. At the base is early prevention of any 
Veteran with a mental health disorder from becoming so distressed that 
suicide is considered as an option. This requires ready access to high 
quality mental health (and other health care) services made available 
to anyone with a need. Ideally needs will be identified at the earliest 
possible time and treatment will be provided at that early point. At 
the next level of intervention, those with identifiably higher risk of 
suicide need additional intensity of services, for example through 
programs designed to help individuals and families engage in care and 
to address suicide prevention in those higher risk patients. Finally, 
those who are at imminent risk of suicide need urgent care available 
immediately, care that can rescue the Veteran from a suicidal crisis 
and get them into intensive services addressing their specific needs. 
Some of the initiatives that have proven to be very effective in our 
efforts include:

    Enhancement of overall VA mental health services:

    <bullet> Over the last five years, and with renewed commitment by 
the current Administration, VA has implemented a comprehensive Mental 
Health Strategic Plan and is now actively implementing the VHA Handbook 
Uniform Mental Health Services In VA medical centers And Clinics.
    <bullet> As part of these transformative efforts, VA has added 
almost 6,000 mental health providers, for a total of just over 20,000 
providers as of March, 2009.
    <bullet> Also as part of these efforts, access to care has met a 
standard unmatched in the rest of US health care; those who are newly 
seeking mental health care are seen for full evaluation and the start 
of treatment implementation within 15 days of referral, at a level of 
96% across the VA system.
    <bullet> VA has integrated mental health services into its primary 
care system, so that mental health providers are part of the primary 
care team and mental health care can very often be delivered in that 
octet, where patients have been shown to be most likely to bring mental 
health concerns. Referral to mental health specialty care is still 
fully available when that level of care is identified as the 
appropriate setting of care.
    <bullet> Screening and assessment processes have been set up in 
primary care to assist in the early identification of patients with 
mental health problems. When patients screen positive, further 
evaluation can occur immediately in the primary care setting. If a 
patient screens positive for depression or PTSD, a full evaluation of 
possible suicidal risk also is mandated and provided.
    <bullet> To help staff understand how excellent mental health 
services are also good suicide prevention strategies, VA has taken 
numerous educational efforts:

          - Sponsored three Suicide Prevention Days to increase 
        awareness of the problem and co-sponsored 2 conferences on 
        suicide prevention with the Department of Defense for 
        clinicians in both systems.
          - Sponsors public service announcements, web sites and 
        display ads designed to inform Veterans and their family 
        members of the VA Suicide Prevention Hotline (1-800-273-TALK/
        8255).
          - Distributes brochures, wallet cards, bumper magnets, key 
        chains and stress balls to Veterans, their families and VA 
        employees to promote awareness of the Hotline number and 
        educate its employees, the community and Veterans about how to 
        identify and help those who may be at risk.
          - VHA Suicide Prevention Coordinators are required to do 
        outreach activities in all of their local communities and are 
        able to provide a Community version of Operation S.A.V.E. to 
        returning Veterans and family groups, Veterans Service 
        Organizations or other community groups as desired.
          - Family psycho-educational materials have been developed 
        including information sheets intended to serve as guides for 
        adults to use when taking with children about a suicide attempt 
        in the family and family ACE (Ask, Care, Escort) card.

Services for Veterans Identified as at Increased Risk for Suicide:
    <bullet> Employee education programs such as Operation S.A.V.E. (a 
VA specific suicide awareness program) and a web-based clinical 
training module have been mandated for VA employees. S.A.V.E. refers 
to: know the Signs of Suicidal thinking, Ask the questions, Verify the 
experience with the Veteran, and Expedite or Escort to help. This is 
designed to increase awareness among all staff who may come in contact 
with Veterans--not just mental health service providers--of factors 
indicating possible suicidal risk. As the S.A.V.E. acronym lays out, 
the training also guides staffing actions to take when a Veteran is 
identified as potential suicidal.
    <bullet> Each VA Medical Center has a suicide prevention 
coordinator or team. The coordinators and their teams ensure that the 
Veteran receives the appropriate services. Calls from VA's Suicide 
Prevention Hotline (discussed in detail below) are referred to the 
coordinators, who follow up with Veterans and coordinate care.
    <bullet> Patients who have been identified as being at high risk 
receive an enhanced level of care, including missed appointment follow-
ups, safety planning, weekly follow-up visits, and care plans that 
directly address their suicidality. A chart ``flagging'' system for 
those at risk has been developed to assure continuity of care and 
provide awareness among care-givers.
    <bullet> Reporting and tracking systems have been established in 
order to learn more about Veterans who may be at risk and help 
determine areas of concentration for intervention. Continual analysis 
of reports and VA data has led to 3 recent information letters to the 
field:

          - Each of the mental health conditions increases the risk of 
        suicide, but the effect of PTSD may be related separately from 
        it's co-occurrence with other conditions
          - Chart diagnoses associated with Traumatic Brain Injury are 
        associated with increased risks of suicide, even after 
        controlling for co-occurring mental health conditions
          - Some, but not all, chart diagnoses associated with chronic 
        pain are associated with increased risks of suicide, even after 
        controlling for co-occurring mental health conditions
Services for Veterans in Suicidal Crisis:
    <bullet> A 24/7 Suicide Prevention Hotline. Veterans call the 
national suicide prevention hotline number 1-800-273-TALK and then 
``push 1'' to reach a trained VA professional who can deal with any 
immediate crisis. More than 245,000 callers have called the hotline and 
over 144,000 of these callers have identified themselves as Veterans or 
family members or friends of Veterans. There have been over 7,000 
rescues of actively suicidal Veterans to date.
    <bullet> An on-line Chat Service was initiated in July 2009 and to 
date there have been almost 4,000 chatters that have utilized the 
Service. Several of them have been referred to the Hotline for 
immediate care.
    Despite all of the above efforts, VA recognizes that ongoing 
research is needed to expand our knowledge and inform our continuous 
efforts to improve suicide prevention services. We are proud of what we 
do now, but can never be satisfied as long as there are Veterans who 
commit suicide; the more we can learn, the more we will be able to do:

    <bullet> The development of two centers devoted to research, 
education and clinical practice in the area of suicide prevention. The 
VA VISN 2 Center of Excellence in Canandaigua, NY develops and tests 
clinical and public health intervention strategies for suicide 
prevention. The VA VISN 19 MIRECC in Denver, CO focuses on: 1) clinical 
conditions and neurobiological underpinnings that can lead to increased 
suicide risk; 2) the implementation of interventions aimed at 
decreasing negative outcomes; and 3) training future leaders in the 
area of VA suicide prevention.
    <bullet> Suicide prevention research is challenging for many 
reasons, however scientists are attacking the problem through 
epidemiology studies to identify risk and protective factors; 
prevention interventions, and biological research examining
    <bullet> VA researchers are also engaged in efforts to assure 
safety plans are in place for participants in research, including 
coordination with the VA National Suicide Hotline and standardized 
assessments for suicidality
    <bullet> A recent comprehensive review concluded that intensive 
education of physicians and restricting access to lethal means had 
substantial evidence for preventing suicide.
    <bullet> In order to explore the impact of Safety Planning in VA 
emergency department settings, a clinical demonstration program has 
been initiated. This project has includes the use of Acute Service 
Coordinators who help veterans negotiate the transition from urgent to 
sub-acute care.
    <bullet> Other approaches needing further research include: 
screening programs, media education, and public education. Structured 
cognitive therapy (CBT) approaches for those who are suicidal, or 
suicide attempters, and education of what are often called community 
``gatekeepers'', and means restriction initiatives (e.g., gun locks, 
blister packaging medications) show promise.

    Finally, VA seeks to be a leader in contributing to a public health 
approach to suicide prevention in America.

    <bullet> VA's Hotline Call Center gets more than 20% of all calls 
to the National Lifeline and provides the only national suicide chat 
service.
    <bullet> VA's Media Campaign has provided access to the National 
Suicide Crisis Line number to innumerable Americans.
    <bullet> Suicide Prevention Coordinator Outreach work has touched 
innumerable community members and VA employees and employee families.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Akaka. Thank you very much. We will pursue that 
with you.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    Secretary Jefferson, I appreciate what you said about 
making sure that veterans at risk of homelessness have access 
to the offices of DVOP and the local veterans' reps. I want to 
give you an example of how hard it is in a place like Montana.
    We have six DVOP and LVR staff in Montana to serve a State 
with 147,000 miles. That means less than one full-time staffer 
for each of the eight biggest cities, and there is a whole lot 
more to Montana than just the eight biggest cities where 
veterans reside. And no full-time staff for any of the seven 
Indian reservations in the State.
    Would you want to address that issue from your perspective 
and its adequacy?
    Mr. Jefferson. Yes, sir. After the November 18 hearing, one 
of the things we talked about was getting out into rural 
America to learn more about the issues firsthand. We reached 
out to your office and to Senator Begich to go ahead and set 
that up. We had a trip to Alaska, which was very informative.
    Sir, at the last hearing I talked about a concept that we 
had to provide boots on the ground in rural America and to 
provide better services. Although we are not ready to announce 
anything publicly, we have made some significant progress on a 
way to get more capacity to actually provide greater services 
to rural America--a rural outreach initiative.
    So, in the next few months I am optimistic that we will be 
able to share something more about that. We have identified the 
gap and are working to finalize a demonstration project to deal 
exactly with the issues that you have raised, sir.
    Senator Tester. So you would agree that there are now gaps 
and we are not serving to the level even close to what needs to 
be served in rural America?
    Mr. Jefferson. Sir, I feel that there is a significant gap 
between the services which are needed to provide coverage to 
rural America and what we have now.
    Senator Tester. We look forward to the proposals in the 
next few months.
    You know, when we talk about homeless vets, I had a hearing 
in Montana with Secretary Peake a couple of years ago, and we 
had a veteran come to the hearing who said he just came out of 
the woods. He had been there for 20 years.
    After further questioning, we found out that he literally 
just came out of the woods after being there for 20 years.
    We have a lot of folks out there in rural America living in 
abandoned farm buildings, in the woods. The question is--Mr. 
Dougherty, you have said you have standouts; you have the DVOP 
folks and the LVR folks.
    How do you find them? I mean there are a lot of homeless 
folks who are not veterans. How do you find them? How do you 
get to the folks who need help?
    Mr. Jefferson. Sir, one element of this demonstration 
project that we are working on is engaging with individuals, 
groups and communities in that local area who would know where 
the veterans are, what parts of the town, what parts of the 
environment where folks aggregate even if they are individuals. 
So that is an element.
    This demonstration project is to actually get into the 
heart of rural America to access those veterans.
    Senator Tester. That is exactly right. That question 
reverts back to your other answer. I mean I think we have got a 
big issue. Rural America has a high percentage of folks who 
sign up for the military. A lot of those folks go right back to 
rural America when they get done with the military.
    The same thing with Indian reservations. A high percentage 
of those folks sign up, and they go back. Many of them were in 
leadership positions. There has got to be some way for all 
three of the folks here to address the issue that is not being 
addressed. I really do look forward to the pilot project.
    I want to talk a little bit about the numbers that were put 
forth. 135,000, and then if my memory serves me correctly, one 
of you three had written and said that the number of homeless 
is going down.
    Is that correct?
    Mr. Dougherty. Correct.
    Senator Tester. By how much?
    Mr. Dougherty. Our estimate for last year was 107,000 on 
any given night. The year before the estimate was a 131,000.
    Senator Tester. Do you anticipate that number continuing at 
that rate?
    Mr. Dougherty. Yes, sir. It will have to.
    Senator Tester. Mr. Johnston, you talked about the numbers 
from communities and counties. Who gives you the numbers?
    Mr. Johnston. We have an approach called continuum of care 
where all of the stakeholders within any community, and for 
Montana, it is the entire State working together. It includes 
city agencies that relate to homelessness such as health 
agencies, employment agencies, housing agencies. It includes 
nonprofits, foundations, any organization or person that 
touches the issue of homelessness. They get together on a 
regular basis to identify where homeless people are and what 
their needs are.
    Senator Tester. My time has expired but I am just going to 
ask one question. Do you feel comfortable that you are getting 
the numbers? A lot of these agencies do not do much work in 
rural America. We are talking about places where there are far 
more cows than there are people.
    Do you feel comfortable you are getting the numbers you 
need out of those areas?
    Mr. Johnston. It is not a science, clearly. I have been 
working on this issue for several decades.
    Senator Tester. Because a lot of those agencies do not do 
much in rural America.
    Mr. Johnston. Right. The nonprofits are really the backbone 
of HUD's programs. About 90 percent of our funds go to local 
nonprofit organizations.
    Part of the consolidated program I referred to, there is a 
new rural housing stability program we are also launching 
because of the frustration that you are citing that in rural 
communities they feel like HUD's homeless dollars do not always 
get to where they need to go.
    So, in 2011 communities will have a choice about using the 
consolidated program or a rural housing stability program to 
focus on rural America.
    Senator Tester. OK. I think the key is finding them and 
getting them help.
    Thank you all for your testimony.
    Thank you, Mr. Chairman.
    Chairman Akaka. We will have a second round of questions 
here.
    Mr. Johnston, in your testimony you stated that the HUD-
VASH program combines HUD housing choice voucher rental 
assistance for homeless veterans with case management and 
clinical services provided by VA at its medical centers in the 
community.
    I am building on what Senator Tester said on this. My 
question is what happens if there is not a VA medical center in 
the veteran community?
    Mr. Johnston. To be honest, I think the best answer is 
going to come from Pete on this. We allocate the Section 8 
vouchers and the VA provides the case management, but it is not 
just through the VA medical hospital.
    Do you mind if I defer part of that answer to Mr. 
Dougherty?
    Chairman Akaka. Mr. Dougherty.
    Mr. Dougherty. Mr. Chairman, although it is connected to 
the VA medical center it is not that it has got to be connected 
to a VA hospital. Many of these staff work out of community-
based clinics and other locations. It is to have a person who 
is part of the medical care system who is providing the case 
management.
    So I think what you will find from year one to year two is 
the vouchers are getting into a lot of more smaller 
communities, and I think what you will find when HUD comes out 
with round three is that we are getting into more communities 
as well.
    It is not just that the vouchers are concentrated in or 
near VA medical centers; many of them are far distances away.
    Chairman Akaka. Secretary Jefferson, are there any 
obstacles to working with homeless veterans once they have been 
accepted into the HUD-VASH program? If so, how do you believe 
the obstacles can be removed?
    Mr. Jefferson. Senator, I think one of the things that we 
have learned from the listening sessions with homeless women 
veterans is recognizing that the best practices for serving the 
women veterans are different from the male veterans, and we 
need to incorporate those best practices.
    Some specific examples are: counselors who are female, 
trained in military sexual trauma, trained in domestic violence 
and physical abuse, trained in substance abuse, and are, again, 
female; the need to incorporate child care; and also access to 
educational opportunities once those children are of age to go 
to school.
    So, as we look at the services need for the homeless women 
veterans, we need to incorporate those best practices into what 
the larger veteran service providers are offering.
    Chairman Akaka. Mr. Dougherty, your testimony states that 
we know from past experience that homelessness among veterans 
peaks 7 to 10 years after military service. Can you elaborate 
on VA's plans to prevent homelessness of current servicemembers 
7 to 10 years from now?
    Mr. Dougherty. Yes. Mr. Chairman, that is, in fact, 
historically what we have seen. Of course, that is before we 
got into the present conflict and before we began working on an 
active intervention.
    As I remind myself all the time regarding Vietnam veterans, 
VA probably saw one in ten in the first few years after the 
veteran came for any kind of services on the health care side. 
Now we are seeing about 40 percent of veterans who served in 
Iraq and Afghanistan.
    We are making a deliberate attempt to--as you know because 
you have done this--to help us provide medical services and 
services for them, and we are actively reaching out to do that.
    The collaborative effort that we are working on with the 
Department of Housing and Urban Development for those at risk 
of recently discharged veterans, we think is going to do a much 
better job because our care coordination staff and our Vet 
Center staff are going to be, before that veteran becomes 
homeless, able to hook that veteran into services that we can 
provide and housing and support assistance that HUD will be 
able to provide for them.
    So, although historically that has been the case, I am 
looking for that trend to change radically moving forward.
    Chairman Akaka. Secretary Jefferson, how does DOL evaluate 
and measure the effectiveness of HVRP grantees and how are the 
results used in determining subsequent grants?
    Mr. Jefferson. Thank you, Senator. We look at the entered 
employment rate as well as the retention rate; and choosing 
2009 as an example, we served about 15,500 homeless veterans 
and had an entered employment rate of about 67 percent. So 
roughly two-thirds of those veterans going through the program 
were able to find meaningful careers, meaningful employment.
    We also monitor all of our grantees, and when grantees are 
not performing at the level of which they could, they are first 
put on a performance plan. We try to work with them to get them 
back up to a high level of performance. And there is a 
monitoring component.
    We currently have about a 67 percent success rate of 
entered employment for the community we serve.
    Chairman Akaka. Do you believe there is any value in using 
HVRP grants in conjunction with efforts to prevent homelessness 
among veterans or in assisting veterans who just recently are 
no longer homeless?
    Mr. Jefferson. Yes, Senator. We are collaborating already 
with Housing and Urban Development and Department of Veterans 
Affairs in working on the initiative to prevent veterans' 
homelessness.
    One of the ways we will provide that is by making sure 
employment representatives are involved with the sites where we 
are doing these demonstration projects.
    Chairman Akaka. Thank you.
    Senator Burr.
    Senator Burr. One question, Mr. Chairman and Mr. Dougherty. 
What key legislative provisions will need to be enacted to 
incorporate the Secretary's 5-year plan?
    Mr. Dougherty. Senator, most of the legislative authority 
we think we already have. There is one thing that we are 
looking to try to do, and that is around sober living housing.
    One of the things we have found is that many veterans who 
have been homeless have substance abuse problems. Many of them 
are returning to gainful employment but they are limited in 
their income and their ability to live independently in 
communities.
    There was some legislative authority back in Public Law 
102-54. We think that what we need to do is also try to figure 
out how we can get more of that kind of housing out there 
because for many of those veterans, sobriety is something that 
if maintained, gets them stronger and then gives them the 
ability to live independently within their income.
    Many of these veterans when they first go back to work have 
very limited income, and over time their income level rises. 
So, one of the things that we are looking to work with you and 
the Committee on is how do we get more of that kind of housing 
availability, which has very low start-up cost and does not 
have an ongoing cost to VA.
    Senator Burr. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Burr.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    Assistant Secretary Jefferson, in the last round of 
questioning, you intimated that there would be in the next few 
months a rural outreach program announced. Do you anticipate 
that to be before the Fourth of July?
    Mr. Jefferson. Sir, I cannot make that commitment. I will 
just tell you that we are working very hard to bring the 
relevant partners in that together. We are looking at 
everything from metrics, operationalizing, and execution. It is 
one of my top priorities.
    Senator Tester. If it is one of your top priorities, I 
anticipate, I mean--I think it is something that is critically 
important and would go a step further to say, when you make 
that announcement, I would love to have you do it in Montana 
where you would have a willing audience.
    Mr. Jefferson. Sir, we are always excited to work closely 
with your office.
    Senator Tester. I want to talk about competitive grants 
just for a second. Each of you is responsible for running large 
competitive grant programs to service homeless vets. This is 
for each one of you: how do you compare grant proposals with 
regard to rural States versus urban areas?
    Who wants to start? Pete?
    Mr. Dougherty. Yes. Senator, what we do is we look at what 
the need is. When our transitional housing grants first came 
about, it was deliberately designed to give rural communities 
an advantage, or at least not to have a disadvantage in 
applying.
    There is what I like to refer to as an intensity of need. 
You are from a very rural State. If you have 20 homeless 
veterans in New York City probably no one would care. If you 
have 20 homeless veterans in Missoula, people are really 
concerned and want us to do something about it.
    So we fund many small grants; many of our programs are 
small. You do not have to have a 50-bed program in order to get 
funding from us.
    In rural areas, with our current Notice of Funding 
Availability, it allows us, as was mentioned before, to serve 
tribal programs. One of the things that we have done is we have 
targeted tribal lands, programs on tribal lands to help meet 
that need.
    So, in that case, you need to have a passing grade, and you 
will not be at a competitive disadvantage by having to hire a 
high cost grant writer.
    Senator Tester. Secretary Jefferson, would you want to 
respond to that question?
    Mr. Jefferson. Sir, just a few quick thoughts. One is very 
candidly, with the resources we had we did not have the ability 
to create a grant program that would target just rural 
communities, which is how this demonstration program came out; 
and through partnerships I believe we are going to have the 
capacity to provide services there.
    Based upon the awareness we have of the needs in rural 
America, which I want to thank you for sharing a lot of those 
over the past few months, we will be looking at that when we 
make grant decisions for the current grants that we have.
    Senator Tester. Mr. Johnston.
    Mr. Johnston. In our competitive programs, by law need is 
one of the selection factors. We have performance as another 
key element. We have found and we have compared this over years 
that rural communities do just as well in the competition as 
all areas do in the country.
    Nonetheless, given the perception and concern that rural 
areas are not getting enough, this new rural housing stability 
competitive program will provide more resources in rural areas.
    Senator Tester. I appreciate your answers. I would also say 
that the numbers in rural areas are not there because it is 
rural. So when these grants go out--and I have just as much 
empathy for the veteran that is living in an urban center as I 
do out in the woods in Montana. They both have their issues. 
They both have their problems. I just want to make sure that we 
do not forget about them.
    Mr. Johnston.
    Mr. Johnston. Just one quick observation. We have another 
program that is not competitive. It is a formula program and it 
can be used flexibly for homeless prevention so that in rural 
communities where you may not be living on the streets because 
it just would not happen there or there is not a shelter, you 
can use homeless prevention funds to serve that person.
    Senator Tester. Do the folks in rural America know about 
it?
    Mr. Johnston. They do. The problem in the past was it had 
been limited. It had been a very, very small program. Our 
request this year significantly increases the size of that 
program.
    Senator Tester. Thank you, Mr. Chairman.
    I want to thank the work each and every one of you do. I 
appreciate it.
    Chairman Akaka. Thank you very much, Senator Tester.
    I want to thank this first panel. I urge that you continue 
this discussion on the homeless amongst yourselves and to be in 
touch with us as we look into it and discuss the details of the 
VA's 5-year plan.
    We also want to join together with you to bring this about. 
As Senator Burr has mentioned, we are looking at outcomes and 
that is very, very important to all of us.
    So thank you. This has been a valuable hearing for us. 
Thank you for your contributions.
    Now I would like to welcome the witnesses on our second 
panel.
    Arnold Shipman, U.S. Air Force Veteran. Dennis H. Parnell, 
President/CEO, The Healing Place of Wake County. Sandra A. 
Miller, Program Director, Homeless Veteran Residential 
Services, Philadelphia Veterans Multi-Service & Education 
Center. Patrick Ryan, Vice Chair, Board of Directors, National 
Coalition for Homeless Veterans. Sam Tsemberis, Ph.D., Founder 
and CEO, Pathways to Housing, Inc.
    Mr. Shipman, would you please begin with your testimony.

      STATEMENT OF ARNOLD SHIPMAN, U.S. AIR FORCE VETERAN

    Mr. Shipman. Good morning, Senator Akaka, Ranking Member 
Burr.
    My name is Arnold Shipman and I am a 49 year-old Air Force 
veteran and homeless from Baltimore, MD. I joined the Air Force 
in June 1978 right after high school. My specific job 
assignment in the Air Force was as a Security Police Customs 
Inspector. I went from Eglin Air Force Base in Florida to 
Okinawa, Japan and finally to Dover Air Force Base in Delaware.
    It was at Dover Air Force Base where the realities of life 
took a heavy toll on a then twenty-one year old young man. Part 
of my job was inspecting the body bags of women, children and 
babies who died under the hand of Reverend Jim Jones in 
Jonestown. There were women, children and babies who died in 
this horrible and tragic chapter of our history. Their lives 
had not even begun. This had a powerful and profound effect 
upon me.
    After my military career was over, I returned to my home in 
Baltimore. Thus began a series of menial jobs while waiting to 
pursue a career as a diesel mechanic. It was during this time 
that my life began to seriously spiral out of control.
    Cocaine was becoming very popular. Several of my friends 
were selling cocaine. Because there was nothing else happening 
for me, I began to sell this. The money was rolling in and I 
thought this could make me forget my experiences at Dover AFB. 
I thought this could make me happy. It was a momentary respite.
    Outwardly, I portrayed someone who was happy, someone who 
had his life together and was functioning as a normal person. 
Inwardly, I was a mess. Nothing fulfilled me no matter what I 
did.
    It was at this point that I began to use drugs. Not the 
cocaine I had been selling, but heroin. This is a more deadly 
drug and its most devastating effects soon became very apparent 
to me.
    Now began the endless incarcerations and the increased drug 
use. It seemed each time someone close to me died, my mother, 
my father, my two sisters and my brother; it only whetted my 
appetite for more drugs. As I reflect upon that period in my 
life, any excuse would have done. It was as if I was on a 
runaway train taking me to the darkest places of life.
    It was during this time in a damp jail cell, alone, at 
night, by myself I remembered a place I had heard of earlier. A 
place called MCVET-Maryland Center for Veteran's Education and 
Training. A place where help could be had if one wanted it.
    I thought about how life had not gone very well for me so 
far and anything might be better than what I had been used to. 
Thinking I had nothing to lose and maybe everything to gain, I 
decided to enter the program and was accepted.
    That was one of the best decisions I have ever made in my 
life. The structure which was sorely missing immediately was 
found. The support I needed I accepted. The guidance I sought 
was provided.
    Since being in the program, I have begun to clean up the 
wreckage of my past, piece by piece and inch by inch. I am also 
working on my degree in radiology. I am also a part of the 
``Back On My Feet'' running program and recently completed my 
first marathon in October 2009 which was 26.2 miles. I am in 
training for the annual 5k/10k race in May and was featured in 
the national magazine which focused on my training for the 
marathon and the recovery that I am going through. And now I 
have the opportunity of a lifetime to address a U.S. Senate 
committee. I could not have imagined the changes my life would 
take.
    I feel truly blessed. None of these accomplishments would 
have been possible for me without the MCVET program. They have 
provided me structure along with a positive support system 
which has allowed me to excel. They have helped me to address 
the issues which fed my addiction which I am overcoming. They 
have inspired me to be the best.
    So, I thank the Committee. Thank you, Chairman Akaka. Thank 
you Ranking Member Burr.
    In conclusion, I would also like to thank Colonel Charles 
Williams and the staff at MCVET. The opportunities they 
provided for me and other homeless veterans and other veterans 
in need have been unsurpassed. Thank you.
    [The prepared statement of Mr. Shipman follows:]
        Prepared Statement of Arnold Shipman, Air Force Veteran
    My name is Arnold Shipman and I am a 49 year-old African-American 
male, Air Force veteran and homeless. I live in Baltimore, Maryland.
    I joined the Air Force in June 1978 immediately after completing 
high school. My specific job assignment was as a Security Police 
Custom's Inspector. I went from Eglin Air Force Base in Florida to 
Okinawa, Japan and finally to Dover Air Force Base in Delaware.
    It was at Dover Air Force Base where the realities of life took a 
heavy toll on a then, twenty-one year old young man. Part of my job was 
inspecting the body bags of those who the Rev. Jim Jones murdered in 
Jonestown. There were women, children and babies who died in this 
horrible and tragic chapter of our history. Their lives had not even 
begun. This had a profound affect upon me.
    After my military career was over, I returned to my home in 
Baltimore, MD. Thus began a series of menial jobs while waiting to 
pursue a career as a diesel mechanic. It was during this time that my 
life began to seriously spiral out of control.
    Cocaine was becoming very popular. Several of my friends were 
selling cocaine. Because there was nothing else happening for me, I 
began selling cocaine. The money was rolling in and I thought this 
could make me forget my experiences at Dover AFB. I thought this could 
make me happy. It was a momentary respite.
    Outwardly, I portrayed someone who was happy, someone who had his 
life together and was functioning as a normal person. Inwardly, I was a 
mess. Nothing fulfilled me no matter what I did.
    It was at this point that I began to use drugs. Not the cocaine I 
had been selling, but heroin. This is a more deadly drug and it's most 
devastating effects soon became very apparent to me.
    Now began the endless incarcerations and the increased drug use. It 
seems each time someone close to me died, my mother, my father, my two 
sisters and my brother, it only whetted my appetite for more drugs. As 
I reflect upon that period in my life, any excuse would have done. It 
was as if I was on a runaway train taking me to the darkest places of 
life.
    It was during this time in a damp jail cell, alone, at night, by my 
self I remembered a place I had heard of earlier. A place called MCVET-
Maryland Center for Veteran's Education and Training. A place where 
help could be had if one wanted it.
    I thought about how life had not gone very well for me so far and 
anything might be better than what I was doing. Thinking I had nothing 
to lose and maybe, everything to gain, I decided to enter the program 
there and was accepted.
    That was one of the best decisions I have ever made in my life. The 
structure which was sorely missing immediately was found. The support I 
needed I accepted. The guidance I sought was provided.
    Since being in the program, I have begun to clean up the wreckage 
of my past, piece by piece and inch by inch. I am working on my 
Associate Degree in Radiology. I am also a part of the ``Back On My 
Feet'' running team and recently completed my first marathon which was 
26.2 miles. I am in training for the annual 5k/10k MCVET race in May. 
In December 2009, I was featured in the national magazine ``Urbanite'', 
which focused on my training for the marathon. And now I have the 
opportunity of a lifetime, to address a U.S. Senate Committee. I could 
not have imagined the changes my life would take.
    I feel truly blessed. None of these accomplishments would have been 
possible for me without the MCVET program. They have provided me 
structure along with a positive support system which has allowed me to 
excel. They have helped me to address the issues which fed my addiction 
which I am overcoming. They have inspired me to be the best.

    Many thanks go to Col. Williams and the staff at MCVET. The 
opportunities they provided for me, homeless veterans and other 
veterans in need has been unsurpassed.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
                 Arnold Shipman, U.S. Air Force Veteran
    Question 1. Other than the briefing you received from MCVET while 
you were incarcerated, do you remember any other outreach efforts 
regarding programs and benefits for veterans after you left the 
military?
    Response. There were detox clinics at the VA hospitals in 
Philadelphia and Baltimore. Their primary purpose was removing drugs 
from your system. The programs lasted for approximately five (5) which 
included two (2) counseling sessions.
    There was also a twenty-eight (28) day civilian program. It did not 
provide any structure or attempt to address the problems which led to 
my addiction. No counseling was provided.
    From my experience, addicts just do not want to open up and talk 
about what's really troubling them in front of other people. As a 
result, they become frustrated and return to a life of active 
addiction.
    I feel that structure is the key, just like what we received while 
we were in basic training. This is why I am so adamant about the MCVET 
program. The structure that I had lost was found at MCVET's. It has 
enabled me to remain clean and sober longer than I ever have, including 
my incarcerations. Because I used while I was locked up.

    Question 2. How do you think you situation might have been 
different if you were placed in an apartment first, with no requirement 
for you to be clean and sober?  
    Response. My situation might be different given the fact that if I 
was not required to be clean and sober, I might be dead. It seems like 
without that requirement, it would be a haven for me and other addicts 
to use drugs. I was not homeless when I started using drugs. I became 
homeless because I was using drugs. Using drugs caused my life to 
become unmanageable. I was no longer a productive member of society. No 
program, apartment, room, car or anything else would have worked if 
there was no requirement for staying clean. As the literature in 
Narcotics Anonymous states, ``staying clean must come first.''

    Question 3. Based on your experiences, do you believe there are any 
simple changes that can be done immediately to improve the services and 
programs available to assist our homeless veteran population and what 
are they?
    Response. I think more money should be allocated to assist homeless 
veteran and other veterans in need. This would have an immediate effect 
and could be life saving.

    Chairman Akaka. Thank you very much, Mr. Shipman.
    Ms. Miller.

   STATEMENT OF SANDRA A. MILLER, PROGRAM DIRECTOR, HOMELESS 
   VETERAN RESIDENTIAL SERVICES, PHILADELPHIA VETERANS MULTI-
                   SERVICE & EDUCATION CENTER

    Ms. Miller. Good morning, Mr. Chairman, Ranking Member 
Burr. I am Sandy Miller, and I am the Program Director of 
Residential Services for The Philadelphia Veterans Multi-
Service & Education Center. On behalf of our Executive 
Director, Marsha Four, our Board of Directors and our entire 
staff, I would like to thank you for the opportunity to provide 
comment here today.
    Our executive director and I were present at the summit 
when Secretary Shinseki unveiled the VA's Five-Year Plan to End 
Homelessness. We respect the attention and energy that both he 
and President Obama have committed to this cause.
    We at our agency, however, do have some serious concerns, 
and it may be cynical on our part, but we see a very real 
obstacle. Remember, we were here 10 years ago when the 10-year 
plan was introduced and we are still today.
    The obstacle I mentioned is a large bureaucracy of the 
Department of Veterans Affairs. On one hand we have the Central 
Office, the VISNs, and the medical centers; on the other hand 
we have directors, managers, supervisors, a myriad of chiefs, 
program staff, triads, quadrads, and on and on.
    If every person at the Department of Veterans Affairs at 
every level is not held accountable to these tasks, we will 
never accomplish it. There must be program measures in place at 
every level from the lowest person working in the kitchen of 
the VA medical center all the way up to the highest-ranking 
members at central office. Every level of the VA must be held 
accountable.
    Resources must find their way to those of us who are in the 
trenches, boots on the ground. Receiving our first VA homeless 
grant per diem awards in 1996, we established the foundation 
for our comprehensive homeless veteran programs.
    These programs include The Perimeter, a day service center; 
LZ2, a 95-bed transitional facility for male veterans; the Mary 
E. Walker House, a 30-bed facility for female veterans; in 
addition to HUD and DOL grants which have resulted in 40 
housing units under HUD and a number of HVRP grants.
    We are here to restate our concerns so they are not lost in 
the shuffle.
    Day service centers reach deep into homeless veteran 
population still on the streets and in the shelters of our 
cities and towns. They are the portal from the streets and 
shelters to substance abuse treatment, job training and 
placement, VA benefits, VA mental and medical health, placement 
in jobs and transitional facilities. These day drop-in centers 
are the first step to ending veteran homelessness.
    At the multi-service center for our day service center we 
receive--are you ready for this?--$4.30 per hour to provide 
services for these homeless veterans and that is only for the 
period of time that that veteran is physically on site.
    The services and assistance that we have to provide to 
these veterans go on long after that veteran leaves us. It is 
for this reason alone that many service centers have either 
closed or never opened after receiving their funding through 
grant and per diem.
    We would like to suggest the creation of service center 
staffing and operational grants much like those special needs 
grants at the VA. Senators, we have been holding onto this 
mission for far too long by our fingertips. We need help.
    Nonprofits have long struggled with the process used to 
justify the receipt of per diem payments through the VA. 
Although the amount of per diem has increased over the years, 
the documentation requirements have created a significant 
burden on these small nonprofits.
    We argue that without the upkeep and solvency of the parent 
agency, the per diem programs could not function because they 
are inexplicably part of the parent agency.
    Grantees are paid based on past accounted and audited 
expenses, not on anticipated expenses for the operating year in 
which the per diem will be paid. We suggest that the VA 
consider payment in much the same way, for example, that HUD 
does, whereas funds are allocated and drawn down throughout the 
year with a reconciliation done at the end of the year.
    We cannot enhance services or hire additional staff if we 
are unable to access the dollars of the increased per diem to 
pay for them. The current process leaves the agency in a 
situation where we do not have the money to do any advanced or 
real-time enhancements to our programs.
    In the past some very successful programs identified a need 
for increased bed capacity. These existing programs requested 
additional beds under the per diem only grant process and were 
able to increase their bed capacity.
    The original grant and the PDO were issued under separate 
times so therefore they have separate project numbers. These 
two project numbers are attached to the same program with the 
same expenses, utilizing the same staff. The only difference is 
the increase in bed capacity.
    We believe that these programs must be treated as one and 
the two project numbers merged.
    As with any change, we understand oversight is key. With 
the requirement for intensive annual inspections by the VA on 
all grant and per diem programs, we do not see any diminished 
ability if the VA was to provide this oversight and we feel 
that oversight of these programs should have no effect on how 
we are funded.
    HUD-VASH and MHICM. HUD-VASH truly is a perfect marriage. 
We at the local level have seen one very large gap and that is 
that some of our veterans are not able to access VASH. They are 
too sick for one program yet not sick enough for another.
    With not being eligible for the MHICM program, the Mental 
Health Intensive Case Management--again this is something we 
are seeing locally--these veterans who are not qualified for 
one or too sick for one and not sick enough for the other will 
slip through the cracks.
    We believe that a coordination of MHICM and HUD-VASH for 
these special veterans could benefit them in providing them 
with a fighting chance at obtaining independent housing and 
happiness too.
    In closing, can we end veterans living on the streets or in 
boxes, cars, shelters, vacant buildings? We do not know the 
answer but we know that we are going to keep on trying to do 
our best to be part of any solution. Eventually this does make 
a difference. It certainly does to the veteran who finds her 
way home.
    Thank you.
    [The prepared statement of Ms. Miller follows:]
  Prepared Statement of Sandra A. Miller, Program Director, Homeless 
Veteran Residential Services, The Philadelphia Veterans Multi-Service & 
                         Education Center, Inc.
    Good morning Mr. Chairman, Ranking Member Burr, and Distinguished 
Members of this Committee. As introduced, I am Sandy Miller, and 
although I am Chair of the Homeless Veterans Committee of Vietnam 
Veterans of America, I am here today as the Program Director of 
Residential Services for The Philadelphia Veterans Multi-Service & 
Education Center. On behalf of our Executive Director, Marsha Four, our 
Board of Directors and our entire staff, I would like to thank you for 
giving our agency the opportunity to offer comments on the VA Plan to 
End Homelessness in Five Years.
    After all these years of effort, energy, and attention to this 
issue on the part of Congress, the VA, veteran advocates, veteran 
service organizations, and non-profit organizations the disturbing 
situation of life for homeless veterans endures. Can we bring an end to 
veterans living on the streets or in boxes, cars, shelters, vacant 
buildings? None of us can answer that question but we can try. There 
will always be those who choose this way of life . . . there always 
have been . . . from the beginning of time. We can, however, offer and 
assist those who seek a different way of existing in the short time we 
have all been granted, but they can't make it on their own. They just 
can't make it out of the darkness alone. And we can continue to try to 
find an effective and efficient way to help those who are helping these 
veterans.
    The Philadelphia Veterans Multi-Service & Education Center is one 
of the non-profit organizations that has been working toward this end 
for over thirty years. We received our first two of many VA Homeless 
Grant and Per Diem (HGPD) awards in 1996. Though always providing for 
the homeless veterans who found their way to our agency, in 1996, we 
established the foundation of our comprehensive homeless veteran 
programs that also made use of HUD and DOL grants. Today these programs 
include: The Perimeter, a day long comprehensive, day service program; 
LZ II, a ninety-five (95) bed transitional residential program for male 
veterans; The Mary E. Walker House, a thirty (30) bed transitional 
residential program for female veterans; a thirty (30) unit Veteran 
only Shelter Plus Care Program; a ten (10) unit Veteran only HUD 
McKinney Supported Housing Program; ARRA 2009 funding from the city of 
Philadelphia for Rapid Re-Housing for veterans; and a number of DOL 
grant to include Homeless Veteran Reintegration Program grants (HVRP).
    While our comments today may well be seen as a rehash of previously 
mentioned concerns, we are here to re-state them so they are not lost 
in the current massive movement to bring additional services and help 
to homeless veterans. PVMSEC has worked in this field and inside the 
grant programs of VA, HUD and Labor for so long, that we have 
identified over time the gaps, shortfalls, and enhancements that can 
only be known by those who utilize the system on the ground.
    There are a number of Congressional bills to assist homeless 
veterans, improve or enhance programs for them, or initiate new 
opportunities in both this Committee and the House Veterans' Affairs 
Committee. We are all anxious for these to move as quickly as possible, 
but we also understanding, however, the need to allow enough input to 
make the provisions of each as comprehensive and responsive to the need 
as possible. And so we are here.
                                numbers
    With the increasing number of new veterans joining the ranks of the 
homeless veterans, it is puzzling that two years ago the VA estimated 
that 154,000 were homeless, last fall the number was 131,000, and most 
recently it was stated that the number has dropped to 107,000 homeless 
veterans on any given night. Those of us working in this arena are a 
bit confused because we have not seen a decrease in the number of 
homeless veterans we are seeing and assisting in our programs.
              day service centers: the door to the inside
    One of the most effective front line outreach operations funded by 
VA HGPD is the Day Service Center, sometimes referred to as a Drop-In- 
Center. As mentioned earlier, The Philadelphia Veterans Multi-Service & 
Education Center operates a Day Service Center in center city 
Philadelphia. We are committed to this program but our agency stretches 
itself and its staff almost beyond its limit in order to keep the 
program afloat. Few even remain in the HGPD system due to the limited 
per diem funding support.
    These service centers are unique and indispensable as a resource 
for VA contact with homeless veterans. These Service Centers reach deep 
into the homeless veteran population that are still on the streets and 
in the shelters of our cities and towns. They are the portal from the 
streets and shelters to substance abuse treatment, job placement, job 
training, VA benefits, VA medical and mental health care and treatment, 
homeless domiciliary placement, and transitional housing. They are the 
first step to independent living. They can be the first step to ending 
homelessness. But this can only happen if they are able to operate in 
an effective environment.
    Under the VA HGPD program non-profits receive per diem at rates 
based on an hourly calculation per diem ($4.30) for the actual time 
that the homeless veteran is actually on site in the center. This 
amount may cover the cost of the coffee and food that the veterans 
receive but it does not come close to paying for the professional staff 
that must provide the assistance and comprehensive services that must 
be continued on his/her behalf, long after they leave the facility. An 
example, our homeless veteran daily case load is fifty-seventy (50-70) 
and our annual unique veteran count is approximately 900. As one can 
well imagine the needs of these veterans are great and demands an 
enormous amount of time, energy, and manpower in order to be effective 
and successful. Their problems are complicated by years of abuse on 
many levels of life experience.
    It is for this reason, the lack of sufficient operational funding, 
that many service centers for homeless veterans have either closed or 
never opened after being funded by VA HGPD. The VA acknowledges and 
understands that this problem exists. This is a tremendous loss to the 
outreach efforts so important in connecting the homeless veterans with 
the VA.
    The reality is that most city and municipality social services do 
not have the knowledge or capacity to provide appropriate supportive 
services that directly involve the treatment, care, and entitlements of 
veterans. It is for this reason that these homeless veteran service 
centers are so vital. These service centers desperately need help and 
attention. They are an integral part of the outreach and first line 
contact with homeless veterans that is, in fact, so essential as part 
of the Secretary's 5 Year Plan. Service Center programs are challenging 
and staff intensive. But they are one of the raw conduits out of 
homelessness in many cases.
    We believe that it is possible to create ``Service Center Staffing/
Operational'' grants, much like the VA ``Special Needs'' grants. 
Passing the legislation to establish this funding stream/resource 
shouldn't take a year to figure out. ``Special Needs'' grants have been 
doing it for years. And we can't wait too much longer. We have been 
holding on to this mission by our fingernails for a long time. Without 
serious and speedy activation of staffing grants the result may well be 
the demise of these critically needed services centers.
    We cannot lose these valuable front line, ``on the streets'', 
service center outreach programs. They are the heartthrob of VA 
homeless veteran programs; the first hand offered too many of the 
homeless veterans who are on the streets and in the shelter system of 
our cities.
                   a united front: mhicm and hud-vash
    HUD-VASH: the vision of a perfect marriage. Like all unions, 
however, nothing is perfect and for those who work inside the program, 
it is evolving. But The Center would like to bring forward a situation 
that identifies a very real gap in services for a group of our homeless 
veterans that don't seem to fit anywhere else in the system. These are 
the homeless veterans who are diagnosed with significant mental health 
problems (i.e. schizophrenia) but do not meet the criteria for 
placement in the VA Mental Health Intensive Case Management (MHICM) 
program. (MHICM eligibility criteria requires >30 days or >=3 episodes 
of psychiatric hospitalization, a diagnosis of schizophrenia or bipolar 
disorder, and living within 60 miles of a VA hospital.)
    Though HUD-VASH and its case management are a significant 
improvement and source of continuous support for many of the homeless 
veterans, it is not intensive enough for those homeless veterans with a 
level of significant mental health illness. So therein lies the 
dilemma. Not ``sick enough'' . . . ``too sick.'' They fit nowhere. They 
have not been ruled incompetent. They are left to find apartments in 
the community with no case management or organized support. These 
homeless veterans are now the forgotten. They are left with little 
chance for success and they will continuously recycle into and out of 
homelessness for the rest of their lives. The Center believes the VA 
could establish a coordination of MICHM and HUD-VASH for this ``special 
needs'' population of homeless veteran. They need to have a fighting 
chance at independent happiness too.
               service support for other veteran programs
    There are agencies in this country that bring support, services, 
and housing to homeless veterans. They often times do this with little 
financial assistance from the outside. There are even some HUD programs 
that are developed for homeless veterans (i.e. Shelter Plus Care) that 
do not provide operational dollars. We are hoping that some 
consideration will be made to provide grant dollars through the HGPD 
program to these veteran specific programs. This will enable them to 
hire appropriate staff for case management. Without this possible 
assistance and resource, the full opportunity of these homeless veteran 
programs will be lost.
                          va per diem programs
    Non-profits have long struggled with the process used to justify 
the receipt of the per diem payments from VA Homeless Grant and Per 
Diem (HGPD) program. Although the amount of the per diem money received 
per veteran per day provided has increased over time, the requirement 
documentation to meet a 100% cost expense has created a significant 
burden on non-profits.
                          unallowable expenses
    The collateral expenses of a HGPD program often can be incurred by 
a non-profit agency and even require discretionary dollars to pay for 
them. This occurs because of certain restrictions on allowable 
expenses. This is especially true if the HGPD program is not located on 
the site of the home agency. We argue, though, that without the up keep 
and solvency of the parent agency the per diem program could not 
function because, in truth, the program is linked inexplicably to the 
parent agency. The HGPD program could not exist without the home agency 
and therefore some of the expenses of the agency must be directly 
allowable as expenses to the program. We believe it should be at the 
discretion of the non-profit agency as to how much administrative 
expenses are incurred to cover the cost of the program.
                          ``fee for service''
    In actuality, HGPD is ``fee for service.'' One difference is that 
it is not set up as a contract agreement as utilized in the past by the 
VA where agencies were paid as contractors. Today's methodology works 
on the approach that grantees are paid based on past accounted and 
audited expenses, not anticipated expenses.
    Though not a popular resolve some non-profit agencies as asking, 
``Why aren't our programs seen as ``fee for service'' operations 
instead of a reimbursement?'' This option would, it seems, place the 
existing and future grant awardees in a per diem program much like that 
of the past programs which were paid as contractors. But this option is 
one that is discussed due to the frustration in obtaining the correct 
amount of per diem based on actual program expenses.
                    determination of per diem rates
    Currently, the per diem amount that non-profits receive is based on 
the previous year expenses as defined in its annual audit. It is not 
based on anticipated expenses for the operating year in which the per 
diem will be paid. This causes the program to fall short in meeting its 
expenses for the agency's operating year. For this reason, we believe 
it is a reasonable suggestion that VA consider the distribution of per 
diem payments in much the same way that other Federal agencies operate. 
One solution to consider would be to set up HGPD disbursements in a 
``draw down'' account similar to the system utilized by the U.S. 
Department of Housing and Urban Development, whereby agencies submit 
their projected budgets, are allocated the funds, and draw down on the 
allocated funds throughout the year. At the end of year reconciliations 
and adjustments as made.
    Payments need to be based on actual anticipated budgetary expenses, 
not based on past year expenses. We cannot enhance services or hire 
additional necessary staff before we are able to access the dollars of 
increased per diem to pay for them. It sets in place a vicious cycle of 
need. (The agencies have a set per diem; they need more staff; they 
haven't shown it as an expense on the approved per diem they are 
receiving, so they can't afford to hire new staff because they don't 
have the money to do so.) This process leaves the program and the 
agency at a clear disadvantage because they do not have the money to do 
any advanced or ``real time'' enhancements to the program. To do so 
would place them at high risk and this action could be suicidal for a 
small non-profit. It places them at risk with creditors or, the agency 
has to reach into its line of credit at the bank. This action could 
result in paying in pay interest on the use of its line of credit until 
they can be approved for higher per diem. This interest is then an 
added expense to the program . . . a cost they cannot recoup.
    S. 1547, The Zero Tolerance for Veterans Homelessness Act of 2009, 
introduced by Mr. Reed, provides for a much needed and greatly 
anticipated study on per diem payments. This study will include all 
aspects relating to the methodology used in making per diem payments. 
The bill also calls for the development of an improved method for 
adequately reimbursing grantees for services provided to homeless 
veterans. Non profits across the country anxiously await the results of 
this study and long overdue improved ``reimbursement for services'' 
method of allocating per diem dollars.
    As with any change, oversight is the key to the success or failure 
of the programs. There is already a process for defined oversight in 
regard to annual inspections, services offered, and goals attained in 
place. With the requirement for intensive annual inspections by the VA 
on all GPD programs, we do not see any potential diminished ability by 
the VA in the oversight of the programs. The method by which funds are 
paid should have no effect on the VA's ability to provide oversight.
                consolidation of va hgpd project numbers
    In the past, some very successful VA HGPD residential programs 
identified a need for increased bed capacity due to a clear 
identification of increased need for program admission. These existing 
programs requested additional beds under a VA HGPD ``Per Diem Only'' 
(PDO) grant process and were awarded the ability to increase the 
overall number of program beds.
    The original HGPD grant and the PDO grant were awarded at different 
times; hence, they have separate and different VA ``project numbers.'' 
These two project numbers are attached to the same program with the 
same expenses and the same staff. The only difference it has brought to 
the program is an increase in bed capacity. Here's where it gets 
convoluted and tricky.
    VA policy states that everything related to the one program must be 
divided out by a percentage based on the number of beds attached to the 
two project numbers. This includes the request for per diem amounts and 
the entire budgeted expenses of the entire program. Every bed in the 
one program has been assigned to one of the two project numbers. For 
the purpose of billing the VA at the end of each month, each veteran 
must be tracked on a daily basis, indicating the bed he/she was 
assigned on that particular day. And this must be done because when the 
audit was done for the one program to determine the level of per diem 
the agency can receive, it was identified that the per diem per day for 
the two project numbers was different. Not only is this a very time 
consuming process on the reporting side, all expenses for the one 
program on the bookkeeping side of the agency have to be calculated by 
percentage. This also makes it extremely difficult to request increased 
per diem.
    We believe that if a single program has two different project 
numbers based solely on an approved expansion without change to the 
program, that program should be treated as a whole and the two projects 
numbers should be merged. This is the only fair way to work with the 
non-profit. To do so would allow an agency to function in a more 
efficient manner, have access to an appropriate and true per diem 
structure, and reduce the paper work for the VA HGPD offices.
         the five year plan to end homelessness among veterans
    I have spent some time highlighting a number of areas that PVMSEC 
feels need attention or change. In actuality we have struggled with 
them for years. Because you have asked us here to testify, we are 
trusting in your serious consideration of our thoughts. We would 
certainly discuss these ideas further if you would like.
    Our agency had several staff who were present at the summit when 
Secretary Shinseki revealed the VA's Five Year Plan to End 
Homelessness. We respect the attention and energy that both he and 
President Obama have committed to eliminating homelessness among 
veterans.
    It is a plan of wide scope. And if it's deliverable it will make a 
tremendous impact on the lives of thousands of homeless veterans. The 
Secretary had a team of extremely experienced and knowledgeable staff 
that worked on the development of this comprehensive document. They 
embraced the Secretary's priority of this issue and the immediacy of 
the need.
    Needless to say, we have serious doubts and concerns if the plan 
will meet the expectations of Secretary Shinseki. It may be cynical on 
our part but not only do we see a very real obstacle stretching across 
the road to this plan . . . we were also around about ten years ago 
when there was another edict to end homelessness in ten years. And here 
we are today . . . still working on the issue.
    The obstacle I mentioned was the large bureaucracy of the VA. On 
one hand we have the stratus of the Central Office, the VISNs, and the 
medical centers. On the other we have the agency's layer upon layer of 
directors, managers, supervisors, chiefs of staff, chiefs of social 
work, chief of patient services, chiefs of psychiatry, chiefs of 
psychology, program staff, triads, quadrads, and on and on.
    If everyone at all these various levels doesn't buy-in to the plan 
or doesn't seriously create a place for it in their own priority list 
it will just linger until five years have past us by. If the urgency of 
this address isn't made tangible, it may lose its kick. Perhaps it 
should be on the list of annual performance measures and position 
evaluations from top to bottom. We don't know the answer but we know we 
are going to try . . . and keep on trying to do our best to be a part 
of any solution that will help. Eventually, this does make a 
difference. It certainly does to the veteran who finds her way home.
                                 ______
                                 
  Response to Post-Hearing Questions Submitted by Honorable Daniel K. 
   Akaka to Sandra A. Miller, Program Director, Homeless Residential 
   Services, Philadelphia Veterans Multi-Service and Education Center
    Question 1. If VA used a ``draw down'' method similar to HUD's, as 
your testimony suggests, what is the difference between--what your 
center receives annually from the grant and per diem programs--and what 
your center would be allocated if it submitted a projected budget?
    Response. The major difference between what and how we receive 
payment from the VA and how we recommend being paid through a ``draw 
down'' method is that our monies would be immediately available to us. 
Currently, it can take weeks or even months to receive our payments, 
which causes us, and we are sure other non-profits, to have to tap into 
our ``line of credit'' with our banking institution. The fees 
associated with this practice are not able to be charged back as an 
expense to the program. In some instances, by not receiving our funding 
in a timely manner, we find it difficult to meet payroll or pay other 
bills necessary to the overall operation of the program and agency. By 
having our funds allocated and available ``up front,'' we will be able 
to access the funds necessary to keep the agency operating. It is our 
opinion that, if in fact our budget has been reviewed and approved, 
then we should be able to access those funds without delay. This would 
allow for the hiring of staff to provide enhancements to the program. 
With the current method of basing our budget on past year expenses and 
not on projected year expenses puts agencies in a very dangerous 
position. We are unable to hire new staff to enhance our programs 
because we can't include projected expenses, only those expenses 
incurred in the previous year.

    Question 2. In your testimony you mention that about 10 years ago 
there was a plea to end homelessness, yet we are still talking about it 
today. What do you believe can be done to overcome the obstacle, which 
you refer to as the large bureaucracy of the VA, in order to finally 
achieve our goal?
    Response. Every level of the VA must be held accountable if the 5 
Year Plan is to succeed. It is our suggestion that Performance Measures 
be included that would provide qualitative measurable goals. The 
success of the 5 Year Plan lies in hands of the local medical centers 
and their staff, not in the hands of Central Office. Mandates can be 
handed down, directing VA employees on what the plan is, but if the 
local medical centers and their directors do not totally buy in to it, 
it will not happen. There needs to be accountability, not only from top 
to bottom, but bottom to top and every level in between.

    Question 3. You stated in your written testimony that you believe 
that it is possible to create ``Service Center Staffing/Operational'' 
grants to cover the staffing costs at the veterans homeless centers. 
Have you had discussions with members of VA with regard to implementing 
these types of grants, and if so, what has been the outcome of those 
conversations?
    Response. Our agency has had conversation with Mr. Dougherty at 
Central Office regarding the creation of Service Center Staffing/
Operational Grants. In conversation with both Mr. Dougherty and Mr. 
Casey, it is our understanding that there needs to legislative action 
in order to permit these grants through OMB.

    Question 4. Based on your experiences, do you believe there are any 
simple changes that can be done immediately to improve the services and 
programs available to assist our homeless veteran population and what 
are they?
    Response. We believe one of the quickest and easiest ``fixes,'' 
aside from the ``draw down'' method and creating Service Center Grants, 
would be to take per diem only projects awarded as expansions of 
existing capital grants and grandfather them in with the original 
capital grants. This would eliminate the cumbersome and labor intensive 
process whereby each PDO associated with a capital grant must be 
presented as separate line items in the agency budget. These are the 
same programs utilizing the same staff and services, yet all expenses 
must be reported out by percentage. An example would be our 
transitional residence, which started out with 50 beds, increased its' 
bed capacity to 95 beds through per diem only, and then increased it 
again to 125 through another per diem only grant. Each resident must be 
tracked by bed every day because, depending on where their room is the 
per diem received could be either $28.27 or $27.85 or $34.40 per day. 
All three has separate Project Numbers, when in fact, they should be 
grandfathered into the capital grant and operate under one single 
project number.

    Chairman Akaka. Thank you very much.
    Now we will hear from Dr. Tsemberis.

STATEMENT OF SAM TSEMBERIS, Ph.D., FOUNDER AND CEO, PATHWAYS TO 
                         HOUSING, INC.

    Mr. Tsemberis. Thank you very much, Mr. Chairman and 
Senator. It is an honor to be here and I hope my testimony is 
helpful to informing this conversation.
    I am the founder and CEO of a nonprofit called Pathways to 
Housing, started in New York City. We currently operate 
programs in Washington, DC, Philadelphia, PA, and Burlington, 
VT. We are providing technical assistance to about 20 cities 
across the country now.
    One of the reasons our program has expanded so quickly is 
that we initially pioneered the Housing First approach. It has 
received a lot of attention and there is a lot of evidence 
supporting the usefulness of this approach both in studies by 
HUD and the Veterans Administration, formally studies published 
in 17 cities.
    In my testimony I hope to provide some information about 
how Housing First, as a program, practice, and philosophy could 
maybe address some of the components of the proposed 5-year 
plan of the Veterans Administration.
    I have to say that it is commendable that the VA has come 
up with a 5-year plan as opposed to a 10-year plan--shows a 
kind of urgency and also signals that it is actually doable, 
that this conversation about the multiple needs of veterans 
with psychiatric disabilities, addiction disorders, employment, 
and, of course, homelessness in some ways has been an elusive 
and very complex challenge.
    The manner which we have found our way through it was not 
through our own resources but when we engaged with the people 
we were surveying in order to come up with a solution.
    Housing First is essentially a ground-up solution where the 
homeless person drives the program. When you study the myriad 
of problems that we are looking at, the sequencing of these 
problems, the timeframe in which they are handled is hugely 
important.
    For example, when you are looking at homelessness, mental 
illness, addiction, just those three, the solution for homeless 
is quite different than the solution for mental illness and 
addiction. They are not on the same timeframe.
    Homelessness can be ended immediately. Addiction and mental 
illness require a much longer timeframe. People who are 
homeless know this. People who suffer with these conditions 
know this. The system that has served these complex needs for 
years has not really completely adopted this approach yet.
    There is still an enormous investment in transition--
getting people cured of their addiction or mental illness prior 
to receiving housing--that has kept people in a homeless 
service system; expensive, multiple uses of acute-care services 
with no solution to their homelessness.
    So, the timeframe is important and the sequence in which 
you provide services and housing is key.
    We, of course, have taken the direction from our clients 
and said what is it that you want? Every client we deal with 
says I want a place to live, a place of my own first. And that 
is the direction that we take. Housing First is really that 
person's first choice in service.
    The next sequence of services, whether it is mental health 
or family re-connection or employment, is also driven by that 
person.
    What we provide is the case management support so that once 
the person is housed they are continuously able to direct their 
own program to recovery.
    Here is what we have learned in doing it this way. People 
are much more capable than we ever imagined possible.
    Seeing someone on the street who is vulnerable and 
disheveled, poor, desperate, and afraid, that person looks 
completely different the day after they are put into housing. 
That person surviving on the street requires the 
resourcefulness to know where they can get a meal, where 
services are available, who they can trust on the street, all 
of those skills invisible to the passer-by are actually there 
and intact and serve the person well once they move into 
housing.
    One of the fears I think in adopting a Housing First 
approach is how can this person possibly manage in housing? The 
answer is over and over again they manage extremely well. They 
need the support.
    Let me emphasize that Housing First is not about housing. 
It is about the relationship with the homeless person in a way 
that engages them with the services that they want first. 
Housing first. Then all of the other services follow.
    One of the challenges I think in the Veterans 
Administration is that it is a hierarchical organization. While 
running a military requires a hierarchical approach and 
following orders, excellence in mental health services and most 
of the evidence-based practice suggest that the best way to do 
a mental health service is to have the client drive the 
service.
    This is an enormous culture change challenge to the VA in 
terms of allowing veterans to dictate the sequence and 
intensity of the services they seek. But to offer them in any 
other way would mostly generate refusals on behalf of the 
veterans.
    Someone who has served as a veteran is not going to accept 
services that are an insult to their dignity, their honor, or 
their capabilities which they have proven already and 
demonstrated for their country, to then have to come and accept 
social services at a level that is demeaning and in a way an 
insult to their capability.
    So, the philosophy and culture is important in terms of how 
successful you are in engaging these services.
    The investment has been another part of the surprise. 
Investment in transitional preparatory services is expensive 
and does not lead to permanent housing very often. In studies 
that we have done in randomized controlled trial studies 
published in the American Journal of Public Health--all of this 
is in my testimony and on our Web site--people who are going 
through the treatment first approach end up being permanently 
housed about 40 percent of the time.
    When you house someone directly from the street and offer 
services to support their staying in housing, that percentage 
jumps up to 80 percent of the time.
    In the HUD studies, sponsored by HUD, and the VA study as 
part of the chronic homelessness initiative in 2003, that 85 
percent housing stability number is the same number that the 
researchers who conducted those studies found.
    [The prepared statement of Mr. Tsemberis follows:]
     Prepared Statement of Sam Tsemberis, Ph.D., Founder and CEO, 
                       Pathways to Housing, Inc.
                       www.pathwaystohousing.org
              pathways housing first: program description
    Pathways Housing First is a humane, highly effective and cost 
efficient consumer driven, evidence-based program that ends 
homelessness for people diagnosed with psychiatric disabilities and/or 
addiction disorders. In 2007, this program successfully completed peer 
review and is listed on HHS/SAMHSA's National Registry of Evidence-
Based Programs and Practices.
    The Pathways' Housing First program is based on a philosophy that 
emphasizes consumer choice, rehabilitation, and recovery. Housing First 
is designed to address the needs of homeless individuals from the 
consumers' perspective, encouraging program participants to define 
their own needs and goals. The program provides what most consumers 
identify as their primary need--immediate access to housing (a place of 
their own, a place to call home).
    Independent, affordable apartments rented from community landlords 
is by far the most preferred housing option of all people who are 
homeless. Units are rented very quickly from the available housing 
rental market in normal integrated community settings by using rent 
subsidies such as Section 8 vouchers, shelter plus care funds or other 
permanent housing rent stipend. The program uses a `scatter site' 
approach never renting more than 20% of the total number of units in a 
building. Program participants pay 30% of their income (usually SSI) 
toward their share of the rent. Thus supported housing program has a 
remarkably quick startup: it takes about 3 months from the time a 
program is funded to hire the support staff and begin moving people 
into apartments.
    The program successfully removes the traditional barriers to 
housing for people who have disabilities. Notably, it does not place 
conditions such as achieving a period of sobriety or mandatory 
participation in psychiatric treatment as a precondition to housing. 
The program is especially effective with people who are chronically 
homeless and cycling through expensive acute care services such as 
emergency rooms, shelters, hospitals, police and jails.
    It is important to note that cycling through these acute care 
services is very costly and yet completely ineffectively for ending 
homelessness. By addressing the homelessness problem first and 
providing the person with a place to live and then the support services 
need to succeed in that housing we have been able to achieve enormous 
success in both ending homelessness and helping people with their 
recovery. And the cost of this permanent supported housing program--a 
section 8 voucher (or its' equivalent) and the support services 
component is significantly less than the cost of keeping the person in 
a hospital bed, jail cell, or even city shelter.
    The clinical and support services of this program ensure that 
housing is found quickly and that it can be successfully maintained. 
The services include both clinical or case management staff and housing 
staff. We have found that housing is itself a stabilizing factor for 
program participants and allows them to move in the direction of 
treatment. The program fosters a sense of home (not simply providing 
housing) and belonging; being part of a building, neighborhood and 
community as well as a member of a treatment and support team. The way 
that the housing is integrated into the community promotes community 
integration, and empowers participants to define their own paths to 
recovery.
    The Pathways Housing First program addresses housing and clinical 
issues as separate but coordinated domains. By providing housing first, 
the program effectively addresses a person's homelessness. By providing 
program participants with an apartment of their own and then, once safe 
and secure, they work with the support services team to address their 
other problems such as addiction, mental health, employment and so on. 
The program requires that all program participants agree to a home 
visit by a member of the support services team at a minimum of once a 
week. This visit assures the health and safety of the program 
participant and is the setting for developing the treatment and 
rehabilitation service plan.
    Treatment and support services are provided by an Assertive 
Community Treatment (ACT) team [comprised of social workers, nurses, 
psychiatrists, employment specialists, substance abuse counselors, peer 
counselors, and other professionals] or an Intensive Case Management 
(ICM) team that provides support services but may broker other services 
including mental health, health, substance abuse treatment, supported 
employment, education, health and wellness to community based 
providers. ACT is the preferred support for persons with severe mental 
illness and ICM teams can be used for tenants with moderate mental 
health needs. ICM support can also be used when programs have a smaller 
census (less than 40 clients) and are not well suited to sustaining the 
staffing pattern of an ACT team. The housing component is always a 
community based apartment or equivalent depending on the housing stock 
available in the community and whether the participant is single, 
couple or family. The type and intensity of support services being 
provided to the participants is adjusted to meet their needs.
    Over time, as individuals recover they can be referred to 
community-based providers that deliver needed services. Upon 
graduation, consumers do not have to transition into another housing 
program. They are already living in their own apartment with the 
subsidy still available if they need it. The only thing that changes at 
graduation is that the support services are reduced or eliminated 
altogether and the person continues to live in the building and 
community to which they are accustomed.
    The most remarkable and exciting discovery of this Housing First 
program concerns what we have learned about the capabilities of people 
who are homeless and have multiple disabling conditions. We have found 
that when given the right housing and support services people who we 
had previously considered `hard to reach,' ` hard to house,' and `not 
housing ready' are in fact capable of making and managing a home, 
successfully participating in treatment, reuniting with families, and 
getting a job. This remarkable success of the program's participants is 
the main reason that in a relatively short 10 year span, the Pathways 
Housing First program has grown from a small local program operating in 
one city to an internationally replicated model in hundreds of cities.
            research studies and demonstrated effectiveness
    There is an ever-growing body of research evidence for the 
effectiveness of the Pathways' Housing First program for ending 
homelessness, promoting housing stability, improving quality of life, 
reducing acute care service use and reducing costs. Results from some 
of the larger studies are summarized below.
I. Greater Housing Retention
            Studies have shown that Housing First participants achieve 
                    stable housing faster & spend more time in stable 
                    housing.
    1) A randomized controlled trial of persons who were literally 
homeless showed that after one year, participants in Housing First 
(experimental) spent 85% of their time stably housed, compared with 
less than 25% for participants in the services-as-usual group (control) 
(Tsemberis, Gulcur, & Nakae, 2004). After two years, Housing First 
participants still spent approximately 80% of their time stably housed, 
compared with only 30% for the control group (see Figure 1). Housing 
First tenants also reduced the proportion of time they spent homeless 
from approximately 55% at baseline to 12% at one year, and less than 5% 
after two years (see Figure 2). Reductions in homelessness were 
significantly slower and less drastic for the control group, who were 
homeless approximately 50% of the time at baseline, 27% at one year, 
and 25% after two years (Tsemberis, Gulcur, & Nakae, 2004).
          Figure 1. Proportion of Time Spent in Stable Housing
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

              Figure 2. Proportion of Time Spent Homeless
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    2) A randomized controlled trial of long-term shelter stayers found 
that participants assigned to Housing First obtained permanent, 
independent housing at higher rates than a services-as-usual control 
group. The majority of consumers housed by both Housing First agencies 
retained their housing over the course of four years with 78% of 
participants in the Pathways Housing First program remaining housed 
over that period (Stefancic & Tsemberis, 2007).
    3) A randomized controlled trial in Chicago found that 60% of 
persons in Housing First were stably housed at 18 months, compared with 
only 15% of persons assigned to usual care (Sadowski, 2008; Bendixen, 
2008).
    4) Archival data was used to compare rates of housing retention for 
Housing First tenants to those of tenants in New York supportive 
housing programs that required treatment and sobriety as a precondition 
to housing. After five years, 88% of participants in the Housing First 
program remained housed, compared to 47% of participants in more 
traditional housing programs (Tsemberis & Eisenberg, 2000).
    5) A cross-site study of programs funded by HUD, SAMHSA, VA and HHS 
and coordinated by the US Interagency Council on the Homeless (called 
the Collaborative Initiative to End Chronic Homeless) demonstrated that 
high housing retention rates could be achieved across the diverse 
contexts of the 11 cities funded by this initiative. At least seven of 
the eleven programs funded used the Pathways' Housing First model and 
approximately 80% of clients were stably housed after 1 year 
(Rosenheck, 2007).
    6) A HUD cross-site study of six Housing First programs found that 
84% of Housing First participants were in permanent housing at baseline 
and 1 year later (HUD, 2007).
II. Reductions in Service Use
            Studies have demonstrated that Housing First is associated 
                    with decreased use of emergency room visits, 
                    hospitalizations, incarcerations, and shelter 
                    stays, making Housing First a lower cost, more 
                    effective approach than traditional programs.
    1) A randomized controlled trial found that persons assigned to 
Housing First spent significantly less time in psychiatric hospitals 
compared to participants assigned to services-as-usual (Gulcur et al., 
2003).
    2) A randomized controlled trial in Chicago found that persons in 
Housing First ``used half as many nursing home days and were nearly two 
times less likely to be hospitalized or use emergency rooms'' as 
compared to a usual care group over 18 months (Sadowski, 2008; 
Bendixen, 2008.).
    3) A pre-post study in Denver documented reductions in 
institutional acute care subsequent to enrollment in Housing First. 
Housing First clients decreased emergency room use by 73%, inpatient 
stays by 66%, detox use by 82%, and incarceration by 76% (Perlman & 
Parvensky, 2006).
    4) A pre-post study in Rhode Island documented decreases in 
hospital and jail stays, as well as emergency room visits, subsequent 
to clients' enrollment in Housing First. ``In the year prior to 
entering supported housing, the formerly chronically homeless 
individuals spent a combined total of 534 nights in hospitals, 919 
nights in jail, and had 177 emergency room visits. In contrast, the 
newly housed individuals had a combined total of only 149 nights in 
hospitals, 149 jail nights, and 75 emergency room visits in the first 
year of housing'' (Hirsch & Glasser, 2007).
    5) A pre-post study in Seattle, documented reductions in various 
services subsequent to enrollment in one of two Housing First programs. 
Compared to 1 year prior to admission, Housing First participants in 
one program decreased jail bookings by 52%, jail days by 45%, 
admissions to a sobering center by 96%, EMS paramedic interventions by 
20% and visits to a medical center by 33% (DESC, 2007). Participants in 
the other Housing First program reduced medical respite days by 100%, 
inpatient visits to a medical center by 83%, emergency room visits by 
74%, jail days by 18%, and admissions to a sobering center by 97% 
(Srebnik, 2007).
    6) A pre-post study of Housing First in Massachusetts demonstrated 
that, compared to the year prior to enrollment, in the year after 
enrollment in Housing First, inpatient hospitalizations were reduced by 
77% and emergency room visits by 83% (Meschede, 2007).
III. Decreased Costs
            Studies have shown that Housing First is associated with 
                    decreased costs.
    1) A randomized controlled trial of persons who were literally 
homeless showed that, from baseline to 2-year follow-up, participants 
in Housing First accrued significantly lower supportive housing and 
services costs than participants in services-as-usual (Gulcur et al., 
2003).
    2) A pre-post study in Denver estimated that enrollment in Housing 
First was associated with a net cost savings of $4,745 per person per 
year (Perlman & Parvensky, 2006).
    3) A pre-post study in Rhode Island estimated that enrollment in 
Housing First was associated with a net cost savings of $8,839 per 
person per year (Hirsch & Glasser, 2008).
    4) A pre-post study in Seattle estimated that enrollment in two of 
their Housing First programs was associated with an aggregate reduction 
in cost of services used by $1.7 million and $1.5 million, respectively 
(DESC, 2007; Srebnik, 2007).
    5) A randomized controlled trial in Chicago concluded that ``health 
care savings far exceed the costs of the Housing [First] intervention'' 
(The National AIDS Housing Coalition, 2008).
    In all there are more than 35 cost studies on this model, all 
showing similar results.
IV. Improvements in Quality of Life & Other Outcomes
            Studies find that Housing First is associated with greater 
                    consumer choice, greater satisfaction, improved 
                    quality of life, and improvements in other clinical 
                    and personal domains.
    1) A randomized controlled trial found that participants assigned 
to Housing First reported higher ratings of perceived choice compared 
to those in services-as-usual (Greenwood et al., 2005). Although 
program assignment did not have a direct effect on psychiatric 
symptoms, perceived choice significantly accounted for a decrease in 
psychiatric symptoms and this relationship was partially mediated by 
mastery (perceptions of personal control).
    2) A qualitative study found that participants living in their own 
apartments through Housing First reported experiencing conditions that 
are indicative of a stable home that fosters a sense of control, allows 
for the enactment of daily routines, imparts a sense of privacy, and 
provides a foundation from which consumers can engage in identity 
construction (Padgett, 2007).
    3) A Rhode Island study found that 93% of clients reported being 
``Very Dissatisfied'' with their housing situation the year before 
entering their apartment. By contrast, 78% of clients reported being 
``Very Satisfied'' and 12% ``Somewhat Satisfied'' with their housing 
situation at the time of first interviews . . . While homeless, nearly 
half of participants rated their health as ``Poor'' or ``Very Poor'' 
and two-thirds of participants said that physical or mental health 
disabilities had limited their ability to interact with those they felt 
close to. Once in the program nearly half rated their health as ``Good 
or ``Very Good'' and only one third felt that their disabilities 
limited their social interaction (Hirsch & Glasser, YEAR).
    4) A Housing First program in Massachusetts found that ``overall 
quality of life improved dramatically for all Housing First residents 
after leaving the shelter, including increased sense of independence, 
control of their lives, and satisfaction with their housing'' 
(Meschede, 2007).
    5) Compared to participants in community residences, those in 
supported housing (Housing First and another supported housing program) 
reported greater satisfaction in terms of autonomy and economic 
viability over 18 months (Siegel, Samuels, Tang, Berg, Jones, & Hopper, 
2006).
    6) A qualitative study of participants in a randomized controlled 
trial found that, for most Housing First clients, entering housing 
after a long period of homelessness was associated with improvements in 
several psychological aspects of integration (e.g., a sense of fitting 
in and belonging) as well as feelings of being ``normal'' or part of 
the mainstream human experience (Yanos et al., 2004).
    7) An evaluation in Philadelphia compared participants in Housing 
First to a group of persons receiving services but no housing. Of the 
participants in Housing First, 79% showed improvement in mental health 
(comparison group 20%), 57% showed improvement on substance use 
(comparison group 15%) and 84% showed improvement on overall life 
status (comparison group 50%) (Dunbeck, 2006).
                              conclusions
    The Housing First model has been replicated in over 40 cities 
throughout the U.S. and it is included as a program component in most 
city and county plan to end chronic homelessness.
    <bullet> Housing First is a consumer-centered approach that ends 
homelessness for individuals who have remained homeless for years. From 
the point of engagement, it empowers consumers to make choices, develop 
self-determination, and begin their individual journeys toward recovery 
and community integration.
    <bullet> Housing First has a 18-year track record of success. It 
results in better outcomes at significantly lower costs, creating a 
significant return on investment relative to other programs.
    <bullet> Practically speaking, the program has a very quick startup 
time since housing is rented from the existing rental market. 
Additionally, the program is extremely efficient in housing tenants, 
moving a person from homelessness into housing in two weeks, on 
average.
    <bullet> Housing First eliminates costly transitional housing and 
treatment services that are aimed at preparing consumers to become 
``housing ready''. The average cost of running a Housing First program 
is between $15,000 to $22,000 per person per year, depending on the 
intensity of services offered and local housing market rents. This cost 
compares very favorably with the cost of emergency room visits, jail 
stays, hospital stays, emergency shelter stays, and even the service 
and societal costs associated with street homelessness.
    <bullet> Housing First promotes consumer choice, while encouraging 
use of mental health and other services. The provision of housing 
provides the environmental stability for consumers to participate in 
other services.
    <bullet> Most importantly, the transformation of moving from 
homelessness into a home of one's own inspires physical and mental 
well-being and ignites hope in persons who had felt hopeless for years.
References
    Bendixen, A. (2008). Chicago Housing for Health Cost Analyses. 
Paper presented at the Third National Housing and HIV/AIDS Research 
Summit, Baltimore, Maryland.
    Dunbeck, D. (July, 2006). Housing Chronically Homeless People: 
Housing First Programs in Philadelphia, National Alliance to End 
Homelessness Annual Conference, Washington, DC.
    Greenwood, R. M., Shaefer-McDaniel, N.J., Winkel, G., & Tsemberis, 
S.J. (2005). Decreasing psychiatric symptoms by increasing choice in 
services for adults with histories of homelessness. American Journal of 
Community Psychology, 36 (3/4), 223-238.
    Gulcur, L., Stefancic, A., Shinn, M., Tsemberis, S., & Fischer, S. 
N. (2003). Housing, hospitalization, and cost outcomes for homeless 
individuals with psychiatric disabilities participating in Continuum of 
Care and Housing First programmes. Journal of Community and Applied 
Social Psychology, 13, 171-186.
    Hirsch, E., & Glasser, I. (2008). Rhode Island's Housing First 
Program: Year 1 Evaluation Executive Summary. Available online at: 
http://www.rihomeless.com/Press%20Releases/
Housing%20First%20Rhode%20Island%20Report%20-%20Ex%20Summary.pdf.
    Meschede, T. (2004). Bridges and barriers to housing for 
chronically homeless street dwellers: The effects of medical and 
substance abuse services on housing attainment. Retrieved February 14, 
2007, from http://www.mccormack.umb.edu/csp/publications/
bridgesandbarriers.pdf.
    The National AIDS Housing Coalition. (2008). HIV/AIDS Housing: A 
Sound Investment of Public Resources.
    Padgett, D.K. (2007). There is no place like (a) home: Ontological 
security among persons with serious mental illness in the United 
States. Social Science and Medicine, 64(9), 1925-1936.
    Perlman, J., & Parvensky, J. (2006, December 11). Denver Housing 
First Collaborative. Cost benefit analysis and program outcomes report. 
Denver, CO: Colorado Coalition for the Homeless. Retrieved October 29, 
2007, from http://www.shnny.org/documents/FinalDHFCCostStudy.pdf.
    Sadowski, L. (2008). Chicago Housing for Health Partnership: 
Background, Methods & Preliminary Findings. Paper presented at the 
Third National Housing and HIV/AIDS Research Summit, Baltimore, 
Maryland.
    Siegel, C.E., Samuels, J., Tang, D., Berg, I., Jones, K., Hopper, 
K. (2006). Tenant outcomes in supported housing and community 
residences in New York City. Psychiatric Services, 57(7), 982-991.
    Stefancic, A., & Tsemberis, S. (2007). Housing First for long-term 
shelter dwellers with psychiatric disabilities in a suburban county: A 
four-year study of housing access and retention. Journal of Primary 
Prevention, 28(3/4), 265-279.
    Tsemberis, S., & Eisenberg, R.F. (2000). Pathways to Housing: 
Supported Housing for street-dwelling homeless individuals with 
psychiatric disabilities. Psychiatric Services, 51 (4), 487-493.
    Tsemberis, S., Gulcur, L., & Nakae, M. (2004). Housing First, 
consumer choice, and harm reduction for homeless individuals with a 
dual diagnosis. American Journal of Public Health, 94 (4), 651-656.
    U.S. Department of Housing & Urban Development (July, 2007). The 
Applicability of Housing First Models to Homeless Persons with Serious 
Mental Illness: Final Report Available online at http://
www.huduser.org/Publications/pdf/hsgfirst.pdf.
    Yanos, P. T., Barrow, S. M., & Tsemberis, S. (2004). Community 
integration in the early phase of housing among homeless persons 
diagnosed with severe mental illness: Successes and challenges. 
Community Mental Health Journal, 40(2), 133-150.
                                 ______
                                 
    Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to Sam 
      Tsemberis, Ph.D., Founder and CEO, Pathways to Housing, Inc.
    Question 1. How soon after a person is placed in permanent housing 
under the Housing First Model, does a member of the support services 
team make a home visit?
    FOLLOW UP: What happens if a person does not honor the agreement to 
accept these home visits?
    Question 2. Once a person is placed in permanent housing, where can 
that person go for supportive services in the time between the weekly 
home visits by a member of the supportive services team?
    Question 3. Based on your experiences, do you believe there are any 
simple changes that can be done immediately to improve the services and 
programs available to assist our homeless veteran population and what 
are they?

    [Responses were not received within the Committee's 
timeframe for publication.]

    Chairman Akaka. Thank you.
    Ladies and gentlemen, I am very sorry but I must interrupt 
this hearing now. Committees are allowed to meet while the 
Senate is in session based on the unanimous consent of the 
Members.
    This is a standard procedural agreement that is always 
permitted. However, there has been an objection on the floor to 
allow most committees, including our Committee, to meet.
    I am very disappointed that we are forced to so abruptly 
close, missing the opportunity to voice your concerns and 
priorities. I hope that we can soon return to work we all 
support, and that is helping veterans.
    But I want to thank you very much for appearing today for 
sharing your insights with us. We will have post-hearing 
questions.
    Senator Burr. Mr. Chairman, could I be recognized for a 
unanimous consent request that the two witnesses who have not 
had an opportunity to speak that their full testimony be 
included in the record and that upon adjournment of this 
hearing we go into a roundtable discussion with the remainder 
of our panelists so that we can offer in an unofficial capacity 
questions. The roundtable is not in breach of I think the 
meetings of any of the Committees. The Committee can hold a 
roundtable at any point and I would make a unanimous consent 
request that we do that.
    Chairman Akaka. Senator Burr, I feel like you do but I do 
not think we should move to a roundtable discussion. I am sorry 
to say. There is no unanimous consent to continue the hearing 
so we will adjourn. The testimony of the witnesses unable to 
appear will be in the Appendix.
    This hearing is adjourned.
    [Whereupon, at 11:05 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


        Prepared Statement of Dennis H. Parnell, President/CEO, 
                    The Healing Place of Wake County
    ``The Healing Place Model--Ending Veteran Homelessness through 
             a Community Based Public/Private Partnership''
    Mr. Chairman and Members of the Committee, Thank you for the 
opportunity to speak to you this morning about the treatment needs of 
homeless veterans suffering from the ravages of alcohol and other drug 
disorders (AOD) and specifically about the provision of successful, 
community based, cost effective recovery services across the United 
States.
     background statistics on the nature & severity of the problem
National Coalition for Homeless Veterans
    a. The VA estimates that 107,000 veterans are homeless on any given 
night. Approximately twice that many experience homelessness over the 
course of a year. Only eight percent of the general population can 
claim veteran status, but nearly one-fifth of the homeless population 
are veterans.
    b. In addition to the complex set of factors influencing all 
homelessness--extreme shortage of affordable housing, livable income 
and access to health care--a large number of displaced and at-risk 
veterans live with lingering effects of Post Traumatic Stress Disorder 
(PTSD) and alcohol and other drug disorders (AOD), which are compounded 
by a lack of family and social support networks.
    c. Veterans need a coordinated effort that provides secure housing, 
nutritional meals, basic physical health care, treatment and continuing 
care for alcohol and other drug disorders, mental health counseling, 
personal development and empowerment. Additionally, veterans need job 
assessment, training and placement assistance. NCHV strongly believes 
that all programs to assist homeless veterans must focus on helping 
them obtain and sustain employment.
Providing a Proven Solution
    The Healing Place model has a 20+ year history of providing 
innovative rehabilitative services to homeless individuals with severe 
alcohol and other drug disorders including veterans of many distant and 
recent conflicts. The truly remarkable aspect of this model is the 
extraordinary program success--over 68% recovery rate a year after 
completing the program. The fully loaded costs for everyone in the 
program are less than $30/day.
Early History
    It all began in Jefferson County, Kentucky in 1989 when the 
Jefferson County Medical Society took over the operation of a shelter 
in Louisville and hired a Vietnam Veteran with a Masters Degree in 
Social Work as the fledgling program's first Executive Director. 
Together they began to craft a unique social model that targeted the 
specific population of homeless individuals with severe alcohol and 
other drug disorders. By utilizing and combining the knowledge base, 
resources and talents of the medical, social work and alcohol and other 
drug treatment fields they were able to establish a truly unique and 
holistic approach to a difficult and solution resistant social problem. 
In 1998 the success of the program was recognized on a national level 
and was honored by the public/private partnership between the Health 
Resource and Services Administration and the U.S. Department of Health 
& Human Services as a ``Model That Works.'' This opened the door for a 
concerted effort to begin to replicate the success of the original 
model.
Replication of the Model
    Around this same time in Raleigh, NC an effort was undertaken by 
individuals from the public and private sectors to find answers to 
similar problems in Wake County, North Carolina. When the efforts and 
success of the Louisville Healing Place Model was discovered, 
stakeholders and organizers of this community launched a successful 
campaign to bring an exact replication to North Carolina. The original 
lure of the model was the fact that Louisville was able to demonstrate 
a 66% success rate (66% of program graduates were sober a year after 
completion) and that the facility was able to be operated at a fully 
loaded cost of $25 per person per day.
    In 2001 a 165 bed facility for men was opened in Wake County. A 100 
bed women's facility followed in 2006. The impressive success and 
outcomes of the original model was carefully tracked and equally 
matched by ``The Healing Place of Wake County'' (THPWC). Current 
statistics show that more than 68% of clients who complete the program 
are sober one year later (three times the national average). The 
combined fully loaded cost of operating both the Men's and Women's 
facilities is less than $30 per person per day. This is compared to a 
rate of over $70 a day just to be housed in the Wake County jail. In 
addition to sobriety outcomes, the overall success of the program is 
also measured by its contribution to the reduction of homelessness in 
Wake County. While these numbers continue to grow in surrounding areas 
and indeed for the most part around the country, in Wake County the 
numbers tell a compelling story of success:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


A Reason for Success--The Social Model Program
    The Healing Place uses what is known as a ``social model'' recovery 
program that originated in California in the 1940s. These programs are 
regaining popularity due to unusually high success rates and 
extraordinarily low operating costs. The Healing Place model is an 
advanced and modern example of this type of programming.
    This peer led program places a high value on an individual's own 
experience and places responsibility for recovery on the infusion of 
hope through shared experience, mutual respect, responsibility for the 
welfare of each other and program advancement directly tied to 
individual effort. Advancement through the multi-tiered program is 
carefully designed in progressive stages which match the natural 
intrinsic rewards of success with an individual's increasing efforts to 
help themselves and each other. People who were previously estranged 
from society and each other find themselves forming a community of 
``sober survivors.'' Optimism replaces cynicism, empowerment replaces 
entitlement and hope replaces hopelessness.
    A full continuum of services starts with a non-medical Detox unit 
that is open 24/7 and a ``wet shelter'' that accepts individuals that 
are intoxicated or high. This low threshold of engagement is a key 
component of the overall success of the program and insures that 
services are provided ``on demand''--no waiting list! These entry 
points provide an opportunity to mix people who have not yet made a 
decision to stop drinking or using with a larger number of people who 
have begun the process of change or are even further along in their 
shared commitment to remain clean and sober. This powerful influence is 
the force that perpetuates hope and begins movement into and throughout 
the entire program and process. It takes about eight months to complete 
our program at which time the man or woman has a place to live, a job 
and is on the journey in recovery.
Complete Continuum & Coordination of Services
    As an individual progresses and moves through the program a wide 
range of services are continually added, matching the individual's 
readiness, willingness and ability to effectively utilize these 
services.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A vast array of local community partnerships fill in any perceived 
gaps in services and round out the complete continuum. An example of 
these types of partnerships include; local VA services, Vocational 
Rehabilitation, Hospitals, County & City Agencies, Housing Partners, 
Community and State Colleges, Employers, Drug Courts & Legal Services, 
Arts & Entertainment Organizations, Sports Complexes, Civic Groups and 
many others. In essence, it comprises the power and resources of the 
entire local community.
The Possibilities for the Future
    We believe that homelessness among veterans and other citizens can 
be conquered both effectively and efficiently through best practice 
methods, community organization and maximizing readily available 
resources. Our immediate objective is to assist communities across 
North Carolina, and Virginia to develop and build a statewide network 
of this model. We have already assisted in the development of a working 
replication in Richmond, Virginia and we are working on startups in 
Fayetteville, NC, Norfolk VA and Lynchburg, VA. We will continue to 
evaluate and improve them, and then in partnership with The Healing 
Place in Louisville, Kentucky help other communities and states 
replicate this continuing success. We will continue to work with 
stakeholders such as the VA and other providers, especially those in 
underserved communities, to improve and expand AOD services to veterans 
and their families.

    I invite you to visit The Healing Place of Wake County. You will be 
amazed before you are half way through the visit!
                                 ______
                                 
  Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to Dennis 
 Parnell, President and Chief Executive Officer, The Healing Place of 
                              Wake County
    Question 1. Based on your experiences, do you believe there are any 
simple changes that can be done immediately to improve the services and 
programs available to assist our homeless veteran population and what 
are they?

    [Responses were not received within the Committee's 
timeframe for publication.]
                                ------                                

  Prepared Statement of Patrick Ryan, Vice Chair, Board of Directors, 
                National Coalition for Homeless Veterans
    Chairman Senator Akaka, Ranking Member Senator Burr, and 
Distinguished Members of the Committee: The National Coalition for 
Homeless Veterans (NCHV) is honored to appear before this Committee 
today to comment on ending veterans' homelessness.
    For 20 years, NCHV has worked diligently to serve as the Nation's 
primary liaison between the community- and faith-based organizations 
that help homeless veterans, the Congress, and the Federal agencies 
that are invested in the campaign to end veteran homelessness in the 
United States. Department of Veterans Affairs (VA) officials have 
testified before the Congress that this partnership, despite 
considerable financial pressures due to war and economic uncertainty, 
is largely responsible for the phenomenal reduction in the number of 
homeless veterans on the streets of America each night--from about 
250,000 in FY 2004 to 107,000 today, according to the annual VA 
Community Homelessness Assessment, Local Education and Networking 
Groups (CHALENG) Reports.
    Through the efforts of VA and the U.S. Department of Labor, some of 
the most innovative and successful grant programs in the Federal 
arsenal have jointly nourished a nationwide, community-based homeless 
veteran assistance network that provides transitional housing and 
services support for more than 100,000 veterans each year. The U.S. 
Department of Housing and Urban Development has become the third 
critical partner in this campaign through the HUD-VA Supportive Housing 
Program (HUD-VASH) for veterans with serious mental illness and other 
disabilities, and by incentivizing the inclusion of homeless and 
extreme low-income veterans in local Continuum of Care funding 
applications.
    The success of these Federal agencies and the community- and faith-
based service partners NCHV represents over the last five years offers 
proof that the campaign to end veteran homelessness can be won. The 
President has established this as a priority of his Administration; and 
VA Secretary Eric Shinseki is mobilizing his Department to strengthen 
its intervention programs and expand its support of local prevention 
strategies through his Five-Year Plan to End Homelessness Among 
Veterans. This plan will strengthen the services offered to veterans 
and their families in an unprecedented fashion by effectively engaging 
community partners and supports for all those who are in need of 
assistance.
    On November 3-5, 2009, the Department of Veterans Affairs hosted a 
three-day summit focused on ending veterans' homelessness. During this 
historic event, Secretary Eric Shinseki boldly stated that ``My name is 
Shinseki, and I am here to end veteran homelessness.'' This declaration 
shows the level of commitment and dedication to the serious problem of 
veteran homelessness.
    The most noticeable recurring theme throughout the three-day 
program was the need to strengthen VA's partnership with other Federal 
agencies and the community- and faith-based service providers that have 
helped reduce veteran homelessness by more than 50 percent in the last 
five years. With more than 3,500 points of access to assistance 
available to veterans today that did not exist 35 years ago, VA can 
continue to serve those veterans who are homeless.
    Our understanding of the VA's plan to end homelessness in five 
years is based on a presentation of the ``basic framework'' of the plan 
made by Mr. Peter Dougherty, Director of the VA Homeless Programs 
Office, and Mr. Paul Smits, Associate Chief Consultant for Homeless and 
Residential Rehabilitation and Treatment Services for the Veterans 
Health Administration, on the final day of the summit.
    The plan will have six ``strategic pillars.'' Included among those 
are four that have been in development for more than two decades--
outreach, treatment, employment and benefits, and community 
partnerships--and two that represent new areas of engagement--
prevention, and housing and supportive services for low-income 
veterans.
    NCHV feels that these pillars are good starting points, but it is 
vital that VA knows the key to successfully ending homelessness among 
veterans in five years is through the relationships and connections of 
each community. Before offering our suggestions on what else VA and the 
Federal Government should be doing, we believe it's important to 
reflect for a moment on the history of the homeless veteran assistance 
movement NCHV represents, because it speaks volumes about why we are 
assembled in this room . . . and the reasonableness of VA Secretary 
Shinseki's ambitious vision of ending veteran homelessness in five 
years.
    In the past nine years VA has quadrupled its investment in the 
Homeless Providers Grant and Per Diem Program from slightly more than 
120 programs to nearly 500 across the country.
    The Homeless Veterans' Reintegration Program has more than tripled 
in capacity to serve homeless veterans and has become one of the most 
successful employment assistance programs in the Department of Labor 
portfolio.
    Under technical assistance grants and cooperative agreements with 
both those agencies, NCHV has provided program guidance, access to 
resources, and vital communications to more than 2,100 community- and 
faith-based service providers from Seattle to Puerto Rico, from Maine 
to the island of Guam.
    Health Care for Homeless Veterans coordinators, women veteran 
coordinators, and OEF/OIF specialists have been placed at virtually 
every VA medical center and most VA Regional Benefits Offices.
    HUD and VA have allocated 20,000 HUD-VASH vouchers to veterans with 
serious mental and physical disabilities, with another 10,000 expected 
to become available next year.
    Five years ago, the VA CHALENG report estimated as many as 250,000 
veterans slept on the streets of America each night. Today, that number 
stands at 107,000--more than a 50% reduction despite the fact the 
number of contact points in the CHALENG process has more than tripled 
during that time.
    We offer the following additional thoughts on what NCHV sees as 
necessary steps to enable the Federal Government to end homelessness 
among veterans in five years:

    1. VA needs to clearly identify gaps in the availability of 
transitional and permanent housing in communities with homeless 
veterans and make it a priority to build capacity in those communities 
using existing authorities. New York, Boston, Chicago, and Los Angeles 
have large gaps between the demand for transitional housing and the 
number of facilities available. Although the numbers are smaller, there 
are equally compelling gaps in many small and medium-sized communities 
and on Indian tribal lands. VA and its community-based partners cannot 
address these gaps without an immediate legislative change to the Grant 
and Per Diem Program.
    2. VA needs to examine outreach, referral and admission policies at 
every VA medical center to ensure that these policies are collaborative 
and consistent with the goal of ending homelessness. This means a 
significant increase in the Office of VA Homeless Programs oversight 
capability.
    3. VA needs to revise its program rules so that veterans who are 
seeking admission to a domiciliary or grant and per diem program are 
immediately admitted even if eligibility has not yet been determined. 
If a veteran is seeking to enter a program on a Friday evening, VA 
rules should authorize admission and reimbursement, even if it later 
turns out the veteran is ineligible for VA support.
    4. VA should convene an open meeting with community-based 
organizations serving homeless veterans no later than the end of May 
2010 to discuss ideas about how VA could immediately alter program 
rules and policies to permit greater flexibility in the use of grant 
funds.
    5. The Federal Government needs to take immediate steps to 
stimulate the creation of additional permanent housing for homeless 
veterans, including project basing for Section 8 rental housing 
vouchers.
    6. VA and HUD should adopt a plan so that eligible veterans who 
qualify for Section 8 rental housing vouchers are housed in 30 days or 
less. More vouchers without an assurance that they can be used is not 
going to solve the housing problem.
    7. Congress and VA, working with the Office of Management and 
Budget, should agree on an immediate action plan to eliminate internal 
and external roadblocks and procedural delays in the award of enhanced-
use leases to groups seeking to house homeless veterans. The current 
process takes too long and national objectives such as ending 
homelessness are often met with resistance by local opposition.
    8. The Federal Government needs to work intensively to eliminate 
seams and build bridges between the various programs that provide funds 
to serve homeless veterans. This will require the active collaboration 
of a number of Department Secretaries who share Secretary Shinseki's 
and the President's desire to address this issue in an urgent manner.
    9. VA needs to refocus its homeless program performance measures on 
increasing the overall number of veterans who are served by these 
programs, not just how many vouchers have been distributed this year. 
Congress can assist this change by demanding more timely and 
comprehensive program performance information.
    10. It is clear from published research that early intervention can 
dramatically reduce the effects of traumatic stress and subsequent 
PTSD. As noted earlier in our testimony, mental illness is a 
significant contributor to veteran homelessness. This Committee should 
regularly monitor the Department of Defense's ability to provide mental 
health services by military health personnel to servicemembers who have 
experienced traumatic stress. Although Admiral Mullen and others have 
acknowledged the need to heal soldiers and Marines who have experienced 
such stress, it would be very useful to compare the Defense 
Department's capacity to respond to servicemembers in a timely fashion 
with that of the Department of Veterans Affairs,

    NCHV has on several occasions acknowledged the leadership role of 
the Committee in this noble campaign. We know it is your leadership 
that brings us to this moment in history--Never before have we, as a 
nation at war, been better prepared to ensure that those who sacrifice 
some measure of their lives to serve in the military have the support 
they need to enjoy the peace and prosperity they have helped protect 
and preserve. The Homeless Veterans and Other Health Care Authorities 
Act of 2010 lays the foundation on which we as a nation can wage a 
successful assault on veteran homelessness and fulfill the Secretary's 
Five-Year Plan.
    homeless veterans and other health care authorities act of 2010
    For several years the homeless veteran assistance movement NCHV 
represents has realized there can be no end to veteran homelessness 
until we, as a Nation, develop a strategy to address the needs of our 
former guardians before they become homeless--victims of health and 
economic misfortunes they cannot overcome without assistance.
    The causes of all homelessness can be grouped into three primary 
categories: health issues; economic issues; and lack of access to safe, 
affordable housing for low and extreme-low income families in most 
American communities. This has been a chronic problem since the birth 
of the Great Society during the Johnson administration.
    The additional stressors veterans experience are prolonged 
separation from family and social support networks while engaging in 
extremely stressful training and occupational assignments; war-related 
illnesses and disabilities--both mental and physical; and the 
difficulty of many to transfer military occupational skills into the 
civilian workforce.
    NCHV believes the Homeless Veterans and Other Health Care 
Authorities Act of 2010, introduced by Senator Patty Murray--and 
unanimously supported by this Committee--has the potential to set this 
Nation on course to finally achieve victory in the campaign to end 
veteran homelessness in the United States.
    Victory in this campaign requires success on two fronts: effective, 
economical intervention strategies that help men and women rise above 
adversity to regain control of their lives; and prevention strategies 
that empower communities to support our wounded warriors and their 
families before they lose their ability to cope with stressors beyond 
their control.
    We believe the Homeless Veterans and Other Health Care Authorities 
Act addresses needs on both fronts.
    <bullet> As written, the Act calls for the Secretary of Veterans 
Affairs to study the method of reimbursing GPD community providers for 
their program expenses and report to Congress, within one year, his 
recommendations for revising the payment system. VA estimated that the 
current per diem payment of $34.40 covers no more than 20-30% of the 
cost of services provided by grant recipients. Because the current 
formula provides such a low level of financial support, there is 
inadequate VA presence in many large cities where tens of thousands of 
homeless veterans live. Rural homelessness is more difficult to track, 
but it's easy to see that few VA-supported programs exist in rural 
locations. The best way to address this gap would be to authorize the 
Secretary to provide grant assistance to all eligible organizations on 
a program cost basis rather than a per diem basis, and authorize the 
Secretary to provide differing levels of support to programs in high 
cost areas and in areas where there are significant gaps in services 
for veterans.
    This new authority could be time-limited if the Congress wanted to 
more closely examine the effect of such a change. To tell VA it needs 
to take a year to prepare a report, which would then be considered for 
up to two years by the next Congress, is to guarantee little progress 
in many parts of the country where VA-supported programs are sorely 
lacking. NCHV has been advocating this change since 2006. The Act calls 
for an increase in the annual GPD authorization to $200 million, 
beginning in FY 2010, which could provide additional funds for outreach 
through community-based veteran service centers and mobile service vans 
for rural areas, while continuing to increase the bed capacity of VA's 
community-based partners. These outreach initiatives will likely play a 
pivotal role as the VA's veteran homelessness prevention strategy moves 
forward.
    <bullet> Instructs the Secretary to establish a program to prevent 
veteran homelessness. The Act provides authorization for up to $50 
million annually to provide supportive services for low-income veterans 
to reduce their risks of becoming homeless, and to help those who are 
homeless find housing. Provisions include short- to medium-term rental 
assistance, poor credit history repair, housing search and relocation 
assistance, and help with security and utilities deposits. For many of 
the Nation's 630,000 veterans living in extreme poverty (at or below 
50% of the Federal poverty level), this aid could mean the difference 
between achieving stability and continuing on the downward spiral into 
homelessness.
    <bullet> Develops the Homeless Veterans Management Information 
System. This system would collect the essential information needed to 
determine how many veterans requested and received hosing assistance 
and for what length of time the assistance was given. This information 
will play a vital role in developing housing and services in future 
years.
    <bullet> Provides for the expansion of HUD-VASH to a total of 
60,000 housing vouchers for veterans with serious mental and emotional 
illnesses, other disabilities, and extreme low-income veteran families 
that will need additional services to remain housed. According to an 
analysis of data by the National Alliance to End Homelessness, about 
63,000 veterans can be classified as chronically homeless. This Act 
would, therefore, effectively end chronic veteran homelessness within 
the next five years.
    <bullet> Establishes within HUD a Special Assistant for Veterans 
Affairs to ensure veterans have access to housing and homeless 
assistance programs funded by the Department.
    <bullet> Modernizes the extremely important and successful VA Grant 
and Per Diem Program (GPD) to allow for the utilization of innovative 
project funding strategies--including the use of matching funds from 
other private or public sources to facilitate and hasten project 
development.
    <bullet> Requires the Secretary of Veterans Affairs to submit a 
comprehensive plan to end veterans' homelessness. Not only would this 
plan list the current programs offered to assist homeless veterans, it 
would also lay the groundwork for evaluating the effectiveness of those 
programs.
    <bullet> Creates a program, authorized at $10 million through FY 
2014, to provide employment assistance and child care to women veterans 
and veterans with dependent children. This would allow the growing 
number of women veterans to have access to employment and training 
opportunities that they are currently lacking.
    <bullet> Expands the Grant and Per Diem Program by including male 
homeless veterans with minor dependents as a new category. Community-
based organizations continue to see the number of male veterans with 
dependent children growing; by expanding the GPD to serve this 
population directly, many more veterans and their families could be 
assisted.
                             in summation,
    As we move forward on this effort to end veterans homelessness, I 
want to thank you for your support helping those men and women who have 
served this country in their time of greatest need. The progress we 
made has been commendable but our work will not be done until there are 
no veterans left on the streets.
    The Homeless Veterans and Other Health Care Authorities Act of 2010 
lays the foundation of the work that lies ahead. From the increase in 
the number of HUD-VASH vouchers, and the ability to provide supportive 
services for low-income and women veterans, to the improvement and 
expansion of the GPD program and reimbursement process, this bill 
provide real opportunities to move the PLAN into ACTION and fulfill the 
historic mission to end homelessness among America's former guardians 
in five years.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
 Patrick Ryan, Vice Chair, Board of Directors, National Coalition for 
                           Homeless Veterans
    Question 1. You mentioned in your written testimony that VA and its 
community-based partners cannot--address gaps in the availability of 
transitional and permanent housing--in communities with homeless 
veterans--without an immediate legislative change to the Grant and Per 
Diem Program. Can you please tell us specifically what particular 
legislative changes you are referring to?
    Response. As currently written, 38 U.S.C. section 2012(a) sets a 
maximum payment to a provider at a little over $34 per day, which is 
slightly more than $1,000 per month. VA estimates this amount is not 
more than 30% of the cost of providing care in most areas of the 
country. Because the current formula provides such a low level of 
financial support, there is inadequate VA presence in many large cities 
where tens of thousands of homeless veterans live. Rural homelessness 
is more difficult to track, but it's easy to see that few VA-supported 
programs exist in rural locations. The best way to address this gap 
would be to authorize the Secretary to provide payments to eligible 
organizations on a program cost basis rather than a per diem basis, and 
authorize the Secretary to provide differing levels of support to 
programs in high cost areas and in areas where there are significant 
gaps in services for veterans.
    Although the per diem program was never intended to reimburse for 
the full cost of care, a ``percentage of cost'' based reimbursement 
formula would give the Secretary greater flexibility and could lead to 
the establishment of transitional housing programs where none exist 
today. The language contained in section 3 of H.R. 4810, 111th 
Congress, is one way of addressing this issue.
    A second problem with the current formula is the effect it has on 
smaller community-based organizations. In order to provide services, 
these organizations incur certain fixed costs, especially employee 
salaries. However, if the planned number of veterans is lower than the 
program's maximum, its funding from the VA is reduced. This result is 
perceived as unfair by service providers, who are used to grant 
programs that use a ``percentage of cost'' reimbursement funding 
formula.

    Question 2. Can you help the Committee reconcile the excellent 
testimony of our first panel of witnesses with the statements of this 
panel about the distinctly different approaches to ending homelessness 
among seriously mentally ill veterans?
    Response. While each of these agencies focus on their different 
areas, it is key to remember that all of the programs administered by 
these agencies (DOL, HUD, and VA) relate to a person's ability to get 
and maintain housing. However, the veteran's need for health care 
(including mental health services) and employment services must also be 
addressed if we want to achieve lasting change in the lives of veterans 
who were homeless.

    Question 3. In your testimony, you touched on several steps 
necessary to enable the Federal Government to end homelessness among 
veterans in five years. Based on your experience on the issue of 
homeless veterans when you were with the House Committee on Veterans' 
Affairs, what do you see as the major roadblocks that need to be 
overcome to make real progress?
    Response.

    A. VA could be more open and collaborative. There is a basic lack 
of current, publicly available data about the number of programs 
serving homeless veterans. VA should develop and post this information 
on a public Web site and solicit suggestions on how to address gaps in 
services. If VA clearly identified gaps in the availability of 
transitional and permanent housing in communities with homeless 
veterans, it would be easier for communities and local organizations to 
take action to build capacity. Large cities such as New York, Boston, 
Chicago, and Los Angeles have significant gaps between the demand for 
transitional housing and the number of facilities available. Gaps also 
exist in many small and medium-sized communities and on Indian tribal 
lands. Focusing on those gaps and addressing them is the only way to 
end homelessness. For FY 2010, VA received an additional $50 million in 
construction funds to make vacant building available to house homeless 
veterans, but there has been little consultation with veterans' 
advocates about how this money can be spent most effectively.
    B. HUD, Labor, and other Departments need to work with a far 
greater sense of urgency to eliminate seams and build bridges between 
the various Federal programs that serve homeless veterans. It is 
remarkable, for instance, that money provided to HUD in the 2009 
appropriation process for homelessness prevention pilot has still not 
been made available. Several NCHV members have been urging HUD to take 
immediate steps to stimulate the creation of additional permanent 
housing for homeless veterans, including project basing for Section 8 
rental housing vouchers, but HUD has not affirmatively issued guidance 
on this subject. VA should adopt an immediate action plan to eliminate 
roadblocks and procedural delays in the award of enhanced-use leases to 
groups seeking to house homeless veterans. If HVRP is as successful as 
Labor claims, why aren't even more funds devoted to it? The Interagency 
Council on Homelessness (ICH) needs to be far more action-oriented.
    C. The Office of VA Homeless Programs needs additional resources to 
more closely monitor outreach, referral, and admission policies at 
every VA medical center to ensure that these policies are collaborative 
and consistent with the goal of ending homelessness.
    D. To demonstrate its commitment to ending homelessness, VA and the 
other members of the ICH should convene an open meeting with community-
based organizations serving homeless veterans no later than the end of 
May 2010 to discuss ideas about how these Departments could immediately 
alter program rules and policies to permit greater flexibility in the 
use of grant funds to serve homeless veterans.
    E. It is clear that mental illness is a significant contributor to 
veteran homelessness, and that early intervention can dramatically 
reduce the effects of traumatic stress and subsequent PTSD among 
servicemembers . The Congress or some other impartial body should 
monitor closely the Defense Department's capacity to respond to 
servicemembers with incipient mental illness in a timely fashion.

    Question 4. Based on your experiences, do you believe there are any 
simple changes that can be done immediately to improve the services and 
programs available to assist our homeless veteran population and what 
are they?
    Response. In my opinion, the VA's Office of Homeless Programs is 
well-led, but its resources are stretched. It would be useful if it had 
additional resources so that it could be more proactive. For example, 
additional resources could be used to provide more extensive employee 
awareness training so that all VA employees understood how they can 
play a role in ending homelessness among veterans. The Office also 
needs internal authority and additional resources to more closely 
monitor outreach, referral, and admission policies at every VA medical 
center to ensure that these policies are collaborative and consistent 
with the goal of ending homelessness.

      

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
